<html>
<title> - CAMPUS SAFETY: IMPROVING PREVENTION AND RESPONSE EFFORTS</title>
<body><pre>[Senate Hearing 114-791]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-791
 
        CAMPUS SAFETY: IMPROVING PREVENTION AND RESPONSE EFFORTS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING CAMPUS SAFETY, FOCUSING ON IMPROVING PREVENTION AND RESPONSE 
                                EFFORTS

                               __________

                             JULY 13, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-892 PDF                 WASHINGTON : 2018            
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming              PATTY MURRAY, Washington
RICHARD BURR, North Carolina          BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia               BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                   ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                  AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska                MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                   SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina             TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                  CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                   ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana
                             

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, JULY 13, 2016

                                                                   Page

                           Committee Members

Kirk, Hon. Mark, a U.S. Senator from the State of Illinois, 
  opening statement..............................................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     1
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...     3
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     4
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    56
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    58

                               Witnesses

Amweg, Rick, Security Consultant, Security Risk Management 
  Consultants, LLC, Columbus, OH.................................     5
    Prepared statement...........................................     7
Allan, Elizabeth, Ph.D., Executive Director of StopHazing.org and 
  Professor at the University of Maine, Orono, ME................     8
    Prepared statement...........................................     9
Huskey, Melynda, Ph.D., Interim Vice President of Student Affairs 
  and Dean of Students, Washington State University, Pullman, WA.    19
    Prepared statement...........................................    21
Krisak, Wendy, M.A., NCC, LPC, Director of The Counseling Center, 
  DeSales University, Center Valley, PA..........................    23
    Prepared statement...........................................    25
Storch, Joseph, Associate Counsel, The State University of New 
  York, Albany, NY...............................................    35
    Prepared statement...........................................    37
Clementi, Jane, Co-Founder, The Tyler Clementi Foundation, New 
  York, NY.......................................................    44
    Prepared statement...........................................    46

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to questions of Senator Murray by Joseph Storch.....    62

                                 (iii)

  


        CAMPUS SAFETY: IMPROVING PREVENTION AND RESPONSE EFFORTS

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:57 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Mark Kirk 
presiding.
    Present: Senators Kirk, Collins, Murray, Casey, Bennet, 
Baldwin, and Warren.

                   Opening Statement of Senator Kirk

    Senator Kirk. I recognize the Ranking Member for her 
opening statement.

                  Opening Statement of Senator Murray

    Senator Murray. Mr. Chairman, thank you very much. Were you 
going to make an opening statement?
    Senator Kirk. No.
    Senator Murray. OK. I would like the opportunity to do 
that, and I want to thank everyone, and I'm glad we're able to 
be here to talk about these very important and pressing issues. 
I want to thank all of our colleagues who are joining us at 
this hearing as well today. I also want to thank the many great 
advocates here who have been working with us on reauthorizing 
the Higher Education Act and, of course, improving campus 
safety. It is great to see so many new faces as well.
    Today, students are making major investments to pursue 
higher education, which they correctly see as an opportunity to 
grow and challenge themselves and to develop skills that will 
better prepare them for their future. While students work hard 
to succeed in higher education, the last thing they should ever 
have to worry about is whether they are safe on campus.
    I'd like to begin by saying a few words about the Stanford 
University rape case as a critical example of why today's 
discussion is so urgent and of the need for us to acknowledge 
the reality of violence and fear experienced by too many 
students on our college campuses. I want to make clear that the 
anger and frustration that the sentencing in this case has 
generated is completely justified. Our criminal justice system 
failed a brave survivor who deserved to know her rapist had 
been held accountable.
    But, I admire this incredible young woman who has shown so 
much strength in telling her story and giving hope to many 
other survivors across our country and around the world. And I 
admire the two students, strangers and responsible bystanders, 
who did step up and take action, which highlights the critical 
importance of bystander intervention, a prevention strategy for 
combating all types of violence on campus, and something I look 
forward to hearing about today. Their action shows how 
important it is to build a community and a campus culture that 
empowers students to step in and support students who are being 
targeted, whether it's sexual assault or bullying or harassment 
or hazing. A critical part of this is dispelling the myth that 
bullying and harassment are inevitable aspects of life.
    I have introduced legislation named in honor of Tyler 
Clementi, a young man who we know took his own life after 
experiencing bullying and harassment on the Internet. I'm so 
glad that Jane Clementi is here today to talk about her son, 
Tyler, what he and his family have experienced and how we can 
help protect students and all gay, lesbian, bisexual, and 
transgender youth so that no one has to endure what he did.
    I'm also looking forward to hearing from Dr. Allan today 
about hazing. Seventy-four percent of varsity athletes and 73 
percent of students participating in social fraternities and 
sororities have experienced at least one hazing behavior. 
Alcohol consumption, humiliation, isolation, sleep deprivation, 
and sex acts are hazing practices common across all student 
groups. Hazing activities are often billed as traditions, but 
they can have such damaging and lasting impacts on young 
people, even claiming students' lives.
    I know there are sincere disagreements on what Congress' 
responsibilities should be when it comes to sexual assault and 
violence on campus. But I firmly believe the Federal Government 
has a role to play to hold institutions of higher education 
responsible for providing a safe learning environment for all 
students.
    Colleges and universities must create a culture that does 
not accept violence, and to be clear, a flyer or a one-time 
training in freshman year is not enough. We as the Federal 
Government have a responsibility to engage in and support these 
efforts in every way that we can.
    Last, there is a lot of heartache in our cities and our 
communities right now. We mourn the victims and families 
impacted by the horrific violence in Dallas, the tragic deaths 
in Baton Rouge and Saint Paul, and we are once again reminded 
that nowhere is safe from the epidemic of gun violence, not 
even at our schools, which should be safe havens for our 
students. My home State of Washington is no stranger to this 
violence, as we saw clearly with the shooting at Seattle 
Pacific University just 2 years ago.
    We know there are steps we can take to make our students 
safer. We should come together on a bipartisan basis at every 
level of government and refuse to accept these horrors as the 
new normal.
    I'll conclude here so we can start this discussion. But 
it's clear we have a lot of challenges before us. Everyone here 
today has stepped up to make a real difference, and, going 
forward, we must challenge ourselves to do even more to make 
campuses safer. Day by day, step by step, we can change not 
just our laws and policies but our behaviors and our culture. I 
am committed to making sure that happens. I know my colleagues 
are as well, and I look forward to our continued work.
    Thank you.
    Senator Kirk. Ms. Collins.

                      Statement of Senator Collins

    Senator Collins. Thank you very much. Senator Kirk, Senator 
Murray, I want to thank you for putting together this excellent 
roundtable to explore the issue of hazing.
    I'm delighted to introduce one of our panelists today, 
Professor Elizabeth Allan from the University of Maine. 
Professor Allan teaches courses in higher education at the 
University in the College of Education and Human Development. 
Her research focuses on college cultures and climates with 
expertise in student hazing and prevention. The professor is 
president of StopHazing.org, an organization focused on sharing 
information and strategies to promote safe campus climates.
    She also leads the research efforts of the Hazing 
Prevention Consortium, a partnership of eight colleges and 
universities engaged in a multiyear initiative to build an 
evidence base for the prevention of hazing on college campuses. 
She has been involved in this issue for a number of years. For 
example, in 2008, Professor Allan was the principal 
investigator of the National Study of Student Hazing, which 
surveyed 11,000 students from 53 universities and colleges, and 
major findings included that hazing exists outside of 
traditional fraternity and sorority environments and that 
schools should develop hazing prevention efforts that reach a 
wider range of student groups.
    Professor Allan received her Ph.D. in Educational Policy 
and Leadership from Ohio State University and her Master's in 
Health Education and Promotion, and bachelor's degrees in 
psychology, both from Springfield College. It's a special honor 
for me to welcome Professor Allan to our panel today.
    Thank you.
    Senator Kirk. Ms. Murray to introduce a witness.
    Senator Murray. Thank you so much. I'm very pleased today 
to introduce Dr. Melynda Huskey. She currently serves as the 
Interim Vice President of Student Affairs and the Dean of 
Students, where her goal is, ``to support the determination of 
students.''
    She has served at Washington State University for more than 
22 years, working with students. She has overseen the 
university's work on student affairs at a time when schools are 
becoming more and more important in the fight against all forms 
of violence and discrimination on our college campuses, while 
also dedicating herself and her staff to helping all students 
who walk through the doors.
    In 2014, to increase public transparency and 
accountability, the Department of Education for the first time 
released a public list of schools with title IX investigations. 
Dr. Huskey's school, which is Washington State University, was 
among the first schools on that list. Under her leadership and 
the leadership of the late president, Elson Floyd, WSU forged 
forward and made a commitment to improve campus safety for our 
students.
    She and her staff have worked tirelessly to improve the 
safety and well-being of students at WSU, dedicating themselves 
to new trainings and protocols. I cannot be happier to have her 
here today to talk about what she and her staff are doing. As a 
Cougar alum myself, I'm very proud of this work and how 
seriously Washington State University has taken this 
responsibility.
    My staff and I have seen Dr. Huskey's leadership on so many 
fronts, not just on campus safety. She's a true leader on 
addressing the hurdles that face first-time college students 
and their families and helping students who are facing the 
severe challenges that come with the lack of housing and 
financial security and medical coverage.
    I know there are still things Dr. Huskey would like to see 
improved to make her school an even safer place for students to 
learn and grow and thrive. But I want to take this opportunity 
to praise her and her team and the university's leadership for 
making the strides we've seen there.
    I look forward to your testimony, and thank you for coming 
all the way to what we call the other Washington here to 
testify today. Thank you.
    Senator Kirk. Let me recognize our Ranking Member.
    I'll tell members that I put a piece of colored paper 
before you that is an anti-bullying app that I developed with 
my student leadership advisor. It's called Back Up Bully that 
we did with Motorola. You'll notice the Motorola android symbol 
is in there. They put that in because they pretty much did all 
the back end of the work.
    That's to encourage you to--you can even do some software 
development on this subject in your own office. It would help 
if my fellow members would take me up on that. But we've passed 
out the Back Up Bullying app. It's a little bit--it looks a bit 
like Donkey Kong there.
    Mr. Casey.

                       Statement of Senator Casey

    Senator Casey. Thanks very much, Senator Kirk.
    I want to thank those who are here today for this hearing. 
We want to thank all the witnesses who are here to talk about 
an issue that I believe is a crisis that we need to take action 
against. I know there's been some progress made in the last 
couple of years, but we have a long way to go to get this 
right.
    I am privileged today to introduce a Pennsylvania witness, 
Wendy Krisak, who is the Director of Counseling at DeSales 
University. Wendy is also the faculty adviser for PACE, which 
is a program that trains students to be peer counselors. We're 
grateful that she's here to testify and to take questions. I'm 
also looking forward to hearing more about PACE itself and the 
role it's playing in ensuring a safe and supportive campus 
climate for all of the students on her campus. Wendy has a B. 
A. from DeSales and a master's in counseling psychology from 
Kutztown University.
    Wendy, we thank you for being here today and representing 
not only your school but, I guess, in a sense, our State. Thank 
you.
    Senator Kirk. Ms. Murray.
    Senator Murray. All right. With that, we'll introduce our 
last three witnesses. We have Rick Amweg. He's a security 
consultant who has more than 35 years of experience working at 
the intersection of higher education and public safety, 
including as the assistant chief of policy and the director of 
Public Safety Administration at Ohio State University. He also 
served as a negotiator for the rulemaking process at the U.S. 
Department of Education which was conducted to develop new 
regulations to the Clery Act.
    Thank you for being here today.
    We also have Joseph Storch, who is an associate counsel for 
the State University of New York system, or SUNY. In that role, 
he chairs the Student Affairs Practice Group and specializes in 
legal issues around campus safety, domestic and workplace 
violence policies, admissions, and financial aid. He has 
written on the issue of cyber bullying, and as a member of the 
Counsel's office, he helps the 26 campuses that are part of the 
SUNY system implement and understand the title IX and Clery Act 
to help make the campus safer.
    Thank you for being here today.
    And as our final witness, I'm very pleased to introduce 
Jane Clementi, who along with her husband, Joe, is a co-founder 
of the Tyler Clementi Foundation, which is an organization that 
seeks to prevent bullying, that she founded on behalf of her 
son, Tyler. Tyler was just a college freshman who was harassed 
and cyber bullied and, sadly, died by suicide.
    Ms. Clementi advocates for lesbian, gay, bisexual, and 
transgender rights and the need for families and communities 
and schools to embrace LGBT students and work to prevent and 
reduce bullying and harassment in our schools.
    Thank you so much for the work that you do and for taking 
the time to be here with us today. We really value your 
participation. Thank you.
    Senator Kirk. I want to thank all of our witnesses for 
coming today, and we really appreciate your expertise and 
coming for this critical topic.
    I thank our Ranking Member, Ms. Murray, for doing this, 
impelling this committee to action on this key issue. I want to 
encourage all of my colleagues to get into the software 
development--in this with me, to put together an app like this. 
As we know, with kids, we've got to speak to them with apps.
    With that, I'll depart you. Thank you.
    Senator  Murray [presiding]. Each one of our witnesses is 
going to give statements to begin with.
    Mr. Amweg, we'll start with you.

  STATEMENT OF RICK AMWEG, SECURITY CONSULTANT, SECURITY RISK 
           MANAGEMENT CONSULTANTS, LLC, COLUMBUS, OH

    Mr. Amweg. Thank you. Good afternoon, Senator Kirk, Ranking 
Member Murray, and members of the committee. Thank you for 
inviting me here today. I'm honored to be here and take part in 
this process.
    I truly do look forward to the discussion and the 
opportunity to specifically discuss the effects of harassment, 
intimidation, bullying, including cyber bullying, and hazing on 
the post-secondary learning environment and explore ways to 
improve campus safety by improving prevention and response 
efforts in those areas.
    There are various definitions of bullying, hazing, and 
related activities. Most experts agree that there are three 
conditions that must be present for activity to be defined as 
bullying.
    First, an imbalance of power, wherein people who bully use 
their power to control or harm, and the people being bullied 
may have a hard time defending themselves. Second, an intent to 
cause harm. Actions done by accident are not bullying. The 
person bullying has a goal to cause harm. And, third, 
repetition. Incidents of bullying happen to the same person 
over and over by the same person or group. This definition is 
supported by the U.S. Department of Education and Bullying.gov.
    Harassment, intimidation, bullying, and hazing are 
oftentimes thought of as occurring only in the elementary and 
secondary school environments. Until recently, most research in 
this area has focused on students in this environment. Studies 
now show that bullying and related activities, as well as cyber 
bullying, do not end with high school but continue into the 
post-secondary system.
    It is important to understand these definitions in the 
context in which they are applied. In the elementary and 
secondary school environments, these activities are generally 
prohibited by rule and/or administrative process. Once 
individuals reach the age of 18, different protections are 
provided to victims by law, and laws now address the illegal 
behavior of the perpetrators.
    Part of the problem stems from the different ways bullying 
and related activities are defined in educational systems. Some 
behaviors typically labeled as bullying in high school are not 
treated similarly in college. Findings from a recent U.S. 
Department of Education study show that when bullying and 
hazing do occur in college, the consequences for the 
perpetrators are often harsher than for younger students who 
are less likely to face legal repercussions.
    Two approaches to this issue need to be considered: 
prevention and response. Some measures, such as training 
programs for campus staff that interact with students, 
bystander intervention programs, and awareness and familiarity 
training, could impact the prevalence of bullying, hazing, and 
related activities on campus.
    Changing behaviors and attitudes toward bullying and hazing 
are also important aspects of prevention-focused programming. 
Colleges and universities already implement similar programs in 
other areas, such as sexual and intimate partner violence and 
awareness and prevention programs. Applying these principles to 
bullying and hazing prevention is a logical step.
    From the response perspective, most if not all States have 
statutes that address bullying and hazing activities. 
Similarly, most colleges and universities have policies and 
guidelines related to bullying and hazing activities. Some 
campuses address the issue within the context of harassment in 
general.
    For example, any action that falls generally under the 
definition of bullying or hazing would be considered a 
violation of the code of student conduct and would be dealt 
with through the student judicial process. Typically, students 
found responsible and in violation would be subject to 
immediate disciplinary action. Some institutions include 
suspension as part of that disciplinary process. Any case of 
bullying or hazing that is determined to be a violation of 
criminal statutes can be referred to the campus or local law 
enforcement authorities.
    Our efforts today and through the continued work of this 
committee should be to identify ways to positively impact the 
learning experience on our campuses by reducing incidents of 
bullying and hazing, raising awareness of these activities on 
our campuses, identifying existing and promising prevention 
programs, and ensuring that the application of existing 
statutes and conduct rules apply to these situations.
    Thank you. I look forward to the forthcoming dialog.
    [The prepared statement of Mr. Amweg follows:]

                    Prepared Statement of Rick Amweg

    Good afternoon Chairman Alexander, Ranking Member Murray, members 
of the committee. My name is Rick Amweg. I have over 35 years of 
experience working on safety and security related matters in the 
secondary and post-secondary education environments. I am here today to 
participate in this roundtable discussion and specifically discuss the 
effects of harassment, intimidation, bullying (including cyber 
bullying) and hazing on the post-secondary learning environment and how 
campuses can develop and improve awareness and prevention efforts and 
positively impact safety for their students.
    There are various definitions of bullying, hazing and related 
activities. Most experts agree there are three conditions that must be 
present for activity to be defined as bullying: (1) An imbalance of 
power: people who bully use their power to control or harm and the 
people being bullied may have a hard time defending themselves; (2) 
Intent to cause harm: actions done by accident are not bullying; the 
person bullying has a goal to cause harm; and (3) Repetition: incidents 
of bullying happen to the same the person over and over by the same 
person or group. This definition is supported by the U.S. Department of 
Education and Bullying.gov.
    Harassment, intimidation, bullying and hazing are often times 
thought of as occurring only in the elementary and secondary (K-12) 
school environments. Until recently, most research in this area has 
focused on students in this environment. Studies now show that bullying 
and related activities as well as cyberbullying does not end with high 
school. Some reports indicate that nearly 25 percent of college 
students are victims of bullying or hazing.
    It is important to understand these definitions in the context in 
which they are applied. In the elementary and secondary school 
environments these activities are generally prohibited by rule and 
administrative process. Once individuals reach the age of 18, different 
protections are provided to victims by law and laws now address the 
illegal behavior of perpetrators. Part of the problem stems from the 
different way bullying and related activities are defined in 
educational systems. Some behaviors typically labeled as bullying in 
high school are not treated similarly in college. Findings from a 
recent U.S. Department of Education study showed that when bullying and 
hazing do occur in college, the consequences for the perpetrators are 
often harsher than for younger students, who are less likely to face 
legal repercussions.
    Two approaches to this issue need to be considered: Prevention and 
Response.
    Some measures, such as training programs for campus staff that 
interact with students, bystander intervention programs, and awareness 
and familiarity training could impact the prevalence of bullying, 
hazing and related activities on campuses. Changing behaviors and 
attitudes toward bullying and hazing are also important aspects of 
prevention-focused programming. Colleges and universities already 
implement similar programs in other areas, such as sexual and intimate 
partner violence awareness and prevention programs. Applying these 
principles to bullying and hazing prevention is a logical step.
    From the response perspective, most, if not all states have 
statutes that address bullying and hazing activities. Similarly, most 
colleges and universities have policies and guidelines related to 
bullying and hazing activities. Some campuses address the issue within 
the context of harassment in general. For example, any action that 
falls generally under the definition of bullying or hazing would be 
considered a violation of the student code of conduct and would be 
dealt with through the student judicial process. Typically, students 
found responsible and in violation will be subject to immediate 
disciplinary action. Some institutions include suspension as part of 
that disciplinary process. Any case of bullying or hazing that is 
determined to be of a violation of criminal statutes can be referred to 
campus or local law enforcement authorities.
    Our efforts today, and through the continued work of this committee 
should be to identify ways to positively impact the learning experience 
on our campuses by reducing incidents of bullying and hazing, raise 
awareness of these activities on our campuses, identify existing and 
promising prevention programs, and ensure that the application of 
existing statutes and conduct rules apply to these situations.
    Thank you. I look forward to the forthcoming dialog on preventing 
and responding to harassment, intimidation, bullying and hazing on our 
college and university campuses.

    Senator Murray. Thank you.
    Dr. Allan.

 STATEMENT OF ELIZABETH J. ALLAN, Ph.D., EXECUTIVE DIRECTOR OF 
STOPHAZING.ORG AND PROFESSOR AT THE UNIVERSITY OF MAINE, ORONO, 
                               ME

    Ms. Allan. Senator Kirk, Ranking Member Murray, and members 
of the committee, thank you for inviting me to participate in 
this roundtable discussion. I'm honored to be here. My remarks 
are grounded in more than 25 years of research and education 
about hazing and its prevention.
    I'd like to begin with a statement shared with me this week 
by a parent who lost her son from hazing. She wrote, ``Hazing 
is emotionally and physically hurting our youth and young 
adults and can lead to death. My son would be 27 years old. No 
parent ever expects to send their child off to college and come 
home in a coffin. It is time for each and every one of us to 
make a difference now for our children and for generations to 
come. My 18-year-old daughter will be leaving for college in 
the next few weeks, and I worry for her and her fellow 
students, not only for hazing but also for sexual abuse, 
alcohol abuse, and campus violence.''
    Hazing is any activity expected of someone joining or 
maintaining membership in a group that humiliates, degrades, 
abuses, or endangers them, regardless of a person's willingness 
to participate. Hazing is widespread, with 55 percent of 
college students experiencing it and 47 percent in high school. 
It occurs among athletic teams, fraternities and sororities, 
marching bands, but also in recreation clubs, intramural 
sports, and even honor societies.
    Hazing extends far beyond pranks and antics to include 
behaviors that are dangerous, demeaning, and abusive. Alcohol 
use, sexual harassment and assaults, and bullying are commonly 
involved. Further, hazing occurs in context where students are 
learning how to be leaders and team members. While we need to 
eliminate hazing to enhance campus safety, we also need to 
eliminate hazing to promote educational environments conducive 
to learning and to promote the development of ethical leaders 
who treat each other with dignity and respect.
    Though we now have some solid research about the nature and 
extent of hazing, we are only in the early stages of generating 
an evidence base for its prevention. At this time, it remains 
common for individuals and organizations to promote and 
implement prevention strategies that have limited, if any, 
evidence for impact in changing behavior.
    My work in recent years has focused on addressing this gap 
in the research. As part of a 3-year, research-to-practice 
initiative called the Hazing Prevention Consortium, I 
collaborated with eight pioneering universities to test 
promising hazing prevention strategies and evaluate their 
impact. Through this consortium, we have conducted a 
considerable amount of research to formalize a data-driven 
framework for hazing prevention. But as we move forward, we 
remain cognizant that building a rigorous evidence base is 
necessary but also long-term and resource intensive.
    As we consider hazing prevention in relation to other forms 
of interpersonal violence in this roundtable, I will briefly 
point to several areas in which there are needs for government 
support and engagement as we strive to formulate effective 
approaches to hazing prevention as one among many campus safety 
issues.
    We need ongoing research to continue to improve our 
understanding of the problem of hazing and continued testing 
and evaluation of prevention strategies to identify approaches 
that have proven track records for effectiveness. We need the 
establishment of sound laws, policies, and procedures to 
protect students from hazing and address incidents when they 
occur.
    We need mandates to increase transparency about hazing 
incidents and reports on campus so that institutions are held 
accountable for tracking hazing and so that the public has 
access to accurate information. We need the development of 
research and prevention frameworks that address the 
intersections across campus safety issues so that we are not 
operating in a siloed approach.
    State and Federal support of education and training are 
needed with a focus on ethical leadership development and 
bystander intervention; financial support for disseminating 
broad-based information campaigns to educate the public about 
hazing, signs of it, and where to report it; and coordination 
of regional and national conferences and meetings to gather 
scholars, practitioners, educators, families, and other 
stakeholders to advance the cause of hazing prevention.
    In closing, the time is now to ensure that hazing is 
foregrounded as a threat to campus safety and a threat to 
positive leadership development in our youth. The time is now 
to prevent further senseless tragedies and loss of human 
potential as a result of hazing. And the time is now to 
recognize that educational institutions will be stronger and 
safer without hazing. We all have an opportunity and 
responsibility to make a difference by committing to hazing 
prevention and promoting safer schools and campuses for the 
youth of this Nation.
    Thank you.
    [The prepared statement of Ms. Allan follows:]

            Prepared Statement of Elizabeth J. Allan, Ph.D.

                                summary
What is hazing?
    Hazing is defined as ``any activity expected of someone joining or 
maintaining membership in a group that humiliates, degrades, abuses, or 
endangers them, regardless of a person's willingness to participate'' 
(Hoover & Pollard, 1999). Three key components are embedded in this 
definition:

    1. Hazing is behavior that occurs for the purpose of gaining 
membership and/or trying to maintain membership in an established 
group, organization, or team.
    2. Hazing involves behavior that risks emotional or physical harm.
    3. Hazing can occur regardless of a person's willingness to 
participate.
Why is hazing a problem?
    <bullet> Hazing is a threat to campus safety.
    <bullet> Hazing can leave lifelong scars and in some cases, it can 
be lethal.
    <bullet> Hazing can damage relationships, breed anger, mistrust, 
and resentment that erodes the educational and leadership benefits.
    <bullet> Hazing is a problem for leadership development in our 
Nation's youth.
    <bullet> Hazing wastes time and precious resources.
Nature and extent of hazing
    Based on findings from a national study of student hazing (Allan & 
Madden, 2008)
    <bullet> 55 percent of college students and 47 percent of high 
school students experience hazing.
    <bullet> Men (61 percent) and women (52 percent) experience hazing 
on campus.
    <bullet> Hazing cuts across racial identities, meaning all students 
on campus are at risk.
    <bullet> Hazing occurs across different types of student groups.
    <bullet> Hazing behaviors are dangerous, demeaning, and abusive.
    <bullet> Varsity athletic teams (74 percent) and fraternities and 
sororities (73 percent) haze at the highest rates, but they are far 
from the only domains on campus where hazing is common.
    <bullet> Groups such as club sports (64 percent), performing arts 
organizations (56 percent), service organizations (50 percent), 
intramural teams (49 percent), and recreation clubs (42 percent), and 
even students involved in academic clubs (28 percent) and honor 
societies engage in hazing behaviors.
Prevention
    <bullet> A data-driven framework for hazing prevention was 
developed through work of Hazing Prevention Consortium (http://www.stop
hazing.org/hazing-prevention-consortium/) and StopHazing (2016).
    <bullet> More support is needed to strengthen and advance current 
initiatives. Action items include: resources for further research and 
its dissemination, evaluation of hazing prevention strategies to 
continue building evidence-base for prevention, mandates for 
institutional reporting and transparency; continued work to strengthen 
State laws; support from State and Federal agencies to develop 
prevention frameworks that address intersections among varied campus 
safety issues to avoid siloed approach; information sharing and 
coordination through professional associations in higher education; 
funding and mandates for research-informed and evaluated trainings, 
conferences, think tanks.
                                 ______
                                 
          ``Hazing is emotionally and physically hurting our youth and 
        young adults and can lead to death. In the case of my son, [he] 
        would be 27 years old [today]. No parent ever expects to send 
        their child off to college and come home in a coffin. There is 
        not a day that goes by that I do not think about my son and it 
        is time for each and everyone of us to make a difference NOW 
        for our children and generations to come. My 18-year-old 
        daughter will be leaving for college in the next few weeks and 
        I worry for her and her fellow students, not only for hazing 
        but including sexual abuse, alcohol abuse, campus violence, 
        etc.''-- Lianne Kowiak, mother of Harrison Kowiak killed by 
        hazing in 2008.

    Chairman Alexander, Ranking Member Murray, and members of the 
committee, I would like to thank you for the opportunity to participate 
in this roundtable discussion about campus safety and violence 
prevention in higher education. As a Professor of Higher Education and 
researcher who studies aspects of campus culture and climate, I am 
honored to be invited to talk with you about my research and work 
related to student hazing and its prevention. My remarks are grounded 
in more than 25 years of research and education about hazing and its 
prevention. Over the past two and half decades, I've talked with 
thousands of students and education professionals about hazing; I 
coordinated efforts to pass a State law prohibiting hazing, I founded 
the first educational website about hazing (www.stophazing.org); have 
led research teams to survey more than 12,000 college students and 
interview hundreds more about hazing on college campuses (http://
www.stophazing.org/hazing-view/), and I currently lead a team of 
prevention specialists who are working to guide a consortium of eight 
universities as well as several high schools across the country to 
implement and evaluate strategies for hazing prevention.
    In preparation for this testimony, I reached out to a network of 
constituents from across the country who are invested in this issue to 
let them know I would be testifying today and to ask for their input 
about the most important information I needed to convey to you today. 
Scholars, educators, prevention practitioners, parents of victims of 
hazing incidents, and others who are deeply concerned about this issue 
responded. Here is some of what they said,

          ``Hazing has no place in any organization . . . the lasting 
        and irrevocable damage is permanent. A hazing death is 
        senseless and preventable. Time honored `so called traditions' 
        must be ended. A life lost is a tragedy that can be stopped 
        with education and awareness. Hazing is cruel and has claimed 
        innocent lives affecting a family for all time. Nearly 40 years 
        have passed since my son Chuck died needlessly. Not a day 
        passes that we don't remember the loss we all suffered. The 
        life snuffed out that would have contributed to society. A 
        young and intelligent man who anticipated a bright future--who 
        was denied his family, his future, and not by choice.''-- 
        Eileen Stevens, mother of Chuck Stenzel killed by hazing in 
        1978.
          ``Hazing is a very serious problem on high school and college 
        campuses. It does not have the carnage that gun violence does. 
        However, it does cause tragedy and death at an alarmingly 
        increasing rate. There has been at least one death every year 
        as a result of hazing. From 2000 to January 2015, there were 57 
        documented fraternity hazing related deaths. This does not take 
        into account the numerous lesser, more subtle forms of hazing 
        that happen nor other organizations where hazing occurs. What 
        happened to our oldest son, Gary Jr., should have never taken 
        place. His tragic death was totally preventable and avoidable 
        had one person done the right thing and stopped the hazing well 
        before this deadly night. Had universities been required to 
        report hazing incidents and posted on their websites, Gary Jr. 
        would not have been a pledge.''--Julie DeVercelly, mother of 
        Gary DeVercelly Jr. killed by hazing in 2009.
          ``Hazing has operated as a secretive, accepted, organized, 
        and institutionalized form of physical, verbal, psychological, 
        and emotional torture affiliated with group initiation 
        practices. The urgency is now to prevent hazing before another 
        life is lost.''-- Pamela Champion, mother of Robert Champion 
        killed by hazing in 2011.

    My comments draw from years of research on hazing, the theories and 
science of prevention, my experience as an educator and student life 
professional, and my most recent work to build an evidence-based 
framework for hazing prevention in college and high school settings. 
But as indicated by the previous quotes from parents of hazing victims, 
I am also here to speak on behalf of, and to reflect on, the 
perspectives of the countless stakeholders from throughout this country 
who have knowledge about and have been deeply impacted by the 
prevalence of hazing in our educational institutions. It is my hope 
that I can do justice to their views and to the sense of urgency they 
have conveyed to me upon learning that I would be speaking with you 
today.
    My journey into this field was catalyzed by my role as a campus 
professional at a public university where I worked with talented, 
capable, and dedicated undergraduate students to promote learning and 
enrichment outside the classroom through student activities, including 
leadership education and advising for Greek-letter organizations. As I 
coordinated leadership development programs with these college 
students, I also became aware of hazing and its impact. The students 
with whom I worked were intelligent, hard working, and well-liked. Yet, 
many of these rising stars were experiencing the abuses of hazing or 
watching silently as new members of their organizations were hazed. 
There was the student who visited my office after he was hospitalized 
with kidney damage from paddling; or the students burned from being 
sprayed with oven cleaner, the numerous sexual assaults, the ``lock-
ups,'' days and weeks deprived of sleep, the alcohol intoxications, the 
verbal abuses and other indignities to name a few. Little did I know, 
this was only the tip of the iceberg. Since then, I have heard 
hundreds, if not thousands, of similar stories from students and their 
loved ones about the painful and sometimes tragic consequences of 
hazing.
    Early on, as I became more aware that students at my university 
were both suffering and perpetrating abuses of hazing and not wanting 
to be a bystander myself, I felt compelled to take action. Not sure 
where to begin, and with no ``best practices'' as a guide, I did 
whatever I could to educate others about the possible dangers of 
hazing. I brought guest speakers to campus, I helped to develop 
trainings, peer education, more stringent accountability for hazing, 
high-risk drinking, and sexual aggression. I worked to add more rigor 
to hazing investigations and develop innovative educational 
consequences for hazing by working with students to develop 
alternatives to hazing traditions. We instituted a hotline for 
anonymous reporting and I also led an initiative to enact State 
legislation--an effort that included press conferences, lobbying 
efforts at the 
statehouse, and courageous students telling their personal stories of 
hazing experiences--all of which eventually culminated in the passage 
of a State law to prohibit hazing. However, as we know, a State law 
isn't sufficient to stem the tide of hazing. And workshops and 
trainings may help, but they are not enough. Attitudes and practices 
that sustain hazing are often embedded in campus (and school) culture. 
Like sexual violence, high risk drinking, and other forms of campus 
violence, hazing prevention efforts need to be data-driven, strategic, 
and comprehensive.
    Hazing is an emerging field of research and prevention practice. 
Those of us invested in this field still have much to learn about the 
nature of hazing, challenges in hazing prevention, viable and 
sustainable alternatives to hazing, and promising strategies for 
substantial transformation away from a culture of hazing. Resources for 
further research, trainings, and education about hazing as well as 
mandates for its prevention are vital next steps in achieving 
educational environments free from hazing.
    As a campus safety issue, hazing is problematic because of the harm 
that can, and often does, result. However, it is also particularly 
troubling because it occurs in contexts (clubs, campus organizations, 
and athletic teams) that are living-learning laboratories for our 
country's future leaders and citizens. So while we need to eliminate 
hazing to enhance campus safety, we also need to eliminate hazing to 
promote educational environments that are most conducive to learning 
and the development of ethical leaders who treat others with the 
dignity and respect each deserves.
    Hazing and its prevention as a field of research is in early stages 
of development. However, a recent 3-year long collaboration between 
researchers and campus professionals has produced a promising framework 
for hazing prevention. Beginning with a brief overview of hazing 
including research on the nature and extent of hazing and a review of 
some of the particular challenges related to hazing prevention, this 
testimony provides more detail about that framework for hazing 
prevention and how we can continue to build on this foundation to 
expand the research base and capacity for more wide-reaching and 
sustainable prevention in higher education and beyond.
What is hazing?
    Hazing is defined as ``any activity expected of someone joining or 
maintaining membership in a group that humiliates, degrades, abuses, or 
endangers them, regardless of a person's willingness to participate'' 
(Hoover & Pollard, 1999). Three key components are embedded in this 
definition:

    1. Hazing is behavior that occurs for the purpose of gaining 
membership and/or trying to maintain membership in an established 
group, organization, or team.
    2. Hazing involves behavior that risks emotional or physical harm.
    3. Hazing can occur regardless of a person's willingness to 
participate.

    In my experience, many well-meaning individuals are quick to 
dismiss hazing as harmless antics or pranks, but in reality, hazing can 
leave lifelong scars and in some cases, it can be lethal. Hazing needs 
to be addressed because it is a threat to campus safety. But further, 
hazing can damage relationships, breed anger, mistrust, and resentment 
that erodes the educational and leadership benefits of belonging to 
student organizations and athletic teams. The ripple-effects of hazing 
are far-reaching; its harm is not limited to the boundaries of campus. 
We need to prevent any more senseless tragedies and loss of human 
potential as a result of hazing, and we also need to care about hazing 
because it is a leadership issue. Hazing occurs in a context where 
students are learning how to be leaders and team members and hazing--
humiliating, degrading, and abusive behavior--is not the kind of 
leadership we want to cultivate in future leaders of our country.
Nature and extent of hazing
    What comes to mind when you think of hazing?

    When asked this question, people often cite prominent examples of 
hazing from popular culture or the media. Many refer to the 1978 movie 
Animal House and associate hazing with specific types of organizations 
such as fraternities, sororities, and athletic teams. Or they consider 
hazing to be exceptional and, referring to high profile accounts 
portrayed in headlines, conclude that hazing is not an issue within 
their community. We know from research, however, that these depictions 
don't tell the full story.
    In 2008, I led a research team in a national study of student 
hazing (Allan & Madden, 2008). That investigation included more than 
11,000 students at 53 colleges and universities throughout the United 
States. We gathered data with an online survey and followed-up with 
more than 300 in-person interviews of students, staff, and 
administrators. We found that hazing is widespread on college campuses 
and in high schools throughout the United States with 55 percent of 
college students experienced hazing and 47 percent in high school--and 
that it occurs in many different types of organizations including 
athletic teams, fraternities and sororities, and marching bands, but 
also in other kinds of groups, like recreation clubs, intramural 
sports, and even honor societies. Indeed, it can be argued that hazing 
is a part of the culture and tacitly supported by individuals, groups, 
and institutions.

    <bullet> Men (61 percent) and women (52 percent) experience hazing 
on campus.
    <bullet> Hazing cuts across racial identities, meaning all students 
on campus are at risk.
    <bullet> Hazing occurs across different types of student groups.
    <bullet> Varsity athletic teams (74 percent) and fraternities and 
sororities (73 percent) haze at the highest rates, but they are far 
from the only domains on campus where hazing is common.
    <bullet> Groups such as club sports (64 percent), performing arts 
organizations (56 percent), service organizations (50 percent), 
intramural teams (49 percent), and recreation clubs (42 percent), and 
even students involved in academic clubs (28 percent) and honor 
societies engage in hazing behaviors.

    The data also indicate that hazing extends far beyond pranks and 
antics as often assumed--many behaviors are dangerous, demeaning, and 
abusive. Troublingly, alcohol use, sexual harassment and assault are 
commonly used in hazing practices on campuses. At least one hazing 
death each year has been documented since 1970 and this tally does not 
account for the many hazing deaths labeled ``accidental but were 
associated with hazing activities'' (Nuwer, 1990; 2004). Journalism 
professor Hank Nuwer has kept a chronology of the senseless loss of 
life due to hazing (see: http://www.hanknuwer.com/). And while the 
physical harm entailed in some hazing is highly visible and 
problematic, hazing also involves forms of psychological and emotional 
harm that are not necessarily apparent on the surface and can be 
exceptionally complex to treat.
    It's vital to remember that hazing is not just defined by a list of 
behaviors or activities. Focusing solely on a list of behaviors fails 
to sufficiently address the power dynamics involved. Being familiar 
with problematic and prohibited behaviors or activities as a means to 
inform yourself or others is important, but not enough to prevent 
hazing from happening. For example, it would seem absurd to include 
consumption of water on a list of prohibited activities, however, if 
it's implemented in an abusive way, consuming excessive water can cause 
grave harm and can be considered hazing. In fact, tragically, several 
college students have died from water intoxication in hazing incidents.
    Given the severe nature of many hazing activities, the physical, 
psychological, and emotional harm they can cause, and their prevalence 
throughout a wide-range of organizations, much more needs to be done to 
prevent hazing in our colleges and universities. Hazing does not align 
with institutional missions and can result in tragic outcomes. And from 
a practical standpoint, hazing can also consume a significant portion 
of staff time and resources and stretch already thin budgets.
    Often, despite a willingness to address the issue of hazing, 
community members and campus professionals believe hazing occurs in 
areas shrouded in secrecy and isolation and they are unsure of how and 
where to begin addressing the problem. Hazing, however, is not nearly 
as underground as many might think. Students talk to their friends (48 
percent), other group members (41 percent), and family members (26 
percent) about participating in hazing (Allan & Madden, 2012; 2008). 
Twenty-five percent of students surveyed perceived their coach or 
advisor to be aware of hazing, with some indicating that their coach or 
advisor was present and participated in the hazing activity. Twenty-
five percent of students also report that alumni were present during 
their hazing experiences and 36 percent indicate that some hazing 
behaviors occurred in a public space.
    While we often associate hazing with college students, another 
striking finding from our study was the high percentage of students (47 
percent) who went to college having experienced hazing in high school 
(Allan & Madden, 2012; 2008). As in college hazing, hazing in high 
school cuts across a range of groups including athletics, performing 
arts groups, class hazing, ROTC, and other types of clubs and 
organizations. And the types of hazing activities involved cover a 
similar spectrum, highly abusive and physically dangerous as well as 
seemingly innocuous but degrading and emotionally damaging experiences. 
These findings suggest the critical importance of early education and 
intervention to interrupt the onset of patterns of hazing behavior in 
high school and even middle school but also to ensure that fewer 
students enter college with the expectation that hazing is an 
inevitable and acceptable part of group participation.
    Taken together, these statistics indicate environments where 
students are seeing, expecting, and normalizing hazing behavior. Those 
who wish to speak out against and/or report hazing might lack the 
skills to do so, be unsure of where to go, or face considerable 
barriers such as retribution from their peers and becoming an outsider, 
amongst other negative consequences.
    Prevention specialists know the first step to preventing a problem 
like hazing is to recognize the behavior. Doing so can be especially 
difficult for hazing because of strong evidence that a gap exists 
between students' experiences of hazing and their willingness to label 
it as such. Of students belonging to clubs, organizations and teams, 55 
percent experience hazing, yet only 5 percent say they were hazed 
(Allan & Madden, 2012; 2008). In other words, when asked directly, 
approximately 9 out of 10 students who experienced hazing do not 
consider themselves to have been hazed. This disconnect reflects a 
number of challenges related to hazing, including:

    <bullet> Students tend to overlook the problematic aspects of 
hazing if they perceive that the activity had a positive intent or 
outcome for themselves or the group.
    <bullet> Hazing is often normalized as an inherent part of 
organizational culture that is accepted by the majority as a tradition, 
initiation, rite of passage, group bonding, or youthful antics, pranks 
and stunts.
    <bullet> Individuals may be more likely to recognize hazing if it 
involves physical harm.
    <bullet> Emotional and psychological harm that can result from 
hazing is often minimized or overlooked entirely.
    <bullet> Hazing is commonly perceived as a positive part of group 
bonding or ``tradition,'' rather than as a form of interpersonal 
violence.
    <bullet> There is a lack of clarity around consent and factors that 
create a coercive environment, including the common perception that if 
an individual ``goes along with'' an activity it is not hazing.
    <bullet> Students are challenged to reconcile the cognitive 
dissonance between their notions of group participation--e.g., 
cohesion, unity and belonging and the harm of hazing.
    The normalization of hazing and the difficulty many people have 
with recognizing when such experiences cross the line into hazing 
combine to make the problem of hazing particularly difficult to 
address. Hazing is a complex problem that is embedded in campus culture 
and is extremely resistant to change.
Intersections: hazing and bullying
    As a common behavior among students from high school to college, 
hazing is a school safety issue in its own right. But as noted, hazing 
is frequently associated with other forms of interpersonal violence 
such as bullying and sexual assault. The complexities of hazing need to 
be understood as both distinct and connected with other forms of 
interpersonal violence.
    Both hazing and bullying are forms of interpersonal violence, they 
both involve a power imbalance, and they can include abusive behaviors 
that are verbal, physical, and social in nature. The key distinction is 
that hazing is part of a membership, induction, or intake process. 
While the behaviors may look similar when they play out in a school or 
campus, the context and underlying dynamics are what differentiate 
them. In simple terms: bullying is typically thought of as a means of 
exclusion--or ostracizing peers whereas hazing is generally for the 
purpose of inclusion.
    In some cases, incidents of hazing can meet the criteria that 
define bullying (aggression, intent to cause harm, and repetition) and 
in those cases, we might refer to hazing as bullying (Olweus, 1999). 
For example, fraternity pledging can involve aggressive behavior like 
paddling, kidnapping, lock-ups, or line-ups where new members are 
screamed and cursed at, and these activities occur over a period of 
weeks culminating in what's often referred to as ``hell night'' prior 
to initiation. In that scenario, it seems hazing meets the criteria 
that commonly define bullying. However, most instances of hazing do not 
fit squarely within the scope of bullying as defined by these criteria. 
For example, sometimes hazing can occur as part of a ``rookie night'' 
or ``initiation night'' and sometimes the activities are not explicitly 
aggressive--for instance, scavenger hunts, skits, and requirements to 
``get to know'' the older members of the group. Yet frequently those 
activities cross the line into hazing when they include expectations 
for sexual favors, other forms of personal servitude, or the 
consumption of alcohol and/or other drugs.
Why is it important to understand the distinctions?
    I've worked with many educators who believe that the bullying 
policy is sufficient to address hazing as well. However, because hazing 
is more expansive than bullying by definition, and because it is 
associated with inclusion, many hazing incidents may go unrecognized or 
be overlooked if a school simply relies on its bullying policy to 
``cover'' hazing. Campus professionals need to be aware of hazing and 
recognize it can cause physical and emotional harm--and even death.
Intersections: hazing and sexual violence
    Just as there are some common dynamics between bullying and hazing, 
there are also intersections between hazing and sexual violence. Some 
of the common elements include issues of power, control, and consent. 
We've heard far too often of locker room assaults with broomsticks and 
similarly heinous scenarios--hazing and sexual assault can occur 
simultaneously. Or put differently, acts of sexual violence are among 
the arsenal of weapons used in hazing. (For more on this topic see my 
blog post: http://www.stophazing.
org/sayreville-case-yet-another-wake-call-hazing/).
Prevention
    Given the harm and potential harm of hazing, and the extent to 
which it is normalized or goes unrecognized, what can be done to 
prevent it? The problem of hazing is not about a few ``bad actors'' or 
anomalous groups; hazing is pervasive, exceedingly complex, deep-
rooted, and resistant to change. We know there is no simple solution--
no ``one size fits all'' strategy or remedy for any of these problems. 
Given these challenges, the work of hazing prevention requires systemic 
thinking and creative solutions that both draw from and expand 
established frameworks in order to address the specific characteristics 
of hazing as a form of interpersonal violence.
    As a relatively new area of research and practice, hazing 
prevention builds off of other fields that address prevention of sexual 
assault, violence, high risk drinking, other substance abuse, among 
other phenomena, as a public health issue. The public health approach 
informs a ``science of prevention'' in which strategies to intervene 
and prevent behaviors are grounded in theory and research, including 
rigorous assessment and evaluation. This approach supports efforts to 
expand understanding and recognition of hazing based on accurate 
information and analysis. Another foundational principle from the 
science of prevention is that effective and significant changes are 
generated by comprehensive prevention efforts that address the issue at 
multiple levels and through diverse strategies.
    A comprehensive approach that involves collective action on 
multiple levels is needed to create meaningful change. Thanks to 
dedicated researchers and practitioners, we know a lot more than ever 
before about what works to advance prevention efforts in many arenas 
like high-risk drinking and sexual assault. We know it's essential that 
prevention be data-driven--grounded in assessment and that it be 
coalition-based, strategic, and synergistic.
    If we want to prevent hazing, we need to analyze the factors that 
contribute to hazing on multiple levels including: individual, group, 
campus/school, and community. We further need to examine factors that 
help to mitigate hazing at all those levels. We need to work 
collaboratively with diverse stakeholders to amplify factors that 
protect youth from hazing and at the same time, work to reduce factors 
that foster environments that are conducive to hazing. For example, at 
the group level, a contributing factor may be that students are more 
likely to engage in hazing if they don't see alternative paths to 
promote group bonding. Desirable, ``cool,'' alternatives that meet 
needs for group bonding and challenge without hazing would serve as a 
protective factor.
    As part of a 3-year research-to-practice initiative called the 
Hazing Prevention Consortium (HPC), my organization, StopHazing, LLC, 
has collaborated with eight pioneering universities to develop a 
framework for comprehensive hazing prevention (http://
www.stophazing.org/hazing-prevention-consortium/). This framework is 
grounded in new data and reflects key components and principles that 
have emerged from a research base in prevention science. Building on 
the Strategic Prevention Framework (http://www.samhsa.gov/capt/
applying-strategic-prevention-framework), our hazing prevention 
framework is based on a progressive, synergistic, and multi-pronged 
approach that combines:
    Assessment: Collection and analysis of data on hazing climate, 
activities and the groups and organizations involved in order to 
identify prevention needs, priorities and target audiences.
    Capacity: Building knowledge and capacity in hazing prevention 
among campus stakeholders through formation of hazing prevention 
coalitions, stakeholder training and ongoing technical assistance on 
hazing prevention.
    Planning: Evidence-based strategic planning for campus hazing 
prevention strategies using assessment data and coalition engagement to 
outline campus-specific action plans.
    Implementation: Implementation of multiple hazing prevention 
programs and activities targeted to specific audiences and desired 
outcomes.
    Evaluation: Evaluation of hazing prevention strategies to inform 
design and improvement and to measure impact.
    Cultural Competence: Efforts to ensure that hazing prevention 
initiatives factor in and are responsive to differentials of race, 
ethnicity, gender, socioeconomic status and other cultural variables 
that inform the attitudes, beliefs, behaviors and impact of hazing in 
specific institutional settings.
    Sustainability: Generation of financial, staff and programmatic 
resources to sustain hazing prevention initiatives.
    Efforts to prevent hazing that engage and resonate with 
institutional culture will be most effective. And since contributing 
factors that feed into hazing vary from one institution to another, 
there is no one-size-fits-all solution. Collection of data to assess 
campus climate and culture is critical. The culture of an institution 
can both reinforce and protect against hazing--meaning that some 
aspects of institutional culture are assets to buildupon for 
prevention, while others present barriers to achieving a hazing-free 
campus. For further delineation of this framework for campus hazing 
prevention, please see: Allan, Payne, and Kerschner's (2016) Hazing 
Prevention Brief for College and University Professionals: http://
www.stop
hazing.org/we-dont-haze/.
Core Strategies for Hazing Prevention
    The Hazing Prevention Consortium promotes a comprehensive approach 
in which campuses work to formulate prevention strategies that respond 
to institutional culture, align with institutional mission, and address 
hazing in numerous ways and through varied modes of intervention. 
Working with experts to translate what has been learned from the 
research on prevention of sexual assault, bullying, and substance 
abuse, we have tested are continuing to work with the following 
strategies:

    Visible campus leadership anti-hazing statement: Development and 
widespread dissemination of statements from leadership regarding anti-
hazing position and positive institutional values and mission that 
supports a safe campus climate.
    Example: President of the college or university provides public 
statement to make it clear that hazing is not an acceptable practice 
and not in alignment with the mission of the institution. The statement 
is presented as part of new student orientation and included on the 
campus hazing website along with hazing policies and procedures for 
reporting and enforcement.
    Coalition-building: Establishment of a hazing prevention coalition 
or team with stakeholders from across multiple divisions and levels of 
the organization (including students), with a mandate to lead 
institutional efforts in hazing prevention, including oversight of 
campus climate assessments, stages of planning, design, implementation 
and evaluation of prevention strategies, and sustainability of 
prevention efforts.
    Example: A campus hazing prevention coalition is established, with 
members appointed by the institution's President or executive level 
leadership, with meetings on a monthly basis of entire group, as well 
as monthly meetings for subgroups focused on Assessment and Evaluation; 
Coalition Capacity Building; Policy and Procedures Review; Educational 
Program Design and Implementation; and Sustainability.
    Policy and protocol reviews: Regular review and refinement of 
institutional policies on hazing and procedures for addressing hazing 
incidents, with emphasis on widespread dissemination and accessibility, 
confidential reporting, consistent response protocols, referral 
systems, professional staff roles and transparency.
    Example: Based on a review of hazing incidents and interviews with 
Student Conduct staff and a search of other campus resources, campus 
stakeholders collaborate on revising a hazing policy handbook and 
website to include a clear definition, statement of policy, resources 
on prevention, information on reporting, protocols for enforcement, 
response, and accountability, and a list of staff contacts for 
referrals and questions.
    Hazing Prevention Trainings: Programs, presentations, and 
activities to educate and engage stakeholders in building knowledge and 
awareness of hazing and skills to prevent it.
    Example: A campus with a strong student leadership tradition 
includes trainings on ethical leadership and hazing for all incoming 
students, with regular update trainings for students in group 
leadership positions that emphasize strategies and skills for 
identifying group values, developing positive group bonding activities, 
and bystander intervention.
    Social norms messaging: Dissemination of research-based information 
regarding institutional or campus hazing norms, addressing 
misperceptions regarding prevalence of values, beliefs and engagement 
related to hazing, with focus on positive norms that counteract and are 
alternatives to hazing.
    Example: Based on survey data, a campus stakeholder group that 
includes students develops a social norms poster campaign reporting on 
the percentage of students who believe it is not cool to use coercion 
or abusive behavior to initiate new members, with posters placed in 
residence halls, on computer screens, in cafeteria table settings, and 
on bookstore bookmarks, and complementary discussions and/or workshops 
run jointly by staff and student leaders about positive group norms.
    Bystander Intervention: Education, training programs and social 
norms messaging supporting students, staff, parents, and others to 
develop skills to intervene as bystanders to prevent hazing.
    Example: As part of student organization and athletic team 
orientation activities, student leaders are trained to facilitate 
discussion on the five stages of bystander intervention--

    (1) Notice behavior;
    (2) Interpret behavior as a problem;
    (3) Recognize one's responsibility to intervene;
    (4) Develop skills needed to intervene safely; and
    (5) Take action--and engage group members in role-play exercises 
and followup discussions about their roles as bystanders (Berkowitz, 
2009).

    For a more in-depth discussion of bystander intervention applied to 
hazing, please see Allan, Payne, and Kerschner's (2016) Hazing 
Prevention Brief for General Audiences: http://www.stophazing.org
/we-dont-haze/.
    Communication to broader campus community: Development and 
dissemination of information on hazing and hazing prevention efforts to 
stakeholders outside of immediate institution, including online 
resources, newsletters, trainings and other programs targeted to 
alumni, family and parents, and other people and organizations in local 
community.
    Example: Drawing upon available campus resources and data, student 
affairs staff and senior administrators host and circulate a bi-monthly 
online newsletter to parents regarding hazing and hazing prevention 
activities, including the definition of hazing, explanation of hazing 
policies and reporting procedures, information on how to be a parent 
bystander, and ways to be involved in campus prevention efforts.
What is needed to propel hazing prevention forward?
    Over the course of 3 years, we have worked with members of the 
Hazing Prevention Consortium (HPC) to implement and evaluate these and 
other strategies for hazing prevention. In doing so, we have begun to 
identify promising practices in each of the domains referred to earlier 
(assessment, capacity, planning, implementation, evaluation, cultural 
competence, and sustainability). Although the HPC design was informed 
by evidence about prevention in other fields, we launched this process 
with a goal to begin building an evidence base for hazing prevention. 
For while many have worked diligently to develop hazing prevention 
activities, resources are needed to provide enhanced focus on rigorous 
evaluation of those activities. Carefully designed and methodically 
implemented evaluation is critical to measure whether and how hazing 
prevention strategies are actually working. Without evaluation, we have 
no way of knowing whether certain strategies have an impact in changing 
social norms related to hazing and the beliefs, values and actual 
behaviors of youth. Just as it is essential that the emergent field of 
hazing prevention be informed by a solid base of research and 
assessment to inform our understanding of the problem of hazing, in our 
efforts to advance new and innovative strategies for hazing prevention, 
it is incumbent on us to carry out scientifically grounded evaluation 
of those strategies so that we know what is working and what isn't 
working.
    These principles and goals have been the cornerstones of our work 
on the HPC and have guided us to place particular emphasis on 
supporting our collaborators to integrate evaluation into the 
development of new strategies for hazing prevention. As our initial 3-
year project draws to a close, we have collected a considerable amount 
of data regarding promising practices to inform a comprehensive and 
effective approach to hazing prevention. In the coming year, we will be 
mining this research to formulate and put forth a preliminary framework 
for hazing prevention. While we began with hunches from prevention 
science about what might work best for hazing, we are now in a much 
better position to assist educational institutions with implementing 
comprehensive hazing prevention. Having said that, one of the biggest 
lessons we've learned through the HPC is that comprehensive hazing 
prevention, and especially its evaluation, is a long term process. So 
we speak of ``promising'' approaches to prevention because we know that 
our work to build an evidence base is an emergent process that will 
continue to evolve as we collaborate with a growing cadre of colleges 
and universities, other organizations, fellow researchers, and 
committed stakeholders, legislators, advocates, parents, and others who 
are all part of the solution.
    In other words, while we've made considerable strides to propel 
hazing prevention forward, there is a tremendous amount of work that 
remains to be done. As we consider hazing prevention in light of campus 
safety and in relation to sexual assault, bullying, cyberbullying, and 
other forms of interpersonal violence, I will close by pointing to 
several areas in which there are needs for governmental support and 
engagement as we strive to formulate effective approaches to hazing 
prevention as one among many areas of interpersonal violence 
prevention.

    <bullet> Research. New and continued research to inform prevention, 
with the following being but a few sample topics:
      <bullet> A followup national study of hazing in postsecondary 
settings to compare with 2008 (Allan & Madden, 2012; 2008) data and 
measure change over time as well as other variables.
     <bullet> Extent and type of hazing occurring in middle- and high-
school settings.
     <bullet> Variations in extent and type of hazing across cultural 
groups.
     <bullet> Intersections of hazing and sexual violence on campus.
     <bullet> Hazing social norms, with focus on misperceived norms 
relative to actual beliefs and behaviors.
     <bullet> Efficacy of bystander intervention for hazing.
     <bullet> Ethical leadership approaches to hazing prevention.
     <bullet> Social and psychological motivations for hazing.
     <bullet> Desirable and proven alternatives to hazing for promoting 
group cohesion.
     <bullet> Social, academic, and personal costs of hazing for 
students, families, and schools.
     <bullet> Effective strategies for working with victims and 
perpetrators of hazing, with focus on ways to implement effective 
support/healing and sanctions (respectively).
     <bullet> Costs and benefits of transparent institutional 
approaches to hazing (e.g., inclusion of information on hazing 
incidents, investigations, sanctions, etc. in annual reports, 
institutional websites, and websites associated with involved students 
organizations).

    <bullet> Evaluation. Continued testing and evaluation of hazing 
prevention strategies at both secondary and higher education 
institutions, including broad dissemination of findings.
    <bullet> Funding. Provision of State and Federal financial 
resources targeted to support the research and practice of hazing 
prevention in educational settings. Note that while there is interest 
in hazing at the Federal level under the umbrella of school safety, in 
the Department of Education and to some extent in the CDC, at this time 
there is little dedicated funding for hazing prevention at the State or 
Federal level (one exception being Florida which is the first State to 
mandate use of an online hazing prevention curriculum for first year 
students in State universities).
    <bullet> Policy. Engagement by State and Federal agencies to 
collaborate with hazing prevention specialists to establish policies 
and procedures for protecting students from hazing and addressing 
incidents of hazing when they occur.
    <bullet> Transparency. Mandates for colleges and universities to 
make hazing reports public by posting on a website and including the 
consequences for organizations found responsible for hazing. Cornell 
University has been on the cutting edge of this practice and numerous 
other universities are following their lead (Cornell University: 
https://hazing.cornell.edu, Lehigh University: http://
studentaffairs.lehigh.edu
/hazing-prevention, University of Arizona: https://
deanofstudents.arizona.edu/safe
cats/hazing).
    <bullet> Laws. Increased State and Federal attention to the legal 
and criminal issue of hazing on its own and in relation to sexual 
assault/bullying, including continued work to promote anti-hazing laws 
in all States and investigation of the legal and criminal dimensions 
relative to hazing incidents and investigations.
    <bullet> Spectrum of Interpersonal Violence. Support from State and 
Federal agencies to develop prevention frameworks that address 
distinctions and intersections among varied campus safety issues so 
that resources can be shared and to avoid siloed approach to behaviors 
that are typically interrelated.
    <bullet> Training. State and Federal promotion of education and 
training on hazing and hazing prevention. Campus focus on trainings 
that build skills for bystander intervention to prevent hazing as well 
as ethical leadership development appear to be promising approaches.
    <bullet> Coordination. Financial support and networking structures 
to help coordinate hazing prevention activities within regional and 
national professional associations related to higher education and 
student affairs.
    <bullet> Dissemination. Financial support for outreach within 
campus and broader community to educate about hazing, the warning signs 
of hazing, and where to report it. Regional and national conferences 
and meetings to bring together scholars, practitioners, educators, 
families, legislators, and other stakeholders to advance the cause of 
hazing prevention.
Summary
    While the previous bullet points are not an exhaustive list by any 
means, I believe they provide a platform for continuing to move forward 
in achieving the vision of eliminating hazing from our educational 
institutions and promoting greater campus safety. This vision requires 
a cultural shift that moves beyond intervention and toward shaping 
communities where healthy group bonding and traditions are the norm and 
where civility, honor, respect, and nonviolence are cornerstones of 
student decisionmaking, participation, and leadership as members of 
teams, clubs, organizations, and other groups.
    In closing, we must work together to ensure that hazing is no 
longer overlooked, minimized, or ``swept under the rug.'' The time is 
now to ensure hazing is foregrounded as a threat to campus safety and a 
threat to positive leadership development in our youth. The time is now 
to prevent further senseless tragedies and loss of human potential that 
can result from hazing; the time is now to recognize that our 
educational institutions will be stronger and safer without hazing. We 
all have an opportunity and responsibility to make a difference by 
committing to hazing prevention and promoting safe schools and campuses 
for the youth of this Nation. Thank you.
                               references
Allan, E.J. & Madden, M. (2008). Hazing in view: College students at 
    risk. Retrieved from http://www.stophazing.org/wp-content/uploads/
    2014/06/hazing_in_view
    _web1.pdf.
Allan, E.J., & Madden, M. (2012). The nature and extent of college 
    student hazing. International Journal of Adolescent Medicine and 
    Health, 24(1), 83-90.
Allan, E.J., Payne, J.M. & Kershner, D. (2016). ``We Don't Haze:'' A 
    Companion Prevention Brief for Colleges and University 
    Professionals. StopHazing and the Clery Center for Security on 
    Campus. http://clerycenter.org/sites/default/files/We
    %20Dont%20Haze%20Companion%20Brief.
Berkowitz, A. (2009). Response ability: A complete guide to bystander 
    intervention. Chicago, IL: Beck & Co.
Hoover, N. & Pollard, N. (1999). National survey: Initiation rites and 
    athletics for NCAA sports teams. Retrieved from http://
    www.alfred.edu/sports_hazing/docs/hazing.pdf.
Nuwer, H. (1990). Broken pledges: The deadly rite of hazing. Marietta, 
    GA: Longstreet Press.
Nuwer, H. (Ed.). (2004). The hazing reader. Bloomington, IN: Indiana 
    University Press.
Olweus, D. (1999). Norway. In P.K. Smith, Y. Morita, J. Junger-Tas, D. 
    Olweus, R. Catalano, & P. Slee (Eds.), The nature of school 
    bullying: A cross-national perspective (pp. 28-48). New York, NY: 
    Routledge.

    Senator Murray. Thank you.
    Dr. Huskey.

 STATEMENT OF MELYNDA HUSKEY, Ph.D., INTERIM VICE PRESIDENT OF 
    STUDENT AFFAIRS AND DEAN OF STUDENTS, WASHINGTON STATE 
                    UNIVERSITY, PULLMAN, WA

    Ms. Huskey. Mr. Chairman, Senator Murray, and members of 
the committee, my name is Melynda Huskey, and I'm the interim 
vice president of Student Affairs at Washington State 
University. We're proud to have Senator Murray as an alumna, 
and I'm very honored to participate today in this roundtable on 
the important issue of campus safety and violence prevention.
    I'm here on behalf of Washington State University's 
leadership and our more than 29,000 students. We are the land 
grant institution of Washington. We are physically present in 
every county in the State, delivering education, research, and 
core services that benefit Washingtonians in their daily lives. 
My role as Vice President of Student Affairs is to oversee all 
programs and offices which support the out-of-classroom student 
experience. And in that role, I've been asked to share with you 
the approach we take on our campuses toward violence 
prevention.
    Like many universities, our campus has experienced 
incidents of hazing, bullying, fighting, sexual assault, and 
cyber bullying. We're deeply committed to using the best 
evidence-based practices available and have adopted the public 
health model for violence prevention. In this model, 
multidisciplinary teams--in our case, healthcare providers, 
human development experts, prevention scientists, student 
affairs practitioners, law enforcement, compliance officers, 
community members, and students--work together to define the 
nature and extent of violence on our campus, identify risks and 
protective factors, develop and implement interventions, 
evaluate their effectiveness, and oversee their broad 
implementation.
    We look at all levels of interaction--social, community, 
relationship, and individual--which support healthy choices and 
promote a healthy campus. We also evaluate how well our 
interventions serve distinct populations: veterans, members of 
the LGBT community, ethnic and racial communities, 
international students, and students with disabilities.
    For example, our hazing prevention efforts are 
interdisciplinary and distributed across campus. While a few 
campus organizations are likely to come to mind, the fact is 
that hazing occurs in many organizations and once established 
as a cultural practice can be exceptionally resistant to 
change. We offer preventative training and information to all 
student organizations on this issue, provide anonymous 
reporting, and work with advisers and mentors locally and 
nationally to identify the risks and protective factors which 
change outcomes for students.
    We take the same approach to bullying and harassment, 
including an educationally focused student disciplinary 
process. We are also now focusing on improving suicide 
prevention efforts on our campus. With support from the 
Substance Abuse and Mental Health Services Administration, in 
partnership with the Washington State Department of Health, WSU 
and other institutions of higher ed across the State are 
creating and refining research-based suicide prevention plans 
designed specifically for student life.
    Since 2011, we've been fortunate to receive Federal support 
for our work in the area of sex- and gender-based violence 
through competitive funding from the U.S. Department of 
Justice's Office of Violence Against Women's Grant to reduce 
sexual assault, domestic violence, dating violence, and 
stalking on campus. We've implemented a suite of required 
trainings for all incoming students, which includes face-to-
face, small group workshops on sex- and gender-based violence; 
bystander empowerment and intervention strategies; and alcohol 
and drug impacts on sexual decisionmaking.
    We are committed to creating a safe, supportive 
environment, free from violence, in which all of our students 
can focus on learning and in which they can graduate as 
educated citizens ready to contribute to their communities.
    Thank you very much for the opportunity to be here today.
    [The prepared statement of Ms. Huskey follows:]

                  Prepared Statement of Melynda Huskey

                                summary
    <bullet> WSU is Washington's land grant institution. Through our 
five campuses, four research centers and WSU extension, WSU is 
physically present in every county in the State, delivering education, 
research, and core services that benefit Washingtonians in their daily 
lives.
    <bullet> We are deeply committed to using the best evidence-based 
practices available and have adopted a public health model for violence 
prevention. In this model, multi-disciplinary teams--in our case, 
health care providers, human development experts, prevention 
scientists, student affairs practitioners, law enforcement, compliance 
officers, community members, and students--work together to define the 
nature and extent of violence on our campus, identify risk and 
protective factors, develop and implement interventions, evaluate their 
effectiveness, and oversee their broad implementation.
    <bullet> We look at the societal, community, relationship, and 
individual factors which support healthy choices and promote a healthy 
campus. We also evaluate how well our interventions serve distinct 
populations: veterans, members of the LGBT community, ethnic and racial 
communities, international students, students with disabilities.
    <bullet> WSU's hazing prevention efforts are interdisciplinary and 
distributed across campus. While a few campus organizations are likely 
to come to mind, the fact is that hazing can occur in any organization, 
and once established as a cultural practice, can be exceptionally 
resistant to change. We provide preventative training and information 
to all student organizations on the issue, offer anonymous reporting, 
and work with advisors and mentors locally and nationally to identify 
the risk and protective factors which can change outcomes for students. 
We take the same approach to bullying and harassment, including an 
educationally focused student disciplinary process.
    <bullet> We are now focused on improving suicide prevention on 
campus. With support from the Substance Abuse and Mental Health 
Services Administration (SAMHSA), in partnership with the Washington 
State Department of Health, WSU and other institutions of higher 
education across the State are creating and refining research-based 
suicide prevention plans, designed for student life.
    <bullet> Since 2011, we have been fortunate to receive Federal 
support for our work in the area of sex- and gender-based violence 
through competitive funding from the U.S. Department of Justice's 
Office of Violence Against Women Grant to Reduce Sexual Assault, 
Domestic Violence, Dating Violence, and Stalking on Campus. We have 
implemented a suite of required trainings for all incoming students, 
which include face-to-face small group workshops on sex- and gender-
based violence, bystander empowerment and intervention strategies, and 
alcohol and drug impacts on sexual decisionmaking. We are committed to 
creating a safe, supportive environment free from violence, in which 
all our students can focus on learning, and in which they can graduate 
as educated citizens who will contribute to their communities.
    <bullet> I look forward to answering any questions and to working 
with you going forward.
                                 ______
                                 
    Mr. Chairman, Senator Murray, and members of the committee, my name 
is Melynda Huskey and I serve as the Interim Vice President of Student 
Affairs at Washington State University. We are proud to have Senator 
Murray as an alumna and I am honored to be invited by the committee and 
Senator Murray to participate in the roundtable today on the extremely 
important issue of campus safety and the prevention of all forms of 
violence on college campuses. Today, I am here on behalf of Washington 
State University's leadership and more than 29,000 students.
    WSU is Washington's land grant institution. Through our five 
campuses, four research centers and WSU extension, WSU is physically 
present in every county in the State, delivering education, research, 
and core services that benefit Washingtonians in their communities 
every day. As a premiere tier one research university, WSU drives 
education and innovation in our communities to support and grow the 
State's economy.
    WSU is led by President Kirk Schulz, who joined our Cougar family 
in June. We are pleased that he supports the WSU land grant mission of 
advancing, extending and applying knowledge through local and global 
engagement.
    As Interim Vice President and Dean of Students, I oversee the 
offices and programs which support students in all of their out-of-the-
classroom activities and circumstances--everything from residence life 
and dining to student involvement and engagement to student conduct to 
health and wellness to fraternity and sorority life.
    I have been asked to share with you the efforts we are making on 
our campus to prevent violence, and the approach we have chosen to 
take. Like many universities, our campus has experienced incidents of:

    <bullet> hazing,
    <bullet> bullying,
    <bullet> fighting, and more recently;
    <bullet> cyber-bullying.

    We are also deeply concerned with ongoing issues of sexual 
violence, dating and intimate partner violence, and stalking. Sexual 
violence, in particular, requires a redoubling of effort in order to 
reduce the incidence on all college campuses. At WSU, student survey 
data, produced by the National College Health Assessment from the 2014-
15 school year, indicates that 10 percent of undergraduate students had 
experienced some form of interpersonal violence (sexual assault, dating 
violence, stalking) in the previous 12 months. This is unacceptable.
    WSU is committed to enhancing the safety of our students, faculty, 
staff, and visitors at all of our campuses.
    To increase campus safety, WSU is engaged in focused efforts across 
four main areas to further reduce sexual violence, including:

    1. improved education and communication regarding acceptable 
standards and conduct;
    2. increased focus on prevention and intervention;
    3. an enhanced reporting and response infrastructure that will 
provide victims with safe and reliable options for ensuring their needs 
are met; and
    4. deeper collaboration with area non-profits and law enforcement 
to ensure the university is engaging in best practices in confronting 
and reducing sexual violence on our campuses.

    The university has also prepared, and made available, university 
policies, procedures, statistics, and information relating to campus 
safety, emergency management, and the health and welfare of the campus 
community. This includes information on student standards and conduct 
policies, mental health and counseling services, safety and security 
policies/procedures for University housing, harassment policies, and 
sexual assault, domestic violence, and stalking policies. In all of 
these cases, we continue to evaluate how well we are serving distinct 
populations: veterans, members of the LGBT community, ethnic and racial 
communities, international students, students with disabilities. 
Guidance from the Office of Civil Rights and Department of Education 
has helped us meaningfully focus and refine these efforts.
    As a research institution, we are deeply committed to using the 
best evidence-based practices available. For this reason, we have 
adopted a public health model for violence prevention. As many of you 
know, in this model, multi-disciplinary teams--in our case, health care 
providers, human development experts, prevention scientists, student 
affairs practitioners, law enforcement, compliance officers, community 
members, and students--work together to define the nature and extent of 
violence on our campus, identify risk and protective factors, develop 
and implement interventions, evaluate their effectiveness, and oversee 
their broad implementation. Within this model, we look at the societal, 
community, relationship, and individual factors which support healthy 
choices, and those that support violence, and work to intervene at all 
levels to promote a healthy campus. This approach allows us to address 
violence in all its forms--from bullying in residence halls to the most 
serious cases of assault or sexual violence.
    Our hazing prevention efforts are interdisciplinary and distributed 
across campus. While a few organizations are likely to come to mind--
fraternities and sororities, marching bands--the fact is that hazing 
can occur in any organization, and once established as a cultural 
practice, can be exceptionally resistant to change. We provide 
preventative training and information to all student organizations on 
the issue, offer anonymous reporting, and work with advisors and 
mentors locally and nationally to identify the risk and protective 
factors which can change outcomes for students.
    Bullying and other kinds of harassment are covered under our 
Standards of Conduct for students. We are committed to a fair, 
educational, and developmental student discipline process, recognizing 
the difference between legal proceedings outside our institution and 
our internal responsibilities to support students' ethical development 
and accountability to our university community.
    We are also committed to the prevention of another serious form of 
violence on campus: suicide. With support from the Substance Abuse and 
Mental Health Services Administration (SAMHSA), in partnership with the 
Washington State Department of Health, WSU and more than 15 other 
institutions of higher education across the State are creating and 
refining comprehensive, research-based suicide prevention plans. Again, 
the public health model helps us in defining the scope of the problem, 
the risk and protective factors, and the prevention strategies--from 
limiting access to potentially lethal means to promoting strong social 
connections among students and exploring new technologies for 
delivering support and mental health evaluations to the ``digital 
native'' generation of students.
    We have been very fortunate to receive Federal funding to support 
our efforts. Since 2011, our work in the area of sex- and gender-based 
violence has been supported, in part, by competitive funding from the 
U.S. Department of Justice's Office of Violence Against Women Grant to 
Reduce Sexual Assault, Domestic Violence, Dating Violence, and Stalking 
on Campus. Our on-campus Violence Prevention Center has supported 
policy review and revision, mandatory training for employees on the 
university's policy prohibiting discrimination, sexual harassment and 
sexual misconduct, as well as on reporting obligations. We have 
implemented a suite of required trainings for all incoming students, 
which include face-to-face small group workshops on sex- and gender-
based violence, bystander empowerment and intervention strategies, and 
alcohol and drug impacts on sexual decisionmaking. We continue to 
evaluate and refine these efforts for effectiveness.
    WSU also recognizes that the best way to increase safety on our 
campuses, and to support institutional efforts, is to engage directly 
with our students and community stakeholders in this process. Our 
student body has created a program called ``It's on Cougs,'' led by 
students to encourage bystander intervention. The program includes 
trainings, workshops, and social media campaigns around ways to engage 
in campus safety.
    At Washington State University, we are committed to creating a 
safe, supportive environment free from violence, in which all our 
students can focus on learning, and in which they can graduate as 
educated citizens who will contribute to the State, the Nation, and the 
world.
    Thank you for the opportunity to speak with you today about issues 
we take very seriously at WSU. I look forward to answering any 
questions and to working with you going forward.

    Senator Murray. Thank you.
    Ms. Krisak.

  STATEMENT OF WENDY KRISAK, M.A., NCC, LPC, DIRECTOR OF THE 
    COUNSELING CENTER, DESALES UNIVERSITY, CENTER VALLEY, PA

    Ms. Krisak. Senator Kirk, Ranking Member Murray, and 
members of the Health, Education, Labor, and Pensions 
Committee, I deeply thank you for this opportunity to testify 
and share DeSales University's efforts regarding the reduction 
and prevention of bullying and hazing incidents.
    DeSales is a 50-year-old Catholic institution grounded in 
the teachings of Saint Francis de Sales. In addition to 
academics, DeSales focuses on educating students morally, 
socially, and spiritually through its out-of-the-classroom 
programming, which provides students with a moral compass and 
enriches their lives on a deeper level. The university mission 
places Christian humanism at its core and intentionally works 
to enhance the dignity of the individual.
    As freshmen, students learn our character code, which asks 
them to conduct themselves in a respectful manner and treat 
others with dignity and respect. The code is posted everywhere 
on campus. Our DeSales community is committed to maintaining a 
healthy and conscientiously kind environment.
    Before freshmen arrive on campus, they are engaged in 
Character U, our first year experience program. This program 
teaches them the basics of navigating college, but also 
immerses them in a character curriculum that focuses on the 
virtues of patience, trust and cooperation, perseverance, love, 
forgiveness, and hope. These virtues are integrated into their 
learning experience through keynotes, community service 
projects, and other programs.
    Through Character U, students learn about themselves, the 
world around them, and the role they play in it. Character U 
helps new students meet new people, form relationships, and 
communicate with one another. In a texting and twittering 
world, this is not always easy for them. DeSales outside-of-
the-classroom programming is committed to instilling the 
concept that every human being deserves to be treated with 
dignity and respect.
    DeSales University takes a multidisciplinary approach to 
caring for our students. We have an early alert system that 
places struggling students on our radar so that we can be 
proactive in supporting them. Early alert prompted the creation 
of our CARE team, an acronym for Concern, Assessment, and 
Response. This team includes health professionals and staff 
from all areas of campus. We meet bimonthly to investigate and 
respond to matters of concern related to students. We 
coordinate interventions and make recommendations that will 
ensure the safety and well-being of our students.
    In 2003, one of my colleagues and I created a six-member 
team, PACE. The acronym stands for Peers Advising, Counseling, 
Educating. PACE programming emphasizes personal responsibility, 
deep respect for others, and concern for the common good. This 
student team researches and presents on relevant wellness 
topics to their fellow students. In 2012, they created 
#sorryimnotsorry, a program that addressed bullying and hazing 
in the cyber world as well as prevention methods. This program 
led to a student-driven cyber bullying policy which is now 
official policy in our student handbook.
    Since then, PACE has geared its efforts toward addressing 
the root of bullying in a more positive way through it's 
kindness programming. From harsh words to ruthless behavior, 
society has tossed aside human compassions for others for their 
own gain. PACE created a week dedicated to demonstrating 
kindness to others through selfless acts. These programs 
inspire others to pass on those kindnesses to promote positive 
behavior and a more unified campus community.
    Kindness Week is now an annual event, #happierdesales. It 
includes programs such as Kindness Can Change the World, a 
program about bullying that motivates students to increase 
kindness measures around campus. It includes tabling activities 
and giveaways, such as Consent Kisses, where students ask 
permission to give another student a kiss. For their consent, 
the student receives two Hershey kisses, one to keep and one to 
give away. This promotes consent and respect for relationships.
    Other independent programs have included Write Light, Write 
Life, where community members nominated someone to receive a 
letter of encouragement, support, and gratitude. Everyone was 
invited to help write the letters, which were then distributed 
during Kindness Week. You Are More Than A Like is a program 
that encourages students not to rely on how many likes they get 
on social media to define their self-worth.
    Digging Deeper: The Diversity of Individuality highlights 
our campus-wide solidarity initiative, which focuses on 
celebrating our differences and developing mutual respect for 
one another as valued human beings. All of these programs have 
had great impact on both students and staff.
    Again, I thank you for your time and the opportunity to 
share with you the efforts being made by our small university 
to derail bullying and unkindness of any kind by nurturing 
strong character development among our student population.
    Thank you.
    [The prepared statement of Ms. Krisak follows:]

         Prepared Statement of Wendy S. Krisak, M.A., NCC, LPC

    Chairman Alexander, Ranking Member Murray, and members of the 
Health, Education, Labor, and Pensions Committee, I deeply thank you 
for this opportunity to testify and share DeSales University's efforts 
regarding the reduction and prevention of bullying and hazing 
incidents.
    With a mission that intentionally works to enhance the dignity of 
the individual, a philosophy that has Christian Humanism at its core, 
and a Character Code that asks for all to conduct themselves in a 
respectful manner, DeSales is a distinctive University which does not 
just value educating the minds of our students, but also values 
educating their hearts.
    Many efforts are made to ensure that our community is healthy and 
conscientiously kind. Before our students even step foot on campus as a 
freshmen, they are engaged in our Character U First Year Experience 
Program, they have learned the concept of bystander intervention 
through the on-line program Haven, and they have been assigned a peer 
mentor to assist them with their transition into college. Once they 
arrive, and throughout their undergraduate years, they are offered 
countless opportunities to learn about who they are for themselves, and 
their role in relation to the greater world around them. Character U 
emphasizes six fundamental character traits: Patience, Trust and 
Cooperation, Perseverance, Love, Forgiveness, and Hope.
    PACE (Peers Advising Counseling Educating), a six-person education 
team, maintains as its vision to emphasize personal responsibility, 
deep respect for others, and concern for the common good. With this 
vision in mind, they work hard to research and present on relevant 
wellness topics to their fellow students. In regards to bullying and 
hazing awareness and prevention efforts, they created a program 
entitled, ``#sorryimnotsorry,'' which focuses on the cyber world, which 
can often be an ugly place. Out of this program, a student-driven 
cyberbullying policy was created, approved, and is now an official 
policy in the student handbook.
    Since that time, PACE has chosen to gear their efforts toward the 
positive. With this in mind, they began developing programming around 
kindness. They now celebrate their own Kindness Week: #happierdesales 
each year. Every day of kindness week includes programs (``Kindness Can 
Change the World''), tabling activities (``Balloon Compliments,'' ``RAK 
Tree,'' ``A Positive View''), and give-aways (``Consent Kisses,'' 
``Flower Friday'') that promote a kinder and happier DeSales. Other 
independent programs have included ``Write Light, Write Life,'' a 
letter writing campaign; ``You Are More Than A Like,'' which encourages 
us not to rely on how many ``likes'' we get on social media to define 
our worth; ``Digging Deeper: The Diversity of Individuality,'' which 
highlights our Solidarity Initiative; and ``No One Else Can Play My 
Part,'' which discourages the use of such words as crazy, suicidal, and 
mental in casual ways.
    In the event a student gets off-track, DeSales has many programs, 
policies, and procedures, which educate and hold students accountable 
for their behavior. Through educational conversations, community 
service, reflective assignments, counseling, and mediations, students 
are assisted in getting back on track and finding success as 
contributing members to the university community.
    DeSales University is a 50-year-old Catholic Institution grounded 
in the teachings of St. Francis de Sales. In addition to its strong 
academic curriculum, DeSales University also focuses on educating 
students morally, socially, and spiritually through out-of-the-
classroom programming that enriches and cares for the entire human 
being.
    Again, I want to thank Chairman Alexander, Ranking Member Murray, 
and members of the Health, Education, Labor, and Pensions Committee for 
this opportunity.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and members of the 
Health, Education, Labor, and Pensions Committee, I deeply thank you 
for this opportunity to testify and share the efforts of DeSales 
University regarding the reduction and prevention of bullying and 
hazing incidents.
    DeSales University is a distinctive institution of higher 
education. Its culture is based upon its mission of Christian Humanism. 
DeSales prepares its students not only with a high quality academic 
education but a character based education as well. Opportunities are 
created every day for students to explore their vocations, critically 
think about their value system, and improve their social conscience.
    At DeSales University, we not only educate the mind, we educate the 
heart as well.
    The following few pages offer more details about who we are. I 
assure you that everything from our philosophy and mission through our 
Heritage and our Character Code, serve as the foundation for our low 
count of bullying and hazing incidents, and, most certainly, provide 
the spring board for our continued efforts toward prevention of such 
behavior.
                  quick facts about desales university
    <bullet> University President--Fr. Bernard F. O'Connor, OSFS (July 
1999).
    <bullet> Formally named Allentown College of Saint Francis de Sales 
(opened in 1965).
    <bullet> Private, 4 year Catholic university for men and women.
    <bullet> Administered by the Oblates of St. Francis de Sales.
    <bullet> The enrollment for traditional undergraduate day students 
is 1,597.
    <bullet> Total enrollment (traditional, graduate, and ACCESS adult) 
is 3,136.
    <bullet> There are 125 full-time faculty members of which 84 
percent have the highest degree in their field.
    <bullet> More than 95 percent of undergraduate, full-time day 
students receive some form of financial aid.
    <bullet> Accredited by the Middle States Commission on Higher 
Education (MSCHE).
    <bullet> Nineteen athletic teams compete in the NCAA Division III 
Middle Atlantic States Collegiate Athletic Conference (MAC) and the 
Eastern Collegiate Athletic Conference (ECAC).
                    philosophy of desales university
    DeSales University is firmly and publicly committed to the 
principles of Roman Catholic doctrine and morality. It also fully 
recognizes that the search for truth requires an atmosphere of 
intellectual freedom and that love demands an openness to all that is 
good.
    DeSales carefully distinguishes between the free pursuit of truth--
which it guarantees every member of the campus community--and its own 
commitment to the teachings of the Catholic Church.
    For DeSales University, Christian humanism means that every aspect 
of human experience is capable of enlightenment by the Gospel of Jesus 
Christ. This Gospel brings light to each dimension of personal 
existence (physical, intellectual, social, moral, aesthetic, and 
religious) and every environmental domain (natural world, social 
institutions, cultural achievements, historical periods, and religious 
societies).
    The encounter between the Word of God and the concrete world of the 
human person makes a fully meaningful existence possible. DeSales 
University strives to teach the student what it means to be Christian 
in a Salesian way, what it means to embrace one's own life, and what it 
means to bring this Good News to the human family.
                     mission of desales university
    It is the mission of DeSales University to provide men and women 
with quality higher education according to the philosophy of Christian 
humanism as developed by Saint Francis de Sales and his spiritual 
heirs. The University imparts knowledge about, and develops talents 
for, personal, familial, and societal living. DeSales University 
enriches the human community and enhances the dignity of the individual 
through its educational endeavors. In its work, the University fosters 
a vital and respectful dialog between Roman Catholic faith and human 
culture.
                             character code
          ``As a member of DeSales University, I will conduct myself in 
        a respectful manner with dignity and honesty in the Salesian 
        tradition of humility and gentleness.''
                          heritage of desales
    DeSales University is named for a man who lived more than 400 years 
ago, but whose lessons are still timely and practical for today's 
world.
    St. Francis de Sales is admired throughout the Church for his great 
sanctity, learnedness, missionary zeal, gentleness, and understanding 
of the human heart. Scholar, writer, pastor, spiritual guide for souls, 
diplomat, bishop, and Doctor of the Church, he is best described as a 
Christian Humanist, a potent spiritual force for creating a 
spirituality admirably suited to those in every walk of life, 
especially the common person.
    De Sales was born in Thorens, France, on August 21, 1567. As a 
member of a noble family, he was educated in the humanities at the 
Jesuit college of Clermont at the University of Paris and received his 
doctorate in both civil and canon law from the University of Padua.
    For Francis, love of God naturally lead to love for all persons. 
His life became a model of selfless service to God and the countless 
individuals who called upon him for advice.
    Francis de Sales died in 1622. In 1665, Pope Alexander VII 
proclaimed him a saint. Today, the Oblates of Saint Francis de Sales 
are one of several religious congregations in the Catholic Church 
founded under his patronage.
                      desales university policies

Cyber Bullying Policy

    Cyber bullying is defined as the use of electronic information and 
communication devices, to include but not be limited to, email message, 
instant message, text messages, cellular telephone communication, 
blogs, chat rooms, and defamatory websites that:

    <bullet> Threaten, harass, intimidate, an individual or groups of 
individuals;
    <bullet> Place an individual in reasonable fear of harm to the 
individual or damage the individual's property; and
    <bullet> Have the effect of substantially disrupting the orderly 
operation of the school. Violation of this policy is considered to be 
an act of intolerance and anyone found in violation will be subject to 
appropriate disciplinary action by the University.

General Statement

    The University will not tolerate improper actions by University 
community members or visitors. Actions, which are improper, include, 
but are not limited to, the following:
    <bullet> Actual or threats of physical violence, or other forms of 
harassment.
    <bullet> Destruction of University property or other private 
property.
    <bullet> Interference with entry to or exit from University 
buildings or facilities, including free movement by individuals.
    <bullet> Disruption of or interference with instructional 
activities, campus events or other University business.
    <bullet> Interference with the rights of others to the freedom of 
speech and assembly.
    <bullet> Unauthorized entry to a University facility and failure to 
leave when requested by a representative of the University.
    <bullet> Possession of firearms, explosives, chemicals, or fire 
extinguishers.
    <bullet> Failure to comply with the orders of directives of 
University officials, police or other law enforcement agencies acting 
within the scope of their duties.

Hazing Policy

    At DeSales University we believe in the dignity of life and hold a 
deep respect for each individual person as a creation of God. Hazing is 
contrary to these beliefs and will therefore not be tolerated in any 
form. DeSales University defines hazing as any activity suspected of 
someone affiliating with or joining a group that humiliates, degrades, 
abuses, or endangers, regardless of the persons willingness to 
participate. Furthermore, this definition includes any action which 
DeSales University--2015-16 Student Handbook Page 124 of 162 results in 
the disruption of the educational process, the impairment of academic 
performance, or failure to properly fulfill obligations to University 
sponsored groups or organizations. DeSales University unconditionally 
opposes all forms of hazing and adheres to Pennsylvania Penal Law which 
defines hazing as follows:

          ``Any action or situation which recklessly or intentionally 
        endangers the mental or physical health or safety of a student 
        or which willfully destroys or removes public or private 
        property for the purpose of initiation or admission into or 
        affiliation with, or as a condition for continued membership 
        in, any organization operating under the sanction of or 
        recognized as an organization by an institution of higher 
        education. The term shall include but not be limited to, any 
        brutality of a physical nature such as whipping, beating, 
        branding, forced calisthenics, exposure to the elements, forced 
        consumption of any food, liquor, drug or other substance, or 
        any other forced physical activity which would subject the 
        individual to extreme mental distress, such as sleep 
        deprivation, forced exclusion from social contact, forced 
        conduct which could result in extreme embarrassment, or any 
        other forced activity which could adversely affect the mental 
        health or dignity of the individual, or any willful destruction 
        or removal of public or private property. For purposes of this 
        definition, any activity as described in this definition upon 
        which the initiation or admission into or affiliation with or 
        continued membership in an organization is directly or 
        indirectly conditioned shall be presumed to be `forced' 
        activity, the willingness of an individual to participate in 
        such activity notwithstanding. (Penal Law, P.S. 5352)

          ``Any person who causes or participates in hazing commits a 
        misdemeanor of the third degree.'' (Penal Law, P.S. 5353)

Any violation or suspected violation of this hazing policy should be 
reported to any of the following: the Student Affairs Office, the 
Director of Athletics, or the Director of Student Engagement and 
Leadership. In addition, students may also report incidents of hazing 
to University Police dial ext. 1250 from any on campus phone or direct 
dial 610.282.1002. Any person or organization in violation of this 
policy will be subject to University disciplinary action.

Intolerance Policy

    Intolerance, harassment, or any other conduct that diminishes the 
dignity of a human person is incompatible with our fundamental 
commitment as a Catholic university in the Salesian tradition. Every 
person shall be treated with respect and dignity. No person shall be 
subject to any sexual, racial, psychological, physical, verbal, or 
other similar harassment or abuse. Those who treat others with such 
intolerance will be subject to appropriate disciplinary action by the 
University.

Disciplinary Efforts

    <bullet> Harassing, stalking or hazing any person, including 
sexually harassing and cyber bullying.
      <bullet> Minimum--Disciplinary probation
      <bullet> Maximum--Expulsion
    <bullet> Engaging in disorderly conduct, disruptive, lewd, or 
indecent conduct.
      <bullet> Minimum--Community service
      <bullet> Maximum--Expulsion
    <bullet> Physically harming or threatening to harm any person, 
intentionally or recklessly causing harm to any person or reasonable 
apprehension of such harm or creating a condition that endangers the 
health and safety of self or others.
      <bullet> Minimum--Disciplinary probation
      <bullet> Maximum--Expulsion
                              our numbers
    According to our Director of Student Conduct, our numbers for 
bullying/hazing are relatively low. The majority of the numbers do 
revolve around social media, where students feel that they can ``hide 
behind the screen.'' Many times, these violations are very hard to 
address because it is unknown who was involved. Other times, the 
violators are unknown, but other students will come forward with 
information because they feel that what was done was wrong. For 
instance, there was an incident in which derogatory remarks were 
written on flyers promoting a student program. The remarks were 
personally attacking the individual on the flyer. Several students came 
forward and shared that the student who wrote these remarks was 
bragging about it on his social media (Twitter). The students who came 
forward said that they did not feel what he did was right and that the 
students of DeSales are better than that. Our students so often pull 
together and protect one another.
    The following is from the Student Conduct 2015-2016 annual report.

 
----------------------------------------------------------------------------------------------------------------
                          Total Year                             2011-12   2012-13   2013-14   2014-15   2015-16
----------------------------------------------------------------------------------------------------------------
Engaging in disorderly conduct, disruptive, lewd, or indecent          5         6         3         4        11
 conduct......................................................
Harassing, stalking, or hazing any person, including sexually          0         3         0         0         0
 harassing and cyber bullying.................................
Physically harming or threatening to harm any person or                0         1         2         0         0
 creating a condition that could endanger self or others......
----------------------------------------------------------------------------------------------------------------
    TOTAL.....................................................         5        10         5         4        11
----------------------------------------------------------------------------------------------------------------

                      the student conduct process
    Our student conduct director takes an educational, as opposed to 
punitive approach when addressing student behavior. She knows that 
everyone in life makes mistakes. Her goal is to work with the students 
to get them back on track. Students do receive sanctions for violations 
of policy, however, the key aspect of student conduct meetings is what 
the student learns and applies to future situations. The minimum and 
maximum sanctions are listed above. The following are some of the 
educational sanctions that are often given:

    <bullet> Educational conversation
    <bullet> Mediation with both parties (similar to restorative 
justice)
    <bullet> Counseling session to process (extended counseling depends 
on the counselor)
    <bullet> Educational assignment (student may be asked to research 
policies/impact and write a paper with a section for reflection of how 
their violation may have impacted others
    <bullet> Community service (when possible, the service has relevant 
connection to the violation)
                               prevention

Early Alert Process

    <bullet> Purpose: To provide a confidential referral system which 
will enable the Counseling Center to be proactive in the support of our 
students.
    <bullet> Reasons to Use an Alert: Some suggestions for use of an 
Early Alert Form would be: changes in behavior, depression, eating 
disorders, attendance irregularity, drug or alcohol use, unusual 
behavior, loneliness, abuse, rape, death, relationship conflict, and 
family conflict.

Care (Concern Assessment REsponse) Team

    This team provides a confidential resource to the DSU community to 
which faculty and staff direct concerns they may have about a student. 
Such as:

    <bullet> Attendance Concerns
    <bullet> Academic Decline
    <bullet> Emotional Issues
    <bullet> Behavioral Problems

    The team investigates and responds to matters of concern related to 
students, coordinates interventions, and makes recommendations for 
further action. The team provides assistance to students through 
consultation with appropriate faculty or staff, and referral to on-
campus and off-campus resources.

Areas of Focus

    <bullet> Concerns: through consultation with faculty, staff, and 
students the team ensures appropriate information exchange and provides 
support for campus personnel, and attempts to identify behaviors of 
concern to provide earlier intervention.
    <bullet> Assessment: when additional information is needed, the 
team functions as an investigative body, charged with gathering 
relevant and confidential information to assess whether further action 
is required.
    <bullet> Response: when warranted, the team makes referrals to on-
or off-campus resources. University policy, along with other legal and 
regulatory requirements, guide the team's actions. The team can also 
serve as a resource to educate the campus community on effective 
intervention strategies when concerns arise.

Character U (First Year Experience Program)

    Character U is designed to ease the transition from high school to 
college and to help students develop core character values that will 
set them up to succeed at DeSales and in life after college. Through 
Character U, they enjoy a close relationship with a peer mentor 
assigned to guide them through their first year, an instant social 
group in their dedicated pod of classmates, and a variety of Character 
U programing. Programming throughout the year reflects character traits 
inspired by the Golden Counsels of Saint Francis de Sales. Each month, 
a trait is highlighted at Character U meetings and at various events 
across campus:

    <bullet> September: Patience
    <bullet> October: Trust and Cooperation
    <bullet> November: Perseverance
    <bullet> February: Love
    <bullet> March: Forgiveness
    <bullet> April: Hope

Haven

    Haven is the premier online program addressing the critical issues 
of sexual assault, relationship violence, stalking, and sexual 
harassment--among students, faculty and staff. It was created in 
collaboration with leading campus practitioners and researchers and 
national thought leaders, including renowned expert Dr. Alan Berkowitz, 
Haven reaches 700,000 individuals at over 650 institutions across the 
country. Haven is required for all first-year students (freshmen and 
transfer students) to complete and introduces and focuses on Bystander 
Intervention. This empowers our students with the understanding that 
DeSales University is a community that cares for all.

Solidarity Initiative

    Solidarity is an action on behalf of the one human family, calling 
all of us to help overcome the divisions in our world. The DeSales 
Solidarity Initiative is to provide students, faculty, and staff with a 
new understanding of this human family, while encouraging them to ``be 
who they are and be that well.'' We inspire mutual respect, the 
development of friendships, and learning about the realities of each 
other's lives through compassion and patience. We commit to fostering 
the ``holistic'' growth of the DeSales community by opening a dialog 
and investing in the good of one's neighbor. Goals of the Solidarity 
Office:

    <bullet> Welcome and accept all at DeSales.
    <bullet> Welcome, recognize, and respect cultural differences among 
the student body.
    <bullet> Provide a comfortable environment where differences are 
met with love.
    <bullet> Highlight those who have paved the path to equality.
    <bullet> Teach one how to accept/love themselves while continuing 
their journey to ``holistic'' growth.

Positively DeSales

    Positively DeSales is an anonymously created and run Facebook page 
that was student initiated. Its goal is to spread positivity around 
campus. Students, faculty, and staff can post positive words about any 
other member of the campus community. Positively DeSales then posts 
these words for all to see on the page. This is a wonderful way to 
anonymously highlight others.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               pace (peers advising counseling educating)
    In keeping with the wellness model of college health, the PACE 
(Peers Advising Counseling Educating) program was born out of a need 
expressed by the university for peers teaching peers how to lead 
healthier lifestyles; and this remains their mission today. Following 
the piece of the DeSales University's mission, ``enriching the human 
community and enhancing the dignity of the individual through its 
educational endeavors,'' the PACE team maintains as it vision to 
emphasize personal responsibility, deep respect for others, leadership 
development, and concern for the common good. Through program 
development, activities, practices, and policies, PACE reinforces these 
values and offers students opportunities for personal growth, self-
assessment, and success in all aspects of their lives.
    PACE also works hard at enhancing our University's Character Code 
through their programming:

          As a member of DeSales University, I will conduct myself in a 
        respectful manner, with dignity and honesty, in the Salesian 
        tradition of humility and gentleness.

    The PACE team is comprised of six students. The team includes 
seniors, juniors, and sophomores. Their majors range from marriage and 
family studies, psychology, communications, and biology. They represent 
many leadership roles beyond PACE including, DAWG (DeSales University 
Welcoming Guides), peer mentors, rugby, tutors, student government 
reps, yearbook, L.E.A.D.S.U. (leadership program), etc.
    As for the brief history, PACE was created in 2003/2004 with a 
group of six students. Their focus was on wellness education across the 
campus community. Over the years, this has grown in many ways. Through 
the years, PACE has broadened its scope from programming on campus to 
offering ``PACE Academy,'' a leadership course for high school 
students, ``Character Quest,'' a character-based scavenger hunt for 
middle school students, and ``Bully Busters,'' an anti-bullying program 
for elementary school students.
    In 2006, ``Character U, the First Year Experience Program'' was 
launched at DeSales with each PACEr leading a group of five DSU mentors 
and 50 freshmen. This led to a global initiative, ``Destination: South 
Africa'' which took a group of first-year students, led by PACErs, to 
do service work in South Africa. Over the years, PACE has continued to 
create new programs, including expanding the Safe Spring Break 
initiative, the Journey to Wellness Fair, the Walk-A-Mile In Her Shoes 
(Sexual Assault Awareness Program), To Write Love on Her Arms (Suicide 
Awareness Program), and on and on. Since its inception, PACE has 
effectively extended its reach to elementary schools, middle schools, 
secondary schools, and professional groups on campus and 
internationally. In their short existence PACE grew from nothing to a 
powerful, positive force on and off campus.
    From its beginning, the PACE team has always had a major impact on 
the campus community, particularly with the offices of Residence Life, 
Student Engagement and Leadership, Dean of Students, Student Conduct, 
Career Development, and Health Services. PACE currently has many 
``canned'' programs, which members are willing to present at any time 
and to any group on campus. All of the programs have their own unique 
activities and lessons attached to them and are offered periodically 
through the year. The PACErs are some of the first people that our 
freshmen meet when they move to campus. The Office of Student 
Engagement and Leadership (SEAL) truly values the PACE program because 
they realize that peers can sometimes reach their peers better than 
staff members, particularly in certain areas of education. Because of 
this, SEAL requests the PACErs for several key programs throughout 
freshmen orientation, including alcohol and personal safety. PACE has 
impacted the campus by bringing awareness to so many important (and 
sometimes forgotten topics), including alcohol, body image, nutrition, 
personal safety, sexual assault, ``Mean Girl'' behavior and cyber-
bullying. There is little doubt that their energy and enthusiasm are 
infectious and will pervade our community for years to come. It is 
certain that the PACERs will continue to test themselves with new and 
exciting programs and find ways to better reach the DeSales students 
and faculty as well as the greater community. With so much accomplished 
in their years of existence, the DeSales University PACE team is 
certainly destined to a future of continued success in wellness 
programming.
    What sets PACE apart from other efforts on our campus is first, the 
name that they have made for themselves. PACE has become synonymous 
with genuineness, positivity, truthfulness, ``down-to-earth,'' etc. 
PACE has worked very hard over the years to become a ``go to'' when a 
person, or group, needs to be educated on a topic. Because they are in 
a fish bowl, PACErs also work hard at living the messages that they 
teach. They are just a solid, good group of students, with only the 
best intentions at their very core. When they say they will do 
something, they follow through. This does not mean that they do not 
make mistakes every once in a while. Obviously, they do. Nobody is 
perfect. But, they are willing to admit their mistakes and turn them 
into something positive (which explains why their Booze Busters first 
time alcohol offenders program has been so successful).

Awareness and Prevention Efforts and Programming (and Impact)

    In the 2011-12 academic year, one of the PACE students created an 
original program entitled, ``#sorryimnotsorry.'' This program takes a 
whole different approach to cyber bullying by introducing the most 
fundamental part of our education; the alphabet. The alphabet, in 
itself is simply 26 letters, but when rearranged, can be used to spell 
out words. The Internet has provided a new use for the alphabet, 
shortening words to save time (i.e., LOL, BRB, LMAO, etc.). While these 
terms might provide a humorous gesture to some, there can also be an 
extreme to it. Social Networks have been providing ways to communicate 
across the world, allowing us all to stay connected at all times. Cell 
phones, iPads, and laptops, are all easy ways to access websites to 
update Facebook, Twitter, MySpace, and more. However, the use of the 
social network for its original purpose of bringing people together, 
has now changed. In recent years, these ``updates'' to status have 
become more of attacks on certain people, races, ethnicities, and more. 
Bullying is no longer just limited to the schoolyard playground. With 
technology easily available to record, capture, or send messages, cyber 
bullying has no limits, and assumes it has no ``real'' victims. The 
``#sorryimnotsorry'' program provides real life examples using tweets, 
Facebook, and other real messages to show the severity of the issue.
    The student who created this program had a strong passion for this 
topic. Through several incidents that he handled as a Resident Advisor, 
he knew that DeSales was impacted by cyber bullying. In researching for 
his program, he realized that DeSales did not have a policy regarding 
cyber bullying. As a result, he decided to take the pen to paper and 
write one. This policy made its way through the correct chain of 
command and was approved by the administration to be added to the 2012-
13 handbook.
    Although #sorryimnotsorry was an extremely successful program which 
led to new policy, the PACE team felt that they needed to take a 
different approach to educating on the topics of bullying, hazing, etc. 
Taking from our mission, philosophy, and heritage, PACE began to create 
programming that would focus on the other bookend of the spectrum--
kindness. They chose to title their first program #happierdesales. The 
following are some of the programs and initiatives that PACE created to 
make a kinder and happier DeSales:

Kindness Week: #happierdesales

    Imagine a world without conflict and everyone coming together. With 
all of the negativity that is portrayed in the media today, it is hard 
to be motivated to make a change. Bullying affects people of all ages. 
From harsh words to ruthless behavior, our society has gone down a path 
of not caring about other people's feelings for their own gain. Our 
goal is to create a week solely dedicated to being kind to one another 
through selfless acts that inspire everyone to pass on the smiles and 
happiness which will promote positive behavior and a more unified 
campus community.
    Bullying does not go away when students enter their college years, 
especially with new technology and the opportunity for cyber-bullying. 
It is important to educate college communities on the types of bullying 
that can occur, along with the negative effects that accompany it. In 
the beginning of ``Kindness Week 2014 #happierdesales,'' students will 
be flooded with information regarding the commonness of bullying and 
the increasing risk for low self-esteem, depression, and suicide that 
coincides with it. As the week progresses, various activities and 
events will be held in order to promote kindness to combat the 
negativity of bullying. The main goals in carrying out this project 
include making students aware of the effects of bullying as well as 
promoting kindness through the use of activities, giveaways, 
programming, and events. We hope to instill a sense of positivity on 
campus that will continue throughout the semester and into the future. 
``Kindness Week: #happierdesales'' includes:

    <bullet> ``Kindness Can Change the World'': An educational bullying 
program to motivate students to increase kindness measures around 
campus.
    <bullet> Tabling activities in the dining hall to promote kindness 
& gratitude:

      <bullet> ``Balloon Compliments'' where students wrote down 
compliments to send to anyone they chose. These compliments were placed 
in deflated balloons and placed in the recipients' mailboxes. The 
recipients were instructed to blow up the balloon and then pop it to 
receive their compliment. Also, PACErs walked around campus and 
randomly handed out helium-filled balloons that had compliments in them 
for students.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      <bullet> ``Random Acts of Kindness Tree'' where students wrote 
down random acts of kindness that they performed or were shown to them. 
These were all placed and displayed on a tree in the student union 
building.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      <bullet> ``A Positive View'' where the DeSales community could 
write positive statements and quotes on the windows in the cafeteria 
for all to see.
      <bullet> ``Consent Kisses'' where our students asked other 
students if they could give them a kiss to promote consent. When they 
received a ``yes,'' they handed the person two Hershey kisses . . . one 
for them to keep, and one for them to give someone else.
      <bullet> ``Flower Friday'' in which locally donated carnations 
and other flowers were randomly handed out to students.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

``Write Light, Write Life''

    This letter writing campaign asked the DeSales community to take a 
few moments to fill out an on-line form nominating any member of the 
DSU community to receive an anonymous letter of encouragement, 
gratitude, etc. A day was chosen and all were invited to come and help 
write the letters, which were distributed during kindness week. People 
from all across campus called PACE to thank them for initiating such a 
thoughtful program.

``You Are More Than Just A Like''

    This program had us take a look at the emphasis we put on the 
amount of ``likes'' we receive on social media. So often we feel our 
self-worth depends on what people think of words or pictures we post 
and tweet. Worst yet, we are devastated when negative comments are 
made. This program illustrated that we are more than a like, more than 
a filtered picture, and that our self-worth should only be defined by 
what we know of ourselves.

``Mean Girls''

    This program came about after several female students met with one 
of our male PACErs regarding some ``mean girl'' behavior that was 
occurring in the freshmen residence hall. There were two distinct 
groups of students who were not getting along, but no one seemed to 
know how it started. The male PACEr created this program at which there 
was a viewing of the movie, ``Mean Girls.'' Afterward there was a 
roundtable discussion about the movie and the freshmen females were 
able to share their concerns in a healthy, mediated dialog.

``Digging Deeper: The Diversity of Individuality''

    This program helps us realize that as humans, our individual 
differences are what make us unique, special, and worthy of respect.

``No One Else Can Play My Part''

    During lunch hours in the dining hall students answered the 
question why ``No One Else Can Play My Part.'' The papers were later 
displayed in the Student Union to show that each student's life is a 
story; and the part in the story he or she plays cannot be replaced 
with anyone else. On the second day, students pledged to no longer use 
words such as crazy, suicidal, mental, and others in a casual or 
hurtful way. When the words are now used in their proper context, the 
stigma surrounding mental health illnesses can be eliminated over time.

``The Secret We All Share''

    This program is presented in residence halls in lecture format to 
bring awareness to the fact that 1 in 3 people will be diagnosed with a 
mental health illness in his or her lifetime, but how no one talks 
about this commonality, making it a secret we all share. The program 
detailed the signs and symptoms of the most common mental health 
illnesses and how to break the stigma surrounding them. The program 
taught that the most valuable tool to breaking the stigma by talking 
about mental health illness (i.e. share stories). This can be done by 
having real, honest conversations and by taking the lead, as so many 
celebrities have done, to speak up about a mental health illness. This 
openness will start other conversations that will help to break the 
stigma.

``To Write Love On Her Arms'' Open Mic Night

    The event consisted of four different student performers throughout 
the night. Money was raised in a raffle to benefit To Write Love on 
Hers Arms (TWLOHA), which works to provide funding for mental health 
research and treatment for those struggling with mental illnesses and 
suicidal ideation. Between performances, the coordinating PACEr spoke 
about mental health illness and suicidal ideation. Before the 
entertainment began the coordinating presenter educated the students on 
the purpose of the program. The student had a friend who took his life; 
she wanted to do something in his memory and to raise awareness about 
mental illnesses in the hope that someday suicide, as an end to 
depression, might be erased. She also spoke about the signs and 
symptoms of the most common mental health illnesses and the work of 
TWLOHA. She shared the story of her friend's struggle with depression, 
and reminded students that no matter their situation, there is hope. 
During the event, students had the opportunity to write ``love'' on 
their arms, write letters of thanks to their support groups of friends 
and family, and to describe their greatest fears and dreams in order to 
offer insight about the real, honest conversations that should be 
occurring to promote openness and discussion on mental health 
illnesses.

Bystander Intervention

    Although this is not a formal program, PACE makes sure to always 
include this concept into every program they present. They want their 
peers to take as much pride and ownership in their university community 
as they do.

Multi-Disciplinary Approach

    PACE knows that tackling this issue is not a ``one group'' effort 
but requires the efforts of the entire DeSales University community. 
Therefore, PACE utilizes every opportunity to partner with as many 
other offices on campus as possible. They have worked with everyone 
from Student Conduct to Campus Ministry, from the Center for Service 
and Social Justice, to Student Engagement and Leadership and many 
others. Most often will work directly with Residence Life to provide 
in-residence programs.

The ``C'' in Pace

    Pace serves as peer counselors for those students who are more 
comfortable talking to a peer rather than a professional counselor. In 
particular, they are sure to attend as many programs as possible in 
order to be able to process difficult topics with students following 
speakers and presentations.
                                summary
    DeSales University is a 50-year-old Catholic Institution grounded 
in the teachings of St. Francis de Sales. In addition to its strong 
academic curriculum, DeSales University also focuses on educating 
students morally, socially, and spiritually through out-of-the-
classroom programming that enriches the entire human being.
    In a world that has become increasingly desensitized to how we as 
human beings treat others and how we perceive others who have different 
beliefs, cultures, lifestyles, etc., every division within the 
University's student life department is intentionally committed to 
cultivating an environment based on Christian Humanism, kindness, 
selflessness, tolerance, service to others, social awareness, moral 
consciousness, ethical leadership, and responsibility. Through its 
intentional programming, DeSales seeks to instill in its students the 
personal role they play within their local and global communities.
    Again, I would like to thank Chairman Alexander, Ranking Member 
Murray, and members of the Health, Education, Labor, and Pensions 
Committee for this opportunity to showcase the student driven 
prevention efforts of DeSales University.

    Senator Murray. Thank you.
    Mr. Storch.

   STATEMENT OF JOSEPH STORCH, ASSOCIATE COUNSEL, THE STATE 
               UNIVERSITY OF NEW YORK, ALBANY, NY

    Mr. Storch. Thank you. Senator Kirk, Ranking Member Murray, 
and members of the committee, on behalf of the State University 
of New York, the largest comprehensive higher education 
institution in the Nation, its Chancellor, Nancy Zimpher, and 
it's General Counsel, Joseph Porter, I thank the committee for 
convening this important hearing.
    Fifty-five years ago next month, the Fifth Circuit issued a 
seminal decision in Dixon v. Alabama requiring that public 
colleges offer due process to students charged with violation. 
St. John Dixon's alleged crime was that he sat in at a lunch 
counter. He was dismissed with no hearing and no process, and 
the court said that just won't do. Forty-four years ago last 
month, this Congress added title IX to the education amendments 
of 1972, and the law that became the Clery Act recently turned 
25.
    In the decades since, we have learned much, and much has 
changed. Students charged with violations receive robust due 
process, including notice of charges and an opportunity to be 
heard, at a level unimaginable five decades ago. The Clery 
Act's attention to crime on campus has led to a complete 
overhaul such that our students are far safer on campus than in 
the surrounding communities. Congress and the Department of 
Education have drawn attention to sexual and interpersonal 
violence and other violence and the need for colleges to 
respond robustly.
    But there is far more work to be done. We like to say that 
the best response to bullying, hazing, and other violence is 
when you don't need to respond at all since it didn't happen in 
the first place. While a trauma-informed, balanced response 
with clear neutral policies and due process are important, SUNY 
was most excited by this Congress' shift in the Violence 
Against Women Act's amendments to Clery to require significant 
prevention work, not just at orientation but at a campaign 
across the year.
    Traditionally, the Clery Act and title IX guidance looked 
backward: respond to violations, report them, count them, warn 
of past crimes. Congress in VAWA said institutions must look 
forward: prevent.
    But at SUNY, we went farther than VAWA. While VAWA requires 
that training be offered to all students, at SUNY, we require 
that our student leaders and our student athletes complete 
training before they can compete in intercollegiate athletics 
or before their club or organization can be registered or 
recognized. Why? Because we think that they're more likely to 
be offenders? Because we think that they're more likely to be 
victims? No. Because we think they're most likely to be leaders 
and leaders who could model pro-social behavior to their fellow 
students.
    We partnered with the Department of Health to offer Green 
Dot and Bringing in the Bystander training to all SUNY 
campuses. We worked closely with the New York State Police, the 
Office of Campus Safety, and the State Coalitions Against 
Sexual Assault and Domestic Violence to develop cutting edge 
programs for response and prevention.
    We take threat assessment and behavioral analysis seriously 
and have trained with the FBI and U.S. Marshals to help us 
appropriately identify and respond to student threats before 
violence occurs. SUNY partnered with New York's Governor Cuomo 
who took SUNY policies and proposed them as laws across the 
State. Now, all New York college students have those same 
protections.
    As a public institution, we spent significant resources 
training on constitutional due process, including model 
policies, live trainings, and webinars. In every case, we 
strive for a fair and equitable process.
    But like anything 25 years old, some minor repairs to the 
Clery Act are in order. While Congress has appropriately added 
additional requirements for colleges, it hasn't cleaned up ones 
that are no longer effective or whose bureaucracy outweighs its 
effectiveness. Make no mistake. SUNY wants to do more to 
prevent bullying, hazing, and other violence. We just want to 
do it more effectively.
    Ultimately, there is much good work to be done on college 
campuses. But to be effective, training and prevention of 
bullying, hazing, and other violence must begin long before 
college orientation. Students form their habits and 
interpersonal norms in high school or middle school, and 
colleges sometimes fight an uphill battle to change those 
views.
    Further, many high school students will graduate or not 
graduate and never attend college and never have access to the 
protections that only apply in the Higher Education Act. But we 
believe they still need education, and that education must take 
place earlier.
    SUNY hears and actively embraces the call to provide the 
best tools, resources, and services to protect our students 
from campus violence and support them in the event that an 
incident occurs. In all the areas described in this oral and my 
written testimony, we in higher education and the Congress are 
moving in the right direction, but there is more work to be 
done.
    We're not afraid of taking on tough challenges. But we want 
to address these issues in ways that are proven with evidence 
to make a real difference in the lives of our students so that 
the next 25 years of college attendees will be even safer than 
the last 25 years, which, with your work, were even safer than 
the 25 years before that.
    Thank you for the deep honor of addressing this committee.
    [The prepared statement of Mr. Storch follows:]

                  Prepared Statement of Joseph Storch

                                summary
    SUNY is the Nation's largest comprehensive public university 
system, with nearly 500,000 students at 64 institutions, including 
community colleges, technology colleges, comprehensive colleges, and 
doctoral degree granting universities. SUNY exhibits a strong 
commitment to ensuring student safety, and strongly supports the 
Senate's efforts to prioritize this issue.
    Bullying and hazing have significant negative impact on our 
students. SUNY works diligently on training, policies, and methods to 
cut down on bullying and hazing and to quickly respond when it does 
occur (including partnering with national and State groups). But as 
with sexual and interpersonal violence, education and cultural change 
must begin earlier. Bullying is all but free, but responding is cost-
prohibitive. Since a high percentage of bullying occurs through digital 
and social media, Congress should examine the Communications Decency 
Act and consider empowering victims through a notice and takedown, with 
review provision for harmful bullying content posted online, that 
balances protected speech with protections against defamation.
    While the Clery Act and Title IX guidance traditionally looked 
backward toward response and reporting, the Violence Against Women Act 
amendments require colleges to look forward and train in preventing 
incidents before they occur. SUNY applauds Congress' shift toward 
robust prevention requirements.
    SUNY proudly partnered with New York State Governor Andrew M. Cuomo 
to develop Education Law  129-B which, in addition to the most 
comprehensive response requirements of any State, builds upon the VAWA 
prevention shift to require that, while programming is offered to all 
new and continuing students (as VAWA requires), student-athletes and 
leaders must complete prevention training. In this way, campus leaders 
will be well trained to model positive behavior to their fellow 
students. Additionally, working with State and national partners, we 
have provided many live and webinar trainings on response and 
prevention, including partnering with the Department of Health to 
provide each SUNY campus with a choice of Green Dot or Bringing in the 
Bystander/Know Your Power training.
    SUNY has proudly worked with members and staff in the Senate and 
House on common-sense amendments to the Clery Act to clarify confusing 
elements and add additional requirements that will bring forward more 
reports, address reports in a balanced but serious manner, and provide 
meaningful sanctions for violators.
    But to meaningfully reduce violence, education must begin long 
before college. Attitudes and interpersonal norms begin and become 
reinforced in high school and middle school, we cannot succeed if 
training to change these habits begins at college. Requiring earlier 
education will reduce violence at colleges and provide vital education 
for those who don't go to college.
                                 ______
                                 
                  The State University of New York,
                                 Office of General Counsel,
                                          Albany, NY 12246,
                                                     July 11, 2016.
Hon. Lamar Alexander, Chairman,
Health, Education, Labor, and Pensions (HELP) Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Health, Education, Labor, and Pensions (HELP) Committee,
U.S. Senate,
Washington, DC 20510.

Re: Campus Safety: Improving Prevention and Response Efforts

    Dear Chairman Alexander, Ranking Member Murray, and members of the 
committee: On behalf of The State University of New York (SUNY), I 
thank the committee for convening this important hearing on Campus 
Safety: Improving Prevention and Response Efforts. SUNY is the Nation's 
largest comprehensive public university system, with nearly half a 
million students at 64 campuses, including community colleges, 
technology colleges, comprehensive colleges, and doctoral degree-
granting universities. Indeed, SUNY is a microcosm of the national 
higher education sector. As such, this testimony stems from the 
system's extensive experience in creating policies that both fit the 
needs of diverse institutions and support system-wide objectives.
    As an Associate Counsel in the Office of General Counsel for the 
SUNY system, I view campus safety issues through the laws that govern 
institutions of higher education, which are primarily the Higher 
Education Act (including the Clery Act), Title IX, and State and local 
laws that apply to campuses. We play a central role in interpreting 
what the law means for students, faculty and staff, on the 64 campuses 
within the SUNY system.
    While this hearing will focus on campus safety, I will concentrate 
my comments on the prevention of and response to violence on college 
campuses, a field that has been my professional focus and is essential 
for campus safety. SUNY has an unwavering commitment to ensuring 
student safety, and we strongly support the Senate's efforts to make 
this issue a national priority, as we have done in New York State. We 
were proud to work with New York's Governor and legislature to develop 
the Nation's most comprehensive State law addressing interpersonal 
violence on campus.
    Reducing and Preventing Bullying and Hazing: Bullying and hazing 
have significant negative impacts on our students. SUNY has worked hard 
on training, policies, and methods to cut down on bullying and hazing 
and to quickly respond when it does occur. On SUNY campuses, we train 
our student groups, deal seriously with those who engage in hazing and 
bullying, and treat multiple violations with the utmost gravity. But as 
with prevention and response to sexual and interpersonal violence, 
colleges need this education and cultural change to begin earlier. 
Ideas and ideals are ingrained in children long before they start 
taking college admissions tours. A casual glance at television shows, 
news media, and social media shows bullying and defamation proceeding 
at a breathless pace. Institutions can best address bullying if 
Congress requires educational changes that occur earlier in students' 
lives.
    SUNY has engaged campus leadership at different levels to address 
bullying and hazing. SUNY has a number of ``role-alike'' groups where 
Title IX Coordinators, various student affairs professionals, and many 
others from the same position within a campus will meet to cross-train 
and develop best practices. Many of these meetings have focused on 
bullying and hazing, the need to respond appropriately to protect 
victims and witnesses while seriously addressing allegations. Where we 
can, we have engaged New York State and national partners (for 
instance, conducting a training with the FBI and U.S. Marshalls) to 
learn and implement best practices.
    As a high percentage of bullying occurs through digital and social 
media, Congress should look at the role of the Communications Decency 
Act in providing immunity to providers for content that they do not 
create (a good idea) while not requiring them to temporarily take down 
and review harmful content when they receive a notification (a bad 
idea). Some victims of online and social media bullying can afford 
expensive attorneys and investigators to act against their bullies; 
most cannot. The cost of bullying is all but free; the cost of fighting 
back is prohibitive. Congress may wish to consider a system similar to 
the notice and takedown provisions of the Digital Millennium Copyright 
Act, allowing a victim to notify a website about defamatory material, 
then have that material temporarily removed and analyzed to ensure that 
it is defamatory and not protected speech, and either kept off or 
returned to the site. Some companies are, by necessity, already 
reviewing comments or prohibiting anonymous commenting. Congress can 
require or promote consistency in a way that balances speech with 
preventing brutal bullying and defamation online.
    The Clery Act, which turned a quarter century late last year, has 
traditionally aimed at reporting, and in recent years responding to, 
certain crimes that occur in certain designated geographic locations. 
Congress changed that focus in 2013 adding the new requirements to 
count and classify gender-based violent crimes, and focus on 
prevention, training, and education, long a hallmark of our own 
programming. Although we had devoted resources and time to prevention 
in the past, the legislative shift has given SUNY access to 
partnerships and new ideas as colleges and community organizations 
devote more resources and attention to prevention. SUNY takes the 
issues of harassment and discrimination, including sexual violence, 
extremely seriously. We believe that this focus has allowed SUNY to 
emerge as a leader, providing resources to students. We partner with 
national, State, and local organizations, as well as colleges and 
universities across the country, to advance our mission of ending 
violence on campus.
    Title IX and its implementing regulations prohibit discrimination 
based on sex. Alongside other civil rights law, this has been read to 
include gender-based violence and peer harassment based on race, color, 
sex, national origin, or disability. Several of these behaviors are 
common forms of bullying or hazing. The Department of Education (ED) 
Office for Civil Rights has issued guidance to colleges and 
universities to provide clarity around the law, and ensure it is 
enforced properly, guiding campuses to limit the effects of violence 
and prevent its recurrence. In other words, at least traditionally, 
both the Clery Act and title IX guidance looked backward: respond to 
violence, count it, report it. There were some minor calls for 
training, but both laws were primarily reactive, not proactive, to 
violence.
    Shifting From Response to Prevention: Truth be told, SUNY does not 
want to be a leader in developing programs, processes, and trainings to 
respond to violence; rather, we look to the day when our dedicated 
professionals have no violence to respond to. That, quite simply, is 
our goal. As colleges progressively do a better job of notifying 
students how to report violence, reports will increase, flooding the 
offices assigned and requiring additional resources.\1\ If we are ever 
to reduce reports, it will have to be through reducing violence by 
shifting to a regime of prevention training. That, in turn, will 
require additional resources and emphasis on the issue from the top 
down. Without such resources, reports will stay high even as violence 
stays high. The graph below exemplifies this curve:
---------------------------------------------------------------------------
    \1\ Joseph Storch, Sexual Violence: Responding to Reports Is Not 
Enough, INSIDE HIGHER ED, https://www.insidehighered.com/views/2016/03/
14/colleges-must-not-only-respond-reports-sexual-violence-also-prevent-
it-essay (Mar. 14, 2016).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    To bend that curve, colleges must continually look ``upstream,'' as 
shown in the graphic below. Good work after the incident occurs is not 
enough. We must strive to take ``water'' out of the ``stream'' in the 
form of fewer incidents that necessitate responses.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

    In 2015, SUNY continued its partnership with the New York State 
Department of Health, working together to provide each SUNY campus with 
a choice of Green Dot or Bringing in the Bystander/Know Your Power 
training at no cost to the SUNY attendees. Hundreds were trained in one 
program or both. In addition, SUNY has a strong relationship with the 
One Love Foundation, with thousands of administrators, faculty, and 
students trained using their dating violence prevention curriculum. 
Students have been moved by the program and it has caused them to 
question how they would help a friend in a violent relationship. The 
SUNY Athletic Conference (SUNYAC) decided to take a leadership role in 
dating violence prevention, and SUNYAC student-athletes have undergone 
several trainings and engaged in programming on their campuses. In 
April 2017, the student-athletes will lead a conference-wide single day 
event that will raise awareness of dating violence amongst tens of 
thousands of students.
    New York Education Law 129-B: In October 2014, New York State 
Governor Andrew M. Cuomo met with the SUNY Board of Trustees about 
sexual assault on campus, and the Board passed a resolution that would 
``establish a comprehensive, system-wide, uniform set of sexual assault 
prevention and response practices at SUNY campuses, which can be a 
model for colleges and universities across the State and the Nation.'' 
\2\ SUNY Chancellor Nancy L. Zimpher, a leader on this issue, convened 
a working group \3\ comprised of campus presidents, counsel, student 
life leadership, title IX coordinators, University police and public 
safety representatives, students, faculty, and nationally recognized 
external experts to take five-dozen very good policies and develop a 
single cutting-edge set of policies. In fewer than 60 days, the group 
ably fulfilled its mandate, and as of December 1, 2014, those policies 
began to roll out on campus. Governor Cuomo soon took SUNY's policies 
to the next level, proposing them as State law. After extensive, 
valuable input from victim advocates, students, private and public 
colleges, and other experts, the bills passed nearly unanimously, and 
Education Law  129-B \4\ was enacted. This practice and the resulting 
law, can be a model for colleges and universities, and key stakeholders 
to come together and improve campus safety prevention and response on 
broader issues.
---------------------------------------------------------------------------
    \2\ http://www.suny.edu/about/leadership/board-of-trustees/
meetings/webcastdocs/Sexual%20
Assault%20Response%20and%20Prevention %20REVISED-Merged.pdf.
    \3\ http://system.suny.edu/sexual-violence-prevention-workgroup/.
    \4\ https://www.ny.gov/programs/enough-enough-combating-sexual-
assault-college-campuses.
---------------------------------------------------------------------------
    Prevention and Response Webinar Series: SUNY co-produces a webinar 
series \5\ with the New York State Department of Health, New York State 
Office for the Prevention of Domestic Violence, the New York State 
Coalition Against Sexual Assault, and the New York State Coalition 
Against Domestic Violence to provide training in prevention and 
response. Webinars are open to colleges, community partners, and 
government agencies. Topics include explaining title IX to beginners, 
cultivating a peer-educator program, efficiently educating members of 
Greek letter organizations, developing different types of campus-wide 
violence-prevention campaigns, de-mystifying the sexual assault 
forensic exam, addressing sexual and interpersonal violence in study-
abroad settings, reaching out to nightlife establishments to partner in 
violence prevention, a conversation with Missoula author Jon Krakauer, 
and many more. Webinars are offered completely free of cost and can 
create a strong sense of community for students by helping raise 
awareness and educating students.
---------------------------------------------------------------------------
    \5\ http://system.suny.edu/sexual-violence-prevention-workgroup/
training/webinars/.
---------------------------------------------------------------------------
    Sworn Law Enforcement and Local Law Enforcement Memoranda of 
Understanding: SUNY campuses have title IX coordinators, professionals 
responsible for Clery Act compliance and training, and trained 
counselors. State-operated colleges have sworn law enforcement: 
University Police officers who train alongside local law enforcement 
but also have at least 60 college credits prior to starting their role. 
University Police are knowledgeable and recognized in their field, 
trained in community policing and trauma-informed response. SUNY 
campuses maintain MOUs with local law enforcement regarding response to 
crimes of violence and other matters. SUNY has a strong relationship 
with the New York State Police, and we routinely partner on initiatives 
to promote safety on campus and in the community.
    Training: In recent years, SUNY conducted hundreds of general and 
specialized trainings for campus personnel in complying with the Higher 
Education Act (including the Clery Act as amended by VAWA), title IX, 
and New York Education Law 129-B, and in going beyond these laws to 
best serve students. Some live trainings have drawn hundreds of 
participants. Audience members have included University and campus 
leadership, administrators, faculty, and students.
    In the months after Congress reauthorized the Violence Against 
Women Act amending the Clery Act, SUNY worked diligently to advise 
negotiated rulemakers on relevant issues, and to develop guidance and 
training for SUNY professionals and others in higher education 
(including several national live trainings and webinars). ED issued its 
proposed regulations on June 19, 2014. On June 26 and July 9, SUNY 
conducted two live trainings for over 250 SUNY professionals on how to 
comply with the law and regulations (even though the regulations were 
not to take effect until the next summer). The training team wrote a 
93-page guidance document \6\ in the 1-week before the first training 
and, following the trainings, SUNY made the guidance free and public; 
it was shared by several national higher education groups and has since 
been accessed over 30,000 times. SUNY is partnering with the City 
University of New York and with State agencies and community 
organizations to develop cutting-edge prevention resources and 
trainings. We would like to make them available to the higher education 
and larger communities, in order to maximize the impact on campus 
safety. In the years to come, with the support of Congress, we could do 
even more to reduce violence before it occurs.
---------------------------------------------------------------------------
    \6\ http://system.suny.edu/media/suny/content-assets/documents/
generalcounsel/SUNY-VAWA-Guidance-2014.pdf.
---------------------------------------------------------------------------
    Amendments to the Clery Act: SUNY works diligently to comply with 
the Clery Act and related obligations. We have been privileged to work 
with members and staff in the House and Senate--from both parties--on 
amendments to the law that will allow colleges to comply more 
efficiently. While some minor changes can ease compliance, below are 
several major changes Congress could enact to make compliance more 
effectual, permitting institutions to devote time saved to prevention 
education:

    <bullet> Clarify Clery geography: ED has given conflicting guidance 
regarding how and where to count crimes when students study abroad. 
This has led to confusion and high compliance cost. In their most 
recent guidance,\7\ ED writes that if a college rents hotel rooms for 
one night, they do not count for Clery, unless two different groups use 
that same hotel for one different night each in 1 year; two nights 
would count, but only if there are certain agreements in place, and 
only for the days the college has ``control,'' and colleges would only 
count crimes in the students' rooms, hallways, and public areas. A 
student killed in a non-student hotel room would not be reportable, a 
non-student killed in the hotel pool would be reportable. A heinous 
triple homicide occurring 3 days before students arrive would not be 
reportable, nor would the same crime occurring on the sidewalk just 
outside the hotel. And even if colleges are able to organize and count 
all covered trips taken by study abroad, academic programs, athletics, 
and certain student organizations, ED would have the college combine 
those statistics with certain crimes occurring at certain off-campus 
student organization houses (mostly Greek letter organizations) that 
have little or nothing to do with these trips. This leads to confusion 
and very costly compliance, while there is no evidence that it makes 
students safer.
---------------------------------------------------------------------------
    \7\ https://www..ed.gov/admins/lead/safety/handbook.pdf.
---------------------------------------------------------------------------
    <bullet> Clarify Local Law Enforcement Letters for Study Abroad: ED 
requires that colleges write to local law enforcement for every 
jurisdiction that includes Clery geography. This means that for the 
hundreds (even thousands) of hotels, classrooms and other sites that 
must be included in Clery geography under ED's June 2016 
interpretation, institutions must write detailed letters to local law 
enforcement asking them to report certain crimes using United States 
Uniform Crime Reporting definitions, in certain pinpoint locations and 
only for certain days. Unfortunately, this has simply become an 
exercise in futility, as international police agencies rarely respond 
with useful numbers. ED audits against what letters are sent, and a 
college could run afoul by not having sent a specific letter (even if 
no answer would ever be received). Institutions are spending 
significant time and resources developing and mailing letters that bear 
no fruit. Further, sending letters asking about sexual assault and 
dating violence to certain localities puts our students in more danger. 
To date, ED has declined to allow for an exception where college 
professionals have a good faith belief that such letters will endanger 
our students.
    <bullet> Policy Statements: ED insists that the Annual Security 
Report include full policy statements and (with a single exception) 
does not allow colleges to link to the relevant policies. That leads to 
longer reports which are less likely to be read. Congress could offer 
flexibility to educate students efficiently, including links to 
relevant documents.
    <bullet> Campus Security Authorities and Responsible Employees: 
ED's Federal Student Aid office has defined ``Campus Security 
Authority'' in a manner that differs significantly from ED's Office for 
Civil Rights definition of ``Responsible Employee.'' \8\ Institutions 
scramble to determine what employees meet the definition of one, the 
other, or both. Further, the language used in both terms is confusing. 
SUNY has suggested combining both concepts into a single new term 
called ``Mandatory Reporter'' and defining that term broadly. As a 
matter of policy and in practice, we want more reports of crime to come 
forward, and Mandatory Reporter is a term that has a clear meaning and 
societal understanding. Except for those with legal privilege or 
confidentiality restrictions (including medical, mental health, legal, 
or religious professionals), all compensated employees should be 
mandatory reporters who must, as soon as reasonably practicable, report 
all crimes covered by the law to the appropriate office or offices as 
determined by the institution. Reporting to the title IX coordinator 
would meet this requirement. This will result in more crimes being 
brought forward (and higher but more accurate numbers reported), more 
consistency in reporting, and the ability of institutions to offer a 
blanket training to employees, rather than spending significant time 
identifying and narrowly training certain employees as Campus Security 
Authorities, others as Responsible Employees, and still others as both.
---------------------------------------------------------------------------
    \8\ http://system.suny.edu/media/suny/content-assets/documents/
compliance/Crime-and-
Incident-Reporting-Guidelines-for-CSAs-and-Responsible-Employees-
FINAL.pdf.
---------------------------------------------------------------------------
    <bullet> Reduce double counting of crimes: ED has earnestly tried 
to ensure that all crimes are reported and do not fall through the 
cracks. Over time, it has modified its use of the Uniform Crime 
Reporting hierarchy rule, such that certain incidents are double or 
triple counted or more. The undersigned has identified an example of a 
single incident that would be counted close to three dozen times for 
Clery Act purposes. Over-counting crimes provides students with no more 
of an honest report than under-counting of crimes. SUNY therefore has 
suggested that crimes be reported once in the most appropriate 
category, and that colleges retain documentation for their decisions.
    <bullet> Modernize missing student reporting: ED, while trying in 
good faith to develop a method to comply with this 2008 addition, 
created a complex and confusing regime for reporting missing on-campus 
students (the ED 2016 Handbook devotes seven pages and more than 2,000 
words to complying with its current system). SUNY suggests a return to 
the plain congressional intent. The requirement can simply read:

          ``if a student is reported missing for 24 hours, within the 
        next 18 hours, the college must contact local law enforcement, 
        the student's emergency contact, and the student's parents, if 
        under 18.''

This will accomplish the important goals (which we firmly support) 
without adding unhelpful bureaucratic requirements.
                     new additions to the clery act
    <bullet> Double down on prevention: As stated earlier, SUNY 
applauds Congress' 2013 shift from response only to response and 
prevention. And at SUNY and in New York, we have gone further. While 
programming is offered to all new and continuing students, we require 
that student leaders and student-athletes complete training. This is 
not because we believe they are more likely to be victims or offenders; 
rather, it is because we believe they are most likely to be leaders on 
campus. By training leaders who can model pro-social behavior, we can 
efficiently educate an entire campus.
    <bullet> Transcript notations: New York State law requires uniform 
transcript notations for students found responsible and suspended or 
expelled after a student conduct process for conduct code violations 
that are equivalent to Clery Act Primary Crimes. Institutions to which 
the student transfers are not prohibited from admitting the student, 
but are on notice of past violations and can request additional 
documentation under FERPA. While New York colleges provide notations 
for students transferring out, they do not benefit from notations for 
students transferring in from out-of-state. A uniform standard will 
allow colleges to consider admitting students with full knowledge of 
past transgressions.
    <bullet> Amnesty: SUNY supports adding a plain-language amnesty 
from drug or alcohol use charges to encourage reporting and reduce the 
fear of a victim or bystander that they will get in trouble, not the 
person who committed the violence. SUNY's amnesty policy became law in 
New York and states:

          ``A bystander acting in good faith or a reporting individual 
        acting in good faith that discloses any incident of domestic 
        violence, dating violence, stalking, or sexual assault to 
        [College/University] officials or law enforcement will not be 
        subject to [College/University's] code of conduct action for 
        violations of alcohol and/or drug use policies occurring at or 
        near the time of the commission of the domestic violence, 
        dating violence, stalking, or sexual assault.''

    Training Must Begin Before College: SUNY firmly believes that 
colleges and universities must play a major role in the effort to 
prevent violence, including bullying, hazing, harassment, and sexual 
and interpersonal violence, and must respond appropriately to any 
violence that does occur, but the process cannot succeed if it begins 
at college orientation. While title IX applies equally to elementary, 
secondary, and postsecondary education, the Clery Act as a part of the 
Higher Education Act does not apply to elementary and secondary 
schools. This is not to say that the entire reporting regime of the law 
must be applied to high schools, but requiring prevention education 
elements earlier will go a long way toward reducing violence on college 
campuses. Many young people develop their habits and interpersonal 
norms during high school or even middle school. By the time they arrive 
at college, some of those (mis)understandings are deeply ingrained and 
colleges fight an uphill battle to change their minds. Earlier 
education will prepare them for the additional training at college, and 
help to lower incidents of violence that occur before the student ever 
sets foot on a college campus.
    Further, the large number of high school students who graduate (or 
do not graduate) and never attend college do not benefit from the 
response, reporting, or newer prevention elements of the Clery Act. 
Their apartment complex will not issue an Annual Security Report, they 
will not receive Timely Warnings of dangerous crimes, and they will not 
be taught the elements of consent and how to prevent sexual and 
interpersonal violence. These young people are at equal or greater risk 
of committing or becoming victims of these crimes, but the law does not 
reach them. While Congress may have difficulty legislating the response 
and reporting elements of the Clery Act for private landowners, by 
requiring more, better, and earlier training and education in consent, 
bystander intervention, and other elements required by VAWA, we will 
have a fighting chance of keeping all young people safe, whether or not 
they attend college.
    Congress should consider funding for institutions to partner with 
school districts to develop and implement training that is research 
based, creative, and consistent across the students' time in middle 
school, high school, and college. By taking advantage of scale, 
targeted funding toward such partnerships can significantly reduce 
incidents of violence in college, before college, and for students who 
will never attend college.
                               conclusion
    In 2016-17, SUNY will conduct a University-wide climate survey on 
all campuses. It will be the largest such survey conducted anywhere in 
our Nation to date. We will conduct the survey every 2 years, and 
thereby gather data that, in coordination with State and national 
partners, will help us understand what works and what doesn't work in 
reducing violence, so that we can turn those lessons into more 
effective training and policy. SUNY Chancellor Zimpher is well known 
for saying we need real data to know what works. This climate survey, 
in addition to our work with State and national partners on research 
into effectiveness of different programming, will aid colleges and 
universities across the Nation in addressing violence on campus.
    SUNY hears and actively embraces the national call for providing 
the best tools, resources, and services to protect our students from 
campus violence and support them in the event that an incident occurs. 
We must, in short, get down to the business of making our campuses as 
safe as possible while ensuring more accountability and transparency. 
In all of the areas described throughout my testimony, we are moving in 
the right direction, but there is much more work to be done. We are not 
afraid of taking on tough challenges, but we want to address these 
issues in ways that are proven to make a real difference in the lives 
of our students. Thank you for the honor of addressing this committee.
            Sincerely,
                          Joseph Storch, Associate Counsel,
                                  The State University of New York.

    Senator Murray. Thank you very much.
    Ms. Clementi.

  STATEMENT OF JANE CLEMENTI, CO-FOUNDER, THE TYLER CLEMENTI 
                    FOUNDATION, NEW YORK, NY

    Ms. Clementi. Thank you, Senator Murray and esteemed 
members of the HELP Committee. I am grateful for the 
opportunity to share my son, Tyler Clementi's, story today with 
you with the hope that you will learn from our family's pain, a 
family that is not very different than some of your own. Maybe 
we could even be your neighbors or your friends. I certainly 
think that we could be your voters and your constituency, 
because everywhere I go, I hear people that relate to some part 
of Tyler's story.
    As a family, we are like most families. We once had many 
hopes and dreams, especially for our children. We are very 
private and simple, and we enjoyed the simple pleasures of 
spending as much family time together as we could, whether at 
home in Ridgewood in the beautiful garden State of New Jersey 
or as we traveled on vacation.
    Our family consists of my husband, Joseph, who is a civil 
engineer by education; myself, a registered nurse; my oldest 
son, James, who graduated from Skidmore College in 2009 and 
works full time for the Tyler Clementi Foundation; my middle 
son, Brian, who graduated from Cornell University in 2010 and 
is a mechanical engineer, a thermal dynamic specialist; and my 
youngest son, Tyler, who graduated Ridgewood High School in 
June 2010.
    Tyler was a very kind, caring, and thoughtful young man. He 
had a great sense of humor and a cheerful, easy-going 
disposition. He always had a great smile on his face. He always 
woke up with this huge smile, as if to welcome the day and say, 
``I can do anything today. Today is a day with many great 
possibilities, many great opportunities.''
    He was also very, very creative and very smart and curious. 
He liked to explore and investigate, and he especially liked to 
travel. He was very full of life and energy and lots of ideas. 
Tyler had many interests in his short life, as most children do 
as they go through many phases and stages. But his one true 
passion was music. He was an accomplished and gifted violinist.
    Tyler was very special and precious to us. But he was 
unknown to the world until September 2010, when he made 
national headlines. Shortly after he started his freshman year 
at Rutgers University, Tyler's roommate web-cammed him in a 
live stream of him in a sexual encounter with another man. And 
then Tyler's roommate tweeted about Tyler's encounter, inviting 
many others to come and join in and watch, inviting them into a 
very private personal moment.
    I can only imagine that these bullying actions by his 
roommate must have humiliated Tyler in front of his new dorm 
mates. He must have even thought, maybe, possibly, that his 
sexual orientation was something to be laughed at or ashamed 
of. At this point, Tyler's reality became very twisted and 
distorted. Tyler could no longer see how special and precious 
he was, and he could not even see or find the support and 
resources that he had available to him.
    Tyler became totally consumed and only concerned about the 
words of people who were out there trying only to humiliate 
him. These bullying actions must have caused Tyler to feel 
isolated, alone, worthless, and so very desperate, because it 
was at this point that Tyler made a decision that we can never 
change or undo. On September 22, 2010, Tyler died by suicide. 
He was 18 years old.
    Tyler made a decision that we can never change or correct, 
a decision that not only affected Tyler, but also our entire 
family and many others who knew and loved him. We will forever 
be missing a part of our family. Our family will never be whole 
again, and the simple pleasures of family time together are not 
simple anymore. Every holiday and special family event is 
unbearable and incomplete because Tyler is missing, and a part 
of us is missing.
    As much as we would like to go back and change Tyler's 
actions, the reality is we can't. Instead, we have decided to 
move forward and work to change the mindsets and attitudes of 
people who think that the actions of setting up a camera or 
sending out tweets that say ``come and join in and watch the 
show'' are acceptable, because those are not acceptable 
actions. This is why my husband, Joe, and I started the Tyler 
Clementi Foundation to put an end to all online and offline 
bullying in schools, workplaces, and faith communities.
    As an organization, the Tyler Clementi Foundation has 
initiated several awareness programs based on Tyler's story, as 
well as partnerships to provide anti-bullying research, 
information, and tools for youth, parents, and youth-serving 
professionals. Our Day One Campaign is a simple, innovative, 
research-based, and effective intervention designed to prevent 
bullying before it happens. Day One Campaign creates a safe, 
inclusive atmosphere within a community where everyone is 
embraced, not despite their differences, but because of their 
differences. We are also committed to turn bystanders into 
upstanders, a person who speaks up when they see someone being 
humiliated or bullied.
    I am not sure why Tyler's story attracted so much 
attention. But one thing I have learned is that it is not an 
isolated occurrence. Everywhere I go, people share with me how 
they connected to some part of Tyler's story, maybe not the 
exact situation, but some part of the circumstances as well as 
the emotional toll that Tyler must have experienced.
    Research shows that over 3.2 million students report that 
they have been a victim of some form of bullying every year, 
and that number is astronomical and unacceptable. This is not a 
rite of passage or simply kids being kids. This is a public 
health threat.
    But don't be deceived also by thinking that bullying only 
occurs in school age children or that it is something that is 
less serious than it truly is, because bullying behaviors do 
not magically disappear at a certain age. It can and will 
continue into adulthood unless there are behavior 
modifications, and bullying behaviors are serious and can 
sometimes rise to the level of criminal hazing, harassment, 
invasion of privacy, and/or stalking. And to my knowledge, at 
this point in time, there are no Federal laws that address the 
full effects of bullying behaviors or promotes any type of 
prevention measures.
    I do believe that every classroom and institution of higher 
education can and should be a safe place to learn and thrive. 
But in order for that to happen, we need Federal legislation to 
help create safe campus climates for all students in higher 
education across the country. It is my urge today that I really 
would love to ask you to include the Tyler Clementi Higher 
Education Anti-harassment Act in the reauthorization of the 
Higher Education Act.
    The Tyler Clementi Higher Education Act would include 
initiatives to expand and improve programs to prevent 
harassment of students, as well as counseling for targets and 
perpetrators and training for faculty, staff, and students. 
Book knowledge is important, but the wisdom of empathy and 
compassion is priceless, and empathy is one of the best tools 
that we have to make the world a better place.
    So the time is now to create safe spaces for all young 
adults to learn and thrive in our higher education system, 
because we can't let Tyler's story continue to repeat itself. 
Action must be taken now, because we have already seen far too 
many Tylers already.
    Thank you.
    [The prepared statement of Ms. Clementi follows:]

                  Prepared Statement of Jane Clementi

                                summary
    In September 2010, my son Tyler Clementi made national headlines. 
Not for his musical gifts or his thoughtful kindness but because of a 
decision he made following an incident of cyber harassment/bullying. He 
had just started his freshmen year at Rutgers University, when he was 
web-cammed by his roommate while engaging in a sexual encounter with 
another man. His roommate then tweeted about Tyler's encounter inviting 
many others to join in and watch. Announcing to the entire world a very 
personal moment that should have remained just that, a private 
encounter. At this point Tyler's reality became twisted and distorted, 
as he became consumed with and only concerned about the words of people 
who were interested only in humiliating him. He could not see how 
special and precious he was or find the resources and support that was 
available to him. Because it was at this point that Tyler made a 
decision that we can never change or undo. On September 22, 2010 Tyler 
died by suicide. He was 18 years old.
    Tyler's situation and the end result may have been the extreme, but 
it is important to remember that no matter what the immediate outcome, 
all bullying and harassment hurts and almost always leaves painful 
physical and emotional scars, which can sometimes last a life time. The 
painful physical and emotional effects of bullying can manifest with 
emotional distress leading to self-harming behaviors such as alcohol 
and drug use and/or abuse, cutting, unprotected sex, anxiety, low self-
esteem, depression and suicidal ideation. It can also interfere in 
productivity and attendance at school and work.
    I am not sure why Tyler's story attracted so much attention but one 
thing I have learned is it is not an isolated occurrence. Everywhere I 
go people share how they connect to some part of Tyler's story, maybe 
not the exact situation but some part of his circumstances as well as 
the emotional toll that Tyler must have experienced. Over 3.2 million 
students report that they have been the victim of some form of bullying 
every year, that number is astronomical and unacceptable. This is not a 
rite of passage or simply kids being kids, this is a public health 
threat.
    Our personal response has been to create the Tyler Clementi 
Foundation, which is working to put an end to all online and offline 
bullying in schools, workplaces and faith communities. As an 
organization, The Tyler Clementi Foundation has initiated several 
awareness programs based on Tyler's story as well as partnerships to 
provide anti-bullying research, information and tools for youth, 
parents and youth serving professionals.
    Our Day One Campaign is a simple, innovative, research-based and 
effective intervention designed to prevent bullying before it happens. 
Day One Campaign creates a safe inclusive atmosphere within a community 
where everyone is embraced not despite their differences but because of 
their differences. We are also committed to turn bystanders into 
``Upstanders.'' A person who speaks up when they see someone being 
harassed, intimidated or bullied.
    I believe that every classroom and institution of higher education 
can and should be a safe place to learn and thrive but in order for 
that to happen we need Federal legislation to help create safe campus 
climates for all students in higher education across the country.
    I urge you to include The Tyler Clementi Higher Education Anti-
Harassment Act in the reauthorization of the higher education act. The 
Tyler Clementi Higher Education Anti-Harassment Act would:

    1. Initiate, expand and/or improve programs that prevent the 
harassment of students.
    2. Provide counseling to targets and perpetrators.
    3. Train and educate students, faculty and staff about ways to 
prevent or address harassment.
    4. Promote ongoing research as to what is the best methods to 
combat this epidemic.

    I believe this bill will allow institutions of higher education to 
take a fresh look and reexamine their policies and procedures that are 
and are not in place. In addition this legislation is your opportunity 
to not only keep our own young adults safe but to also have a global 
influence as many students come from all over the world to study at our 
fine institutions of higher education. Book knowledge is important but 
the wisdom of empathy and compassion is priceless.
    Bullying does not magically disappear when someone turns 18. We 
must continue to provide safe and supportive learning environments for 
all students in all learning environments including higher education. 
The time is now, we can't let Tyler's story continue to repeat itself. 
Action must be taken now because there have been far too many Tyler's 
already. Thank you.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray and the esteemed members 
of the HELP Committee, thank you for the opportunity to share my son, 
Tyler Clementi's story today. I hope you will learn from his 
experiences and allow his story to motivate you to create safe spaces 
in our higher education system, so that no other young person will ever 
have to experience or endure the pain, hurt, shame and humiliation that 
Tyler endured.
                             tyler's story
    We were and are a very private and quiet family, who like many 
families once had many hopes and dreams, especially for our children. 
We enjoyed the simple pleasures of spending as much family time 
together as we could, whether at home in Ridgewood, NJ or traveling on 
vacation. Our family consists of my husband, Joseph who is a civil 
engineer by education, myself a registered nurse, James my oldest son 
who graduated from Skidmore College in May 2009 and now works for The 
Tyler Clementi Foundation, Brian our middle son who graduated from 
Cornell University in May 2010 and is a mechanical engineer, and our 
youngest son Tyler, who graduated Ridgewood High School in June 2010.
    Our youngest son Tyler was a loving son, a kind and caring brother, 
a thoughtful friend, and a compassionate young man. He had a great 
sense of humor and a cheerful easy going disposition. He always woke up 
with a smile on his face. A warm welcoming smile that seemed to 
announce that the new day was going to be good no matter what came 
along. Tyler was also very creative, smart and curious. He loved to 
investigate, explore and travel. He was so full of life and energy. 
Tyler had many interests in his short life, as most children do, as 
they move through different phases and stages. But Tyler's one special 
love that remained constant was music. He was a gifted musician and his 
instrument of choice was the violin. He was an accomplished violinist.
    Tyler was very special and precious to us, his family, but he was 
unknown to the world until the fall of 2010 when he made national 
headlines. He had just started his freshmen year at Rutgers University. 
Tyler's roommate web-cammed Tyler in a sexual encounter with another 
man and then Tyler's roommate tweeted about Tyler's encounter inviting 
many others to join in and watch, announcing to the entire world a very 
personal moment that should have remained just that, a private 
encounter.
    I can only imagine that these bullying actions by his roommate must 
have humiliated Tyler in front of his new dorm mates. This may have 
even caused Tyler to think that his sexual orientation was something to 
be laughed at and ashamed of. At this point Tyler's reality became 
twisted and distorted. Tyler could no longer see how special and 
precious he was. He was not able to see or find the support and 
resources he had available to him. Tyler became totally consumed with 
and only concerned about the words of people who were interested only 
in humiliating him. These bullying actions must have caused Tyler to 
feel isolated, alone, worthless, and so very desperate.
    Because it was at this point that Tyler made a decision that we 
will never be able to undo or change. On September 22, 2010 Tyler died 
by suicide. He was 18 years old.
    Tyler made a decision that cannot ever be changed or corrected, a 
decision that not only affected Tyler but our entire family and many 
others who knew and loved him. My world crashed to a stop and then 
crumbled apart with the devastation and trauma of the loss of my son. 
The anguish and despair has been overwhelming at times. It has been a 
long dark journey of much sadness and many tears. It remains an ongoing 
battle to push back the sadness and hold on to the peace. A peace that 
only recently I have been able to find, now that the fog and haze of 
the trauma has finally lifted, now after almost 70 months. My life's 
journey is one I hope no one else will ever have to travel, live 
through or endure. A piece of me has died and I have been left with an 
empty space deep within. I will be forever missing a part of me. All 
memories and photos were excruciating to look back on. It was strange 
but all of my memories, my happy moments from the past quickly turned 
and twisted in my head to a future that would never happen. Tyler was 
gone and our family would never be whole again. The simple pleasures of 
family time together are no more. Every holiday or special family event 
is unbearable and incomplete because Tyler is missing.
    Also adding to our family's pain was the added torment of enduring 
a criminal trial against Tyler's roommate for invading Tyler's privacy 
during a sexual act, hindering an investigation and tampering with 
evidence. The pain and anguish that I felt during the trial, was 
overwhelming at times, as I seemed to be listening and watching through 
Tyler's ears, eyes and mind. As different pieces of evidence were 
presented they would trigger memories, both good and bad, but none the 
less all bittersweet and sad. Even simple things such as Tyler's 
laptop, reminded me how he carefully explored his options and then 
chose the different features he liked best, including the blue color 
for the case. And the photos of his dorm room, reminiscing on how 
carefully we had shopped for all the components of his room, like the 
lamps and the bedding and all the other accessories and how excited he 
was to be setting it up and settling in at college. How quickly this 
all changed.
    As much as we would like to go back and change Tyler's actions we 
can't, but we can move forward by working to change the mindsets and 
attitudes of people who think that actions like setting up a camera and 
tweeting messages like ``come join in and watch the show''--are 
acceptable, because they are not. This is why my husband, Joe and I 
started the Tyler Clementi Foundation, to put an end to all online and 
offline bullying in schools, workplaces and faith communities.
                 background information about bullying
    According to Stopbullying.gov,

          ``bullying is unwanted, aggressive behavior among school aged 
        children that involves a real or perceived power imbalance. The 
        behavior is repeated, or has the potential to be repeated, over 
        time. Bullying includes actions such as making threats, 
        spreading rumors, attacking someone physically or verbally, and 
        excluding someone from a group on purpose.'' \6\

This can be deceiving to many young adults who associate the term 
bullying with school-aged children and something that is less serious 
than it truly is. This definition can be misleading and might even be 
seen as a middle class suburban problem. But bullying behaviors do not 
magically disappear at a certain age, it can and will continue on into 
adulthood unless there is behavior modification. Bullying behaviors are 
serious and can sometimes rise to the level of criminal hazing, 
harassment, invasion of privacy and/or stalking. And to my knowledge at 
this point in time there are no Federal laws that address the full 
effects of bullying behaviors or promotes any type of prevention 
measures.
    Tyler's situation and the end result may have been the extreme, but 
it is important to remember that no matter what the immediate outcome, 
all bullying and harassment hurts and almost always leaves painful 
physical and emotional scars, which can sometimes last a life time. The 
painful physical and emotional effects of bullying can manifest with 
emotional distress leading to self-harming behaviors such as alcohol 
and drug use and/or abuse, cutting, unprotected sex, anxiety, low self-
esteem, depression and suicidal ideation. It can also interfere in 
productivity and attendance at school and work.
    I am not sure why Tyler's story attracted so much attention but one 
thing I have learned is it is not an isolated occurrence. Everywhere I 
go people share how they connect to some part of Tyler's story, maybe 
not the exact situation but some part of his circumstances as well as 
the emotional toll that Tyler must have experienced. Over 3.2 million 
students report that they have been the victim of some form of bullying 
every year, that number is astronomical and unacceptable. This is not a 
rite of passage or simply kids being kids, this is a public health 
threat.

Here Are Just a Few Statistics

    28 percent of U.S. students in grades 6-12 have experienced 
bullying.\1\
    20 percent of U.S. students in grades 9-12 have experienced 
bullying.\3\
    9 percent of students in grades 6-12 experienced cyberbullying.\1\
    15 percent of high school students (grades 9-12) were 
electronically bullied in the past year.\4\
    55.2 percent of LGBT students experienced cyberbullying.\5\
    30 percent of young people admit to bullying others in surveys.\2\
    70.6 percent of young people say they have seen bullying in their 
schools.\2\
    62 percent witnessed bullying two or more times in the last month 
and 41 percent witness bullying once a week or more.\2\
                     the tyler clementi foundation
    As an organization, The Tyler Clementi Foundation has initiated 
several awareness programs based on Tyler's story as well as 
partnerships to provide anti-bullying research, information and tools 
for youth, parents and youth serving professionals.
                            day one campaign
    Our Day One Campaign is a simple, innovative, research-based and 
effective intervention designed to prevent bullying before it happens. 
Day One Campaign creates a safe inclusive atmosphere within a community 
where everyone is embraced not despite their differences but because of 
their differences. One of the pieces of knowledge I learned, is that 
bullying is a power imbalance or struggle. People are usually targeted 
because they are different. The difference can be real or perceived or 
even at times fabricated. We must change our culture to embrace our 
differences and not use them to humiliate someone else. I believe a 
diverse group of people will make a community successful and thrive. 
The truth is we need many different interests, gifts and talents to 
have a truly great country, one that will lead in areas of technology, 
business, education and health care. We do not need to like or agree 
with everyone but we must be respectful and treat everyone with the 
dignity they deserve.
    Our Day 1 Campaign is simple, just visit our website and download 
the script which states specifically what behaviors, words and actions 
are acceptable and what are not. Have a leader read the script to the 
group and get an acknowledgement back from the group that they 
understand. By verbally calling out and naming specific words and 
actions that are not acceptable within a certain group, the leader sets 
the tone and the group understands that this community will be a safe 
supportive space for everyone.
                            upstander pledge
    The next step would be to allow individuals in the group or 
community to pledge to be an Upstander. An Upstander is someone who 
stands up and speaks out when they see someone being humiliated, 
harassed or bullied. Another piece of information that I learned is 
that in 80 percent of all bullying situations there are 3 components, 
the bully, the target, and the bystanders. This was true in Tyler's 
situation, there were many witnesses called up during the trial and I 
couldn't help but think, if just one of those people had reached out to 
Tyler or had reported what was happening, there might have been a very 
different ending to Tyler's story.
    The good news is, this knowledge creates a great opportunity to 
enable us to change the power dynamics in future bullying situations, 
as we turn the bystanders into Upstanders. There are several ways 
someone can become an Upstander, and of course we never ever want 
anyone to put themselves in harm's way. If the bystander knows the 
people involved or they feel safe, they can simply speak up at the time 
of the incident. Letting the aggressor know that those words, actions 
or pictures are hurtful and offensive and that they will not be 
tolerated in this place or space. Sometimes just calling it out can 
change the tone and atmosphere and is all that is needed. But if that 
doesn't have impact or if you are not safe speaking up then it is 
essential to tell a trusted adult and/or a person in authority. Telling 
is not the same as tattling if the motive is to help and keep someone 
safe. Most importantly is to speak to the target, especially if you 
know the target. Make sure the target is safe, and that they know where 
to go for help and support, as well as letting them know that you are a 
resource for them if need be.
                     steps for bullying prevention
    The Tyler Clementi Foundation believes that every classroom and 
institution of higher education can be a safe place to learn and 
thrive, but in order for that to happen, we need to change the culture 
in many of these institutions. There may never be a one-size-fits-all 
solution to the epidemic of bullying. But the simplest and best place 
to start is to teach and encourage empathy. To encourage people to only 
do and say what they would want done and said to them. Empathy is one 
of the best tools we have to make the world a better place.
    My personal goal is to change hearts and minds to ignite this 
culture shift to a society that is empathetic, respectful, considerate 
and kind but I also understand that sometimes that cannot happen 
quickly enough without or in isolation of legislation. Legislation is a 
necessary part of the process to help create that change. Because some 
people may be blinded or unaware of the harm and pain that is caused by 
their own biases and prejudices, there is a need for laws that can set 
a minimum for acceptable behavior and shine a spot light on those 
injustices and inequalities present on some of our university and 
college campuses. Federal legislation is urgently needed to help create 
safe campus climates for all students in higher education across the 
country.
    Because our higher education system is so highly recognized around 
the world, our colleges and universities attract students from all 
parts of the world. Students who come with many different thoughts and 
ideas including ethnic and cultural biases. This further supports the 
idea that we need to have legislation that will provide a safe campus 
climate for all students, especially the most vulnerable.
                          federal legislation
    My request of you today is simple, I urge you to include The Tyler 
Clementi Higher Education Anti-Harassment Act in the reauthorization of 
the higher education act. The Tyler Clementi Higher Education Anti-
Harassment Act would:

    1. Initiate, expand and/or improve programs that prevent the 
harassment of students.
    2. Provide counseling to targets and perpetrators.
    3. Educate and train students, faculty and staff about ways to 
prevent or address harassment.
    4. Promote ongoing research as to what is the best methods to 
combat this epidemic.

    I believe this bill will allow institutions of higher education to 
take a fresh look and reexamine their policies and procedures that are 
and are not in place. In addition this legislation is your opportunity 
to not only keep our own young adults safe but to also have a global 
influence. Book knowledge is important but the wisdom of empathy and 
compassion is priceless.
    Bullying does not magically disappear when someone turns 18. We 
must continue to provide safe and supportive learning environments for 
all students in all learning environments including higher education. 
The time is now, we can't let Tyler's story continue to repeat itself. 
Action must be taken now because there have been far too many Tyler's 
already. Thank you.
                               references
    1. National Center for Education Statistics and Bureau of Justice 
Statistics, School Crime Supplement, 2011.
    2. Bradshaw, C.P., Sawyer, A.L., & O'Brennan, L.M. (2007). Bullying 
and peer victimization at school: Perceptual differences between 
students and school staff. School Psychology Review, 36(3), 361-382.
    3. Centers for Disease Control and Prevention, Youth Risk Behavior 
Surveillance System, 2013.
    4. Hawkins, D.L., Pepler, D., and Craig, W.M. (2001). Peer 
interventions in playground bullying. Social Development , 10, 512-527.
    5. Kosciw, J.G., Greytak, E.A., Bartkiewicz, M.J., Boesen, M.J., & 
Palmer, N.A. (2012). The 2011 National School Climate Survey: The 
experiences of lesbian, gay, bisexual and transgender youth in our 
Nation's schools. New York: GLSEN.
    6. Stopbullying.gov.

    Senator Murray. Thank you very much, and thank you to all 
of our witnesses today. In the absence of our chairman, Senator 
Kirk, I'm going to ask some questions and we'll go back and 
forth. But we really appreciate everyone's participation today.
    Ms. Clementi, I just want to thank you for sharing your 
personal story and for all the work you're doing to stop 
bullying on our college campuses, especially as it affects our 
LGBT youth. As a mother, I can only imagine what you've gone 
through.
    I am very proud to lead the Tyler Clementi Higher Education 
Anti-harassment Act here in the Senate, along with my 
colleague, Senator Baldwin. But I think we should also 
recognize my colleague, the late Senator Frank Lautenberg, who 
originally wrote this and introduced it, and we appreciate his 
tremendous lead on this.
    What this bill does is it actually requires colleges and 
universities that receive Federal aid to establish anti-
harassment policies and specifically recognize the cyber 
bullying, and creates a grant program to prevent bullying and 
provide counseling to our students. When I first sponsored this 
bill, I was actually surprised to learn that there aren't 
universal policies in place in our colleges and universities 
across the country, because no student should ever have to face 
discrimination or harassment when they're pursuing a degree. I 
just really believe that colleges should be safe places for our 
students to learn, and it should be all of our responsibility 
to create that environment.
    Ms. Clementi, through the Tyler Clementi Foundation, you 
have collaborated with many institutions and organizations that 
are engaging in this work. I wanted to ask you, in your 
opinion, what would be the single most impactful thing the 
Federal Government could do to stop bullying on our campuses?
    Ms. Clementi. I'm not sure that there would be one single 
answer, because I'm not sure that one issue relates to 
everyone. But I certainly think that the legislation that is 
put before--that you've spoken about addresses many different 
issues. I think it talks about prevention, which is key, but 
also in the event that bullying does happen, we want to have 
programs in place, and I think it's essential that we have 
policies in place at colleges and universities.
    Many colleges and universities do not have any policies, or 
they haven't been even updated to fully use the proper research 
that is out there currently. I think this bill would give 
colleges a reason to reevaluate their programs and policies and 
reinstitute and, hopefully, come up with some new ideas that 
will address the issues.
    Senator Murray. Thank you, and thank you for your 
tremendous advocacy on this.
    Research on the causes of bullying and hazing and sexual 
harassment and sexual assault and intimate partner violence 
indicates that bystanders are a key piece of prevention work. 
And as I mentioned when I began--Stanford University and what 
happened there--it really became clear to many of us how 
important it is to train students on intervening as bystanders. 
If not for those two Stanford graduate students who were 
strangers to the victim but were willing to intervene and help, 
the situation could have been a lot worse.
    I think it's really essential that the Federal Government 
and schools invest in violence prevention programs that help to 
build self-awareness and responsibility and confidence. I want 
to start with Dr. Huskey and Dr. Allan. What are some of the 
promising programs and activities and practices that work to 
prevent violence on our campuses and really change campus 
culture?
    Dr. Huskey or Dr. Allan, whichever one.
    Ms. Allan. OK. I'll jump in here. Promising programs and 
practices that work to prevent violence and change campus 
culture--I think we know from prevention science that it's 
important to have a prevention framework.
    It's very important to assess the climate, gather data, 
have data-driven approaches, and to evaluate what you're doing; 
to have staff who are dedicated or designated to do the work so 
it's not all on one person's shoulders or on no one's 
shoulders; to have a coalition-based approach, an approach that 
is considered comprehensive, and what we mean by that and what 
the literature means is that it's not just one training or one 
type of workshop or a speaker coming in to campus or a 1-week 
awareness week. It needs to be something where there's high 
dosage.
    It's a comprehensive, multi-pronged approach that is 
looking at the problem, the contributing factors, and the 
protective factors at multiple levels. What's contributing to 
hazing or bullying, sexual violence, and other issues at the 
individual level, at the group level, at the institutional 
level? You're looking at policies, you're looking at individual 
behaviors, and then also you're looking at the community level 
as well. The social, ecological approach is critical, we know 
from the research.
    We also know that a social norms approach as well as 
bystander intervention both have some evidence base to back 
them up in terms of effectiveness, and a social norms approach 
works to emphasize rates of positive behaviors that we want to 
emphasize, positive attitudes and behaviors. We also know 
bystander intervention--the Know Your Power Program has built a 
strong evidence based platform for that bystander intervention 
program, and there are other programs as well.
    Of course, training, engagement of students in the planning 
and design of these efforts, and outreach to the broader 
community, so in the case--I think in all these cases, it's 
really important to not only focus on the immediate campus 
community and the students, but include all the constituencies 
on campus and other stakeholders as well, including family, 
parents, caregivers, alumni, and the local community who may 
come into contact or see warning signs of these kinds of 
behaviors. And if they know what they're looking for and they 
know where to report it, they can be very helpful in terms of 
bystander intervention.
    Senator Murray. Dr. Huskey.
    Ms. Huskey. There are a couple of pretty robustly 
researched programs. Green Dot and Know Your Power are two of 
those. Both of those really work at the cultural level by 
norming intervention and pro-social behavior but also by giving 
students very concrete skills and the opportunity to practice 
those skills. What we know is that students often don't have 
many opportunities. Some folks are naturally gifted in 
intervention and being an upstander. Others are not and really 
benefit from the opportunity to practice some basic skills.
    So we require our new students to attend bystander 
intervention training as early as possible in their first 
semester, and then we reinforce that in a variety of 
environments so that students have many opportunities to 
practice. We've been very fortunate that our student government 
has embraced this effort and as student leaders has really been 
engaged in promoting and extending our work around 
intervention.
    We also know that students would benefit from early and 
frequent conflict resolution training. As I think we've all 
agreed, most of this work needs to start in elementary school. 
By the time we have an 18-year-old student who is facing a 
major developmental event in coming to college, the ability to 
generate new behavior is limited just by the incredible 
cognitive capacity that's taken up by being at college.
    If we could introduce more broad-based conflict resolution 
training early to teach students to deescalate, to intervene, 
to think about ways of moving away from violence and toward 
creative problem solving, we know that that would be very 
helpful. We do our best to provide that in the college 
experience, and I think we do a good job. But we could 
certainly--it would be so helpful to be able to build on a 
strong base of bi-standard training and conflict resolution 
training that happened early and that we could reinforce.
    Senator Murray. Very good.
    Senator Casey.
    Senator Casey. I want to thank Senator Murray for her 
leadership today for this roundtable, but also for her work on 
these issues for a long, long time, and we're grateful for that 
leadership. It's probably needed now more than ever, and we're 
grateful for that.
    I want to make a preliminary comment and then direct maybe 
one basic question to both Dr. Huskey and to Mr. Storch. I 
guess the first comment is when you consider this problem of 
sexual assault and sexual violence on campus in addition to the 
related problem of bullying, which seems to occur at all ages 
in a lot of different circumstances, but especially when 
children are very young where it can be particularly 
destructive, I guess in both cases, the tolerance of that 
activity is the ultimate betrayal.
    We told children to study hard, go to school, and you'll 
succeed. Well, they study hard and they go to school and they 
get bullied over and over and over again. A lot of adults don't 
do a damned thing about it. We tell young women to study hard 
so you can go to college, and you'll be on a college campus and 
you'll learn a lot. Your life will be improved if you get that 
college education. And then, once again, people in authority, 
from politicians to leaders of all kinds and some of them on 
campuses, don't do very much.
    Then you have the horrific circumstances where someone who 
happens to be gay or lesbian or has a disability becomes the 
subject of bullying to the extent where they feel that the only 
way for them to deal with it is to take their own life. I want 
to thank Ms. Clementi for being here. We can't even imagine 
what you've been through, but your presence here gives us hope 
that we can find some answers that will lead us in the right 
direction.
    But it is a betrayal, and for too long, we've, I think, as 
a society have kind of shrugged our shoulders. Politicians need 
to do more. Campus or university leaders need to do more. 
Employers need to do more, and certainly parents need to do 
more. I think we have to push hard enough to where people get a 
little bit uncomfortable with some of the things we're 
proposing, because if people aren't uncomfortable, not much is 
going to happen.
    I've had the chance to work on two parts of this, one to 
lead the effort to have enacted into law the Campus Save Act, 
which did a whole host of things, but it's only been in 
practice for a year. We had to, first of all, get it done as 
part of the reauthorization of the Violence Against Women Act, 
and then get the regulatory process done, and then in September 
2015, or, I should say, technically, July 2015, it went into 
effect. So I want to ask about what the experience is by 
universities.
    I want to thank Senator Murray for her leadership on the 
Tyler Clementi Higher Education Anti-harassment Act. I'm a co-
sponsor of that, and I'm also leading the effort on the Safe 
Schools Improvement Act, which means that local school 
districts have to do more when it comes to bullying.
    But I guess one question only, because we don't have time, 
for--Dr. Huskey, I'll start with you. In terms of Campus Save, 
it's been a reality now for just a year. What steps has your 
institution taken to implement the Campus Save Act?
    Ms. Huskey. Thanks very much for the question. Because we 
have been fortunate enough to receive the Department of Justice 
grant, we were actually in compliance with almost all elements 
of the Campus Save Act before it was enacted, so we had the 
opportunity to extend our work. We were fortunate enough to 
receive an extension of that grant. So we have been able to 
really strengthen our Campus Community Relations Team, to 
provide more education, and to do that work that allowed us to 
be in compliance.
    Senator Casey. That's great. I should have mentioned some 
of the elements. We are trying to do a number of things. 
Increasing transparency is one; promoting bystander 
responsibility which was talked about today; making sure that 
victims get the help that they need, that schools have to have 
in place procedures and policies to help victims; clear 
procedures for institutional disciplinary proceedings; and 
assistance to institutions to implement the requirements.
    Mr. Storch, maybe you can give your perspective from a 
major institution like yours.
    Mr. Storch. Thank you, Senator. As I said in my testimony, 
we dove into the changes in the Campus Save Act, the VAWA 
amendments to Clery, head first. The Department of Education 
issued its proposed regulations on June 19th of 2014. On June 
26th, we held the first of two trainings for all of our 
campuses. We had over 250 people between the two trainings.
    I had seven of my colleagues, a total of eight attorneys, 
and we had two very good interns. We wrote a 93-page guidance 
on how to comply with all aspects, from exactly what you have 
to do to report on what the State laws are in the annual 
security report, to policies on bystander intervention, to 
polices on confidentiality. We took a lot of things that were 
already working with SUNY and we spun them up to things that 
would work well across the board.
    We wrote 93 pages in a week, written, edited, ready for our 
trainings. Like I said, we had 250 people between those two 
trainings, and we wanted to be sure that even though the laws 
would go into effect in July 2015, by July 2014, all of our 
SUNY campuses would be trained, and we met that goal. So other 
colleges were waking up that this was there, and nothing 
against them. But we were completing our trainings on it, 
because it is that much of a thing that the entire university 
thinks about, from our chancellor to our student affairs 
practitioners, our title IX practitioners, and the like, and 
we've continued to build on that.
    In New York State, we had our SUNY policies--the Governor 
worked extremely well with SUNY, took those SUNY policies and 
proposed them. They passed almost unanimously in both houses, 
and that went way beyond the requirements of VAWA, explaining 
confidentiality, an affirmative consent definition that is 
really a model definition, amnesty when bystanders or victims 
come and report, and a number of really important training 
things, because, as we said, we encourage you to double down on 
prevention.
    Everybody up here, you've heard about it. SUNY doesn't want 
to be the leader in responding to bullying, hazing, and 
violence. We want to have fewer incidents to respond to, and I 
know all my colleagues up here share that. We really liked what 
the Congress did with VAWA, and we hope that you continue down 
that path.
    Senator Casey. Great. Thank you very much. I appreciate it.
    Senator Murray. Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you very much, Senator Murray, for 
convening this roundtable. This is very, very helpful to all of 
us, and I appreciate the presence of all of our witnesses here.
    I wanted to start with you, Ms. Clementi, and start by also 
sharing my gratitude to you and your family, all of your 
family, for, as you said, helping others learn through your 
family's pain, but, really, taking serious action so that the 
tragedy that you experienced doesn't happen to other families. 
I very much appreciate that. I know I'm not alone in being 
inspired by your strength and your family's strength.
    You said in your testimony that through your efforts on 
this bill that you've learned that Tyler's experience was far 
from an isolated one. And, in fact, you cited some research, I 
believe, that counts over 3 million instances of cyber 
bullying, I think you said. But it strikes me that this is 
probably an area that's under-researched, that we don't have as 
much information about the prevalence of bullying in higher 
education and, particularly, that directed at LGBT students.
    However, I imagine from your own experience that you've 
heard a lot anecdotally, and you've begun to understand how 
widespread this is. I wonder if you could speak to that.
    Ms. Clementi. Sure. Thank you. Yes, I have definitely 
heard--everywhere that I go to speak, people come up to me from 
all ages. Whether it's in a workplace that we've spoken or in 
high schools or colleges, people seem to like to share what it 
is that attracts them to Tyler's story and what their own 
experiences are. I do think that it is definitely an under-
researched area.
    I know as a foundation, we are working with Rutgers 
University, as we have a Tyler Clementi Center at Rutgers 
University, and we are working also on research in that area. 
We are also doing polling in that area, because it's important 
to not only know that it exists, but also what will work best, 
like what do you want to hear? Do they want to hear me share 
Tyler's story, or do they want to hear Beyonce say, ``girls 
don't put other girls down'' or--what are the words that work? 
Because we want it to work. We want something that will work.
    It might not be the same for everyone. There might be 
different messages for different people. Some people don't even 
want to call it bullying in the higher education area, but it 
is. It's harassing. It's ongoing actions that are hurtful to 
another person. Some inner city youth may not consider it 
bullying, either. They may just call it a rite of passage or 
hazing. But whatever it's called, it's behavior that's 
unwanted, and we need to change it, and we need to address it.
    We definitely need more research, more polling, and to 
survey the area. That's one of the activities that I think our 
new executive director at the Tyler Clementi Center at 
Rutgers--it plans to survey colleges and find what's being done 
for LGBT students, specifically, in the college area, what is 
working and what is not working, and which schools have 
programs in place.
    Senator Baldwin. Thank you. With regard to where you left 
it, which schools have programs in place and policies, we have 
two witnesses here whose universities have taken a number of 
steps to address bullying, hazing, and other threats to campus 
safety. I'd like to ask this of Dr. Huskey and Mr. Storch.
    Can you each talk briefly about how your universities are 
specifically addressing bullying targeted at LGBT students and 
why it's important for your schools to have affirmative 
policies addressing bullying, and what the positive impacts of 
those policies have been so far on the learning environment?
    I'll start with you, Dr. Huskey.
    Ms. Huskey. I'd be glad to start. Thank you. This is a 
matter that is very dear to my heart, as a lesbian, as a 
parent.
    I really honor your capacity to be here and to talk about 
this tragedy. It's astonishing to me, and I have so much 
respect for what you're doing.
    Washington State University has been a leader in LGBT 
services. We were the first university in the State to have a 
professionally staffed center. I was the inaugural director of 
the center, as a matter of fact, and from the very beginning of 
that time, we have had inclusive policies which acknowledged 
the value of LGBT students and their full inclusion in our 
institution. So we do not have policies which specifically 
prohibit LGBT harassment, because the inclusion of LGBT 
students in every element of our policy and practice has been 
established for 20 years.
    We've seen changes over time. Certainly, issues around 
Trans students are much more prevalent now than they were when 
I first came to the institution, and we are very attentive to 
the changing student populations and the changing needs.
    But we do know the work of the Safe Schools Coalition in 
Washington for years documented that LGBT students are at 
higher risk for all forms of harassment from unkind words to 
physical assault, and we need to be very aware that we have a 
special responsibility--because we know those students are more 
at risk--to outreach to them and to ensure that everyone on our 
campuses understands that we value and include all of our 
students because of who they are, not in spite of, but because 
of who they are.
    Mr. Storch. Thank you, Senator. Like Washington State, this 
is something that we think about a lot at the State University 
of New York. SUNY is, beginning this past year, conducting a 
survey of all incoming students with questions about, among 
many other things, sexual orientation, gender identity and 
expression, with a number of different choices and the option 
to fill in additional choices. Because we need to know more in 
order--we need more data in order to be able to most 
appropriately respond.
    We have done a number of trainings. When the Office of 
Civil Rights issued its recent letter on transgender students, 
we read that in the counsel's office and said, ``Yes, I mean, 
we've been there for a long time.'' And if you read some of 
their past resolution agreements, we weren't surprised by 
anything that we saw in there. In general, specific to our 
transgender student population, we have taken an approach where 
we try to make those students comfortable. We know that for our 
transgender students, they have been hassled at every point in 
their life, in elementary school, in high school, their homes, 
their churches, everywhere they've gone.
    When I work with my campus clients and we have a request 
from a transgender student who wants something different, 
something to change to make them more comfortable, we take a 
look and we say, ``Is this something that--yes, we've been 
doing it this way for a long time, but is it something that we 
really need to do this way? You know, the full name on the 
class roster--do we really need it that way? Can we just use a 
preferred name? Yes, let's just use a preferred name.'' That is 
how our SUNY clients look at it, in a really student-centered 
way, and I'm very proud of them for that.
    A slight shift on your question, but I think it gets to the 
same concept. When SUNY's chancellor put together a working 
group in 2014 to look at issues of sexual and interpersonal 
violence, I was one of the co-coordinators, and I was working 
with the committee that was writing our affirmative consent 
definition. We had a bunch of outside experts in our committee.
    We had one expert who is one of the co-founders of Equal 
Justice New York, a woman named Libby Post, and she said, ``You 
know, in your affirmative consent definition, you should say 
affirmatively, as it were, that this applies regardless of 
sexual orientation, gender identity or expression, because a 
lot of students don't think that it applies to them.'' And I 
said, ``OK. Well, what should the sentence say?'' She said, 
``This definition applies regardless of sexual orientation, 
gender identity, or gender expression.''
    We typed it in. It was in there. Passed all the way through 
the SUNY policies. Passed all the way into the legislation, 
went into the legislation. There were a lot of changes to a lot 
of points in the legislation. Both parties let that go, and 
when that passed, when Governor Cuomo signed that into law in 
2015, it was the first time, as I'm told by another activist, 
that any State had passed a law saying rights are going to be 
given equally regardless of gender identity or gender 
expression.
    We didn't know as we were going through it. It was a no-
brainer. Libby Post said it and--OK. We put it in. We had no 
idea how historic it was. But that's the kind of commitment we 
have at SUNY. We're not trying to make history. It's just 
business as usual to try to treat students equally.
    Senator Murray. Thank you.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you very much. Thank you, Ranking 
Member, and I offer my apologies. We're trying to cover 
multiple things at the same time, so we're a little bit come 
and go here.
    When I was preparing for this roundtable, I was thinking 
about the fact of the Boston Pride Parade, which we love in 
Boston. And for years, when I have gone to the Pride Parade, I 
don't march. I dance in the Pride Parade. I love it as much as 
any single thing I get to do as a Senator, because Pride shows 
what this Nation looks like when we are at our best, 
celebrating who we are.
    Last month, I danced in the Pride Parade, and the next day, 
we woke up to find out that a gunman had massacred dozens at an 
LGBT club in Orlando. It reminded us that the struggle for 
acceptance is far from over. But this is certainly true on 
college campuses. A Campus Pride survey found that nearly a 
quarter of lesbian, gay, and bisexual students, staff, faculty, 
and administrators were harassed on college campuses based on 
their sexual orientation, and over 40 percent of transgender 
respondents reported fearing for their physical safety.
    Ms. Clementi, I think about the harassment that your son 
experienced and about others on college campuses who live with 
bigotry, who live with hatred, who live with injustice, and I 
refuse to believe that we cannot make our campuses safe or more 
welcoming places. You have tried to draw attention to the 
importance of collecting better data about harassment and 
bullying of LGBTQ students. Can you just tell this committee a 
little bit more about why you believe that is so important?
    Ms. Clementi. Yes. Thank you, Senator Warren. I think that 
it's very, very important, because, basically, people in the 
power struggle and the bullying situation--it's usually because 
of someone's difference. And, unfortunately, because of some 
people's cultural or religious biases that they bring with them 
to the college campus, they like to target LGBT youth, and 
that's what I think I have found in the work that I've done and 
in the stories that I've heard from many people who have shared 
them with me.
    That is why I think we really need to work strongly in this 
area for LGBT youth. We need to collect this data so that we 
have the input, so that we can do the assessment, and then we 
can implement a plan, and then we can help correct those 
actions.
    Senator Warren. I just want to say thank you for throwing 
your heart into this very difficult fight. It is courageous, it 
is selfless, and it presses all of us to do better. I am a huge 
believer in data, that data help us understand what's 
happening. If you don't count it, you're a lot less likely to 
be able to----
    Ms. Clementi. And that's one of the things I mentioned 
before with Senator Baldwin. At Rutgers University, we have a 
Tyler Clementi Center, and we have a new executive director, 
and that's one of her main goals at this point in time, to 
survey the 4,000, 5,000 higher education institutions and find 
out what services they have and who are providing what and 
what's working in those places.
    Senator Warren. Senator Baldwin has been a real leader----
    Ms. Clementi. Yes, I think it was a great point to make.
    Senator Warren. Good. There's another issue that I also 
would like to raise today. In recent years, we have seen a wave 
of State legislative proposals that make it easier for college 
students to bring guns to school despite the fact that 
students, faculty, and campus law enforcement officials 
overwhelmingly say this is a bad idea. Of course, the NRA 
doesn't care that it is a bad idea. They actively boast of 
their efforts to eliminate some State laws banning concealed 
weapons on college campuses, and they have had some successes. 
Just last year, they released a report, and the title of the 
report is On Campus Carry, We Have Only Begun to Fight.
    Mr. Amweg, you've spent 35 years in campus law enforcement. 
In your expert opinion, will allowing more guns on college 
campuses increase or reduce the risk of violence on campus?
    Mr. Amweg. Thank you, Senator Warren. I think inasmuch--and 
to highlight what you said--that this is an issue that is taken 
up State by State, but in some cases, even institution by 
institution within those States. I think most educators would 
agree that introducing firearms into the teaching and learning 
environment of a higher education institution is 
counterproductive to the mission of the institution.
    For example, in an active shooter situation, introducing 
more firearms into that incident, into that already armed 
encounter, would lead, certainly, to creating a less safe, not 
a more safe environment for that institution. There have been 
only a few studies that have looked at that as something 
similar to this, in other words, introducing armed citizens 
into an already armed encounter, and none of those studies have 
shown that a positive impact will come from that kind of a mix.
    Additionally, law enforcement responding to the scene of an 
active shooter, particularly on a university campus, are now 
faced with a mixed environment. Both the, if you will, good 
guys and bad guys have guns. So while law enforcement officers 
are certainly trained to evaluate those encounters before using 
or employing deadly force, it still takes time to determine if 
the person that they're encountering is, in fact, a good guy or 
a bad guy, and that's the time officers could be using to 
eliminate the threat and save lives otherwise.
    Senator Warren. Thank you, Mr. Amweg. I think that's a very 
powerfully made point. I appreciate that.
    Dr. Huskey, you're a current campus administrator. Could 
you weigh in on this, please?
    Ms. Huskey. We're fortunate that Washington currently has 
laws which govern that. Firearms and other dangerous weapons 
are currently prohibited by statute on our campus. It's not an 
issue that we have had to consider.
    My concern is, consequently, primarily with suicide 
prevention. We know that young people die much too frequently 
from suicide. It's the second leading cause of death for young 
people 19 to 25, just under accidental death, and firearms are 
the most lethal means available. The use of a firearm is about 
85 percent lethal for students attempting suicide as opposed to 
about 5 percent for overdose or poison.
    Reducing access to lethal means is an important part of 
research prevention programs around suicide, and we will 
continue to consider that a very important part of our work. 
Our goal is always to keep students safe, and whatever our 
legislative and legal environment is, that will be our primary 
responsibility.
    Senator Warren. Thank you, Dr. Huskey. I appreciate that. 
Actually, I'd like to go there. Whatever you think about the 
NRA's unsupported claim that somehow more guns is going to 
reduce campus violence, the suicide aspect of this and how 
lethal suicide attempts are with guns is something that we've 
got to address, and we've just got to address it honestly.
    I know, Ms. Clementi, that you have devoted your life to 
the cause of reducing bullying, harassment, and suicide, which, 
as Dr. Huskey noted, is the second leading cause of death among 
college age adults. In your opinion, if we introduced more guns 
on college campuses, what do you think would be the effect on 
suicides?
    Ms. Clementi. It definitely would increase the number, 
especially, of completed suicides. It's a no-brainer, a common 
sense question. You don't want to give a youth who is impulsive 
and spontaneous a weapon that's going to cause so much self-
harm or even harm to other people. I think you need to 
eliminate as many possible weapons in their arsenal that they 
can have, and I think that would be an easy answer for that.
    Senator Warren. Thank you very much. I appreciate all of 
you being here for this. The way I see this, it is up to law 
enforcement, teachers, campus officials, parents, kids to 
demand that politicians put the safety of our children above 
the demands of NRA lobbyists. I will keep fighting, too.
    But I want to be clear. Elected officials don't answer to 
me. They answer to the public, and I very much hope that all of 
you and everyone else who hears this will be pushing back and 
pushing our Congress to do more about gun safety. Thank you. 
Thank you for being here.
    Senator Murray. Thank you very much. I want to thank all of 
our colleagues and our witnesses who joined us here today. This 
is really a good step in laying the groundwork that we need to 
do to make sure that we have strong reauthorizing language in 
the Higher Education Act, and I hope that we can do it in a 
bipartisan way and move it forward. This is obviously a very 
critical issue, and today is just one part of this 
conversation. I appreciate everyone being here and 
participating.
    The hearing record is going to remain open for 10 days. 
Members may submit additional information for the record.
    I particularly want to thank all of our roundtable 
participants today for being here and sharing your knowledge, 
and I appreciate you working with us to get this done and get 
it done right. Thank you very much.
    With that, the hearing is closed. Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

        Response to Questions of Senator Murray by Joseph Storch

                  The State University of New York,
                                 Office of General Counsel,
                                          Albany, NY 12246,
                                                   August 29, 2016.
Hon. Lamar Alexander, Chairman,
Health, Education, Labor, and Pensions (HELP) Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Health, Education, Labor, and Pensions (HELP) Committee,
U.S. Senate,
Washington, DC 20510.

Re: Campus Safety: Improving Prevention and Response Efforts

    Dear Chairman Alexander, Ranking Member Murray, and members of the 
committee: On behalf of The State University of New York (SUNY), I am 
honored to provide written responses to the questions asked by Ranking 
Member Murray. Below please find the questions as well as testimonial 
responses.
                                 ______
                                 
    Question 1. What recommendations do you have to address problems 
related to campus safety, such as reducing bullying, harassment, gun 
violence, and campus sexual assault, in the reauthorization of the 
Higher Education Act?
    Answer 1. The Higher Education Act not only prescribes the law and 
compliance requirements, but also serves as a moral compass to 
encourage colleges to best serve students. As we said during our recent 
testimony, when Congress reauthorized the Violence Against Women Act 
(VAWA) and amended the Clery Act in 2013, it added significant 
prevention and training requirements. The Clery Act had traditionally 
looked backward (report what happened, respond to what happened). For 
the first time, the VAWA amendments to the Clery Act require a look 
forward, which adds an element of prevention, not just reaction. As 
Congress considers amendments to the Higher Education Act, we urge you 
to double down on prevention measures, including assisting campuses to 
provide more focused training and authorizing additional Federal 
resources for colleges to meet their prevention goals.
    Legislatively, we should not look at bullying, harassment, gun 
violence, and sexual assault as completely separate issues with 
distinct solutions, but as a continuum of harm conducted by some 
against others. There are no simple solutions to any of these problems, 
but to make progress in preventing any of them we must work efficiently 
to address all of them simultaneously.
    Each issue can be addressed, in part, through prevention 
programming that encourages respect between and among our students and 
staff. This is much easier to say than to do, but addressing the issues 
together and consistently will allow for more progress toward safe 
campuses than requiring a separate compliance, response, and prevention 
regime for each issue.
    Building upon my initial written testimony, we would also recommend 
the following changes to strengthen the Higher Education Act and help 
make campuses safer for students, staff, and members of the community. 
As Congress adds additional requirements for colleges, it should also 
consider changes to outmoded requirements whose bureaucratic 
requirements outweigh any safety gains.
    While some minor changes can ease compliance, below are several 
major changes Congress could enact to make compliance more effectual, 
permitting institutions to save time and devote more attention to 
prevention education:

    <bullet> Clarify Clery geography: The U.S. Education Department 
(``ED'') has given conflicting guidance regarding how and where to 
count crimes when students study abroad. This has led to confusion and 
high compliance cost. In its most recent guidance,\1\ ED writes that if 
a college rents hotel rooms for one night, those rooms do not count for 
Clery unless two different groups use that same hotel for one different 
night each in 1 year; two nights would count, but only if there are 
certain agreements in place, and only for the days the college has 
``control,'' and colleges would only count crimes in the students' 
rooms, hallways, and public areas. A student killed in a non-student 
hotel room would not be reportable, a non-student killed in the hotel 
pool would be reportable. A heinous triple homicide occurring 3 days 
before students arrive would not be reportable, nor would the same 
crime occurring on the sidewalk just outside the hotel. And even if 
colleges are able to organize and count all covered trips taken by 
study abroad, academic programs, athletics, and certain student 
organizations, ED would have the college combine those statistics with 
certain crimes occurring at certain off-campus student organization 
houses (mostly Greek letter organizations) that have little or nothing 
to do with these trips. This leads to confusion and very costly 
compliance, while there is no evidence that it makes students safer.
---------------------------------------------------------------------------
    \1\ https://www..ed.gov/admins/lead/safety/handbook.pdf.
---------------------------------------------------------------------------
    The statistical validity of assessing safety in a town or village 
in a holistic way based on crimes collected through certain limited 
sources during only 24 or 48 hours, and only in parts of a single hotel 
is little better than polling three people at a political rally and 
using that to predict an election. In other words, not a good predictor 
at all. Does the fact that a crime did or did not occur during a day or 
two in a hotel serve as a predictor of whether the same or another 
crime would occur in a different day years later in that same hotel? 
And what, if anything, does that say about the surrounding 
neighborhood, city, State, or province? The clear answer is little or 
nothing. The United States possesses assets, including reports by the 
State Department and Central Intelligence Agency, that provide a 
holistic and statistically meaningful assessment of safety in a given 
area. Congress can require that ED work with other agencies to provide 
information about the given safety of an area, without requiring 
tedious collection of miniscule data points that do not provide 
statistically sound information about the safety of a location.
    <bullet> Clarify local law enforcement letters for Study Abroad: ED 
requires that colleges write to local law enforcement for every 
jurisdiction that includes Clery geography. This means that for the 
hundreds (even thousands) of hotels, classrooms, and other sites that 
must be included in Clery geography under ED's June 2016 interpretation 
institutions must write detailed letters to local law enforcement 
asking them to report certain crimes using United States Uniform Crime 
Reporting definitions, in certain pinpoint locations and only for 
certain days. Unfortunately, this has simply become an exercise in 
futility, as international police agencies rarely respond with useful 
numbers. ED audits against what letters are sent, and a college could 
run afoul by not having sent a specific letter (even if no answer would 
ever be received). Institutions are spending significant time and 
resources developing and mailing letters that bear no fruit. Further, 
sending letters asking about sexual assault and dating violence to 
certain localities, which do not recognize sexual and interpersonal 
violence as a crime and which may choose to arrest or retaliate against 
reporting victims, puts our students in more danger. To date, ED has 
declined to allow for an exception where college professionals have a 
good faith belief that such letters will endanger our students. SUNY 
campuses have been working with national and New York State 
organizations to better prepare students to prevent violence overseas 
and to address violence in a careful and tailored manner, but time 
spent on technical Clery compliance at sites overseas (for which there 
is no evidence of safety gain) is time not spent on thoughtful, 
cutting-edge programming to prevent and respond to violence overseas.
    <bullet> Policy statements: ED insists that the Annual Security 
Report include full policy statements and (with a single exception) 
does not allow colleges to link to the relevant policies. That leads to 
longer reports that are less likely to be read. Congress could offer 
flexibility to educate students efficiently, including links to 
relevant documents.
    <bullet> Campus Security Authorities and Responsible Employees: 
ED's Federal Student Aid office has defined ``Campus Security 
Authority'' in a manner that differs significantly from ED's Office for 
Civil Rights definition of ``Responsible Employee.'' Institutions 
scramble to determine which employees meet the definition of one, the 
other, or both. Further, the language used in both terms is confusing. 
SUNY has suggested combining both concepts into a single new term 
called ``Mandatory Reporter'' and defining that term broadly. As a 
matter of policy and in practice, we want more reports of crime to come 
forward, and Mandatory Reporter is a term that has a clear meaning and 
societal understanding. Except for those with legal privilege or 
confidentiality restrictions (including medical, mental health, legal, 
or religious professionals), all compensated employees should be 
mandatory reporters who must, as soon as reasonably practicable, report 
all crimes covered by the law to the appropriate office or offices as 
determined by the institution. Reporting to the Title IX Coordinator 
would meet this requirement. This will result in more crimes being 
brought forward (and higher but more accurate numbers reported), more 
consistency in reporting, and the ability of institutions to offer a 
blanket training to employees, rather than spending significant time 
identifying and narrowly training certain employees as Campus Security 
Authorities, others as Responsible Employees, and still others as both.
    <bullet> Reduce double counting of crimes: ED has earnestly tried 
to ensure that all crimes are reported and do not fall through the 
cracks. Over time, it has modified its use of the Uniform Crime 
Reporting hierarchy rule, such that certain incidents are double or 
triple counted or more. The undersigned has identified an example of a 
single incident that would be counted close to three dozen times for 
Clery Act purposes. Over-counting crimes can skew reports, and thus 
misinforms students, just as much as under-counting crimes. SUNY 
therefore has suggested that crimes be reported once in the most 
appropriate category, and that colleges retain documentation for their 
decisions.
    <bullet> Modernize missing student reporting: ED, while trying in 
good faith to develop a method to comply with this 2008 addition, 
created a complex and confusing regime for reporting missing on-campus 
students (the ED 2016 Handbook devotes seven pages and more than 2,000 
words to complying with its current system). SUNY suggests a return to 
the plain congressional intent. The requirement can simply read,

          ``If a student is reported missing for 24 hours, within the 
        next 18 hours, the college must contact local law enforcement, 
        the student's emergency contact, and the student's parents, if 
        under 18.''

This will accomplish the important goals (which we firmly support) 
without adding unhelpful bureaucratic requirements. We would change the 
second period to 18 hours to reduce confusion from the current 24 
hours/24 hours regime.
                     new additions to the clery act
    <bullet> Double down on prevention: As stated earlier, SUNY 
applauds Congress's 2013 shift from response only to response and 
prevention. And at SUNY and in New York, we have gone further. While 
programming is offered to all new and continuing students, we require 
that student leaders and student-athletes complete training. This is 
not because we believe they are more likely to be victims or offenders; 
rather, it is because we believe they are most likely to be leaders on 
campus. By training student leaders who can model pro-social behavior, 
we can efficiently educate an entire campus.
    <bullet> Transcript notations: New York State law requires uniform 
transcript notations for students found responsible and suspended or 
expelled after a student conduct process for conduct code violations 
that are equivalent to Clery Act Primary Crimes. Institutions to which 
the student transfers are not prohibited from admitting the student, 
but are on notice of past violations and can request additional 
documentation under the Family Educational Rights and Privacy Act 
(FERPA). While New York colleges provide notations for students 
transferring out, they do not benefit from notations for students 
transferring in from out of State. A uniform standard will allow 
colleges to consider admitting students with full knowledge of past 
transgressions.
    <bullet> Amnesty: SUNY supports adding a plain-language amnesty 
from drug or alcohol use charges to encourage reporting and reduce the 
fear of a victim or bystander that they will get in trouble, not the 
person who committed the violence. SUNY's amnesty policy became law in 
New York and reads,

          ``A bystander acting in good faith or a reporting individual 
        acting in good faith that discloses any incident of domestic 
        violence, dating violence, stalking, or sexual assault to 
        [College/University] officials or law enforcement will not be 
        subject to [College/University's] code of conduct action for 
        violations of alcohol and/or drug use policies occurring at or 
        near the time of the commission of the domestic violence, 
        dating violence, stalking, or sexual assault.''

    <bullet> Mobile Resource: SUNY has launched a mobile website \2\ 
that allows victims and survivors to anonymously access confidential 
and private resources 24/7. The SAVR (Sexual Assault and Violence 
Response) site instantly displays on-campus and off-campus resources 
(these can be sorted by campus, zip code, or map location), and with a 
single additional click, opens Google Maps to find the resource. Where 
appropriate, resources are highlighted as being confidential, open 24 
hours per day, or legal in nature. SAVR also includes all relevant 
policy information plus information specific to victims needing medical 
assistance. SUNY has the only such system in the Nation, but has made 
its data base public for others to create additional resources and has 
developed a Toolkit \3\ for other colleges and States to develop a 
similar system at low or no cost. Congress can fund a national system 
or require that States adopt similar systems.
---------------------------------------------------------------------------
    \2\ http://www.suny.edu/violence-response/.
    \3\ https://docs.google.com/document/d/
1E3ZZqQ03ah3RV_qhrUrdv3TNh5cNSQiq9N8BB
21Ij-Y/pub.

    Question 2. In recent years, from Virginia Tech to Seattle Pacific 
University in my home State of Washington, there have been too many 
horrific instances of gun violence on college campuses. Despite these 
tragedies, more and more States have passed legislation that overrides 
campus policy that ensures that the campus is a gun-free zone.
    Colleges and universities have reported to the committee how they 
battle the epidemic of sexual assault, stalking, harassment, and 
domestic violence on a daily basis. According to the Department of 
Justice, 19 percent of college-aged women have experienced dating 
violence.\4\ In a domestic violence situation, when a gun is present, 
the risk of a homicide for a woman increases by 500 percent.\5\ 
Intimate partners are in fact more likely to be murdered with a firearm 
than by all other means combined. These realities raise concerns about 
the implications of overriding campus gun-free-zone policies, 
suggesting that increasing the availability of guns makes a campus a 
less safe place for all students, especially women.
---------------------------------------------------------------------------
    \4\ Krebs, C.P., Lindquist, C.H., Warner, T.D., Fisher, B.S., & 
Martin, S.L. (2007). The Campus Sexual Assault (CSA) Study. Washington, 
DC.: National Institute of Justice.
    \5\ J.C. Campbell, D.W. Webster, J. Koziol-McLain, et al. (2003). 
``Risk factors for femicide within physically abusive intimate 
relationships: results from a multi-site case control study,'' 93 Amer. 
J. of Public Health.
---------------------------------------------------------------------------
    Mr. Storch, what preventative measures does SUNY take to protect 
their students against on-campus gun violence?
    Answer 2. For almost 50 years, New York State law and regulations 
have proscribed the possession of weapons on college campuses, except 
for sworn law enforcement. SUNY enforces these rules at our State-
operated and community colleges. More than 15 years ago, New York State 
law converted our campus officers to police status. As sworn law 
enforcement, our University Police officers receive the highest level 
of training equivalent to sister police agencies, plus additional 
campus-specific requirements. SUNY also requires officers to have 
college or military experience.
    SUNY campuses practice community policing, engaging students and 
staff constantly through involvement in the community--bike patrols, 
attendance at residence hall programs, assisting with student events--
that help bridge the gap with students. In turn, students can discuss a 
crime or a danger with a police officer they know, not one at the other 
end of a phone line.
    SUNY campuses coordinate the assessment of students and staff that 
may pose a risk via threat assessment or behavioral assessment teams. 
Information is shared in compliance with laws among professionals who 
are trained to evaluate which factors show a real risk and which 
constitute normal behavior among college students.
    We believe that the best time to protect students from violence or 
an active shooter is long before the violence occurs or the active 
shooter arrives. The University expends significant resources training 
campus professionals and building capacity to address students who pose 
a risk to themselves or others. SUNY regularly cross-trains with local 
and State law enforcement. We conducted a major conference on the topic 
with the highest-level threat assessment professionals from the FBI and 
U.S. Marshalls. We will continue to train and build capacity in this 
area.
    While there are no guarantees, SUNY, its campuses, and its sworn 
law enforcement and student affairs professionals work diligently and, 
more importantly, work together--in a coordinated manner to try to keep 
our students safe from violence, including gun violence.
    Please let me know if I can provide any additional information.
            Sincerely,
                          Joseph Storch, Associate Counsel,
                                  The State University of New York.

    [Whereupon, at 4:19 p.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
